<html>
<title> - UNITED STATES ENTRY/EXIT TRACKING</title>
<body><pre>[Senate Hearing 109-568]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-568
 
                   UNITED STATES ENTRY/EXIT TRACKING

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                    JANUARY 25, 2006--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                    U.S. GOVERNMENT PRINTING OFFICE
26-743                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                               __________

                      COMMITTEE ON APPROPRIATIONS

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MITCH McCONNELL, Kentucky            BARBARA A. MIKULSKI, Maryland
CONRAD BURNS, Montana                HARRY REID, Nevada
RICHARD C. SHELBY, Alabama           HERB KOHL, Wisconsin
JUDD GREGG, New Hampshire            PATTY MURRAY, Washington
ROBERT F. BENNETT, Utah              BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado
                    J. Keith Kennedy, Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

                   Subcommittee on Homeland Security

                  JUDD GREGG, New Hampshire, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
TED STEVENS, Alaska                  DANIEL K. INOUYE, Hawaii
ARLEN SPECTER, Pennsylvania          PATRICK J. LEAHY, Vermont
PETE V. DOMENICI, New Mexico         BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HERB KOHL, Wisconsin
LARRY CRAIG, Idaho                   PATTY MURRAY, Washington
ROBERT F. BENNETT, Utah              HARRY REID, Nevada
WAYNE ALLARD, Colorado               DIANNE FEINSTEIN, California

                           Professional Staff
                             Rebecca Davies
                              Carol Cribbs
                            Shannon O'Keefe
                             Nancy Perkins
                           Mark Van de Water
                       Charles Kieffer (Minority)
                        Chip Walgren (Minority)
                         Scott Nance (Minority)
                      Drenan E. Dudley (Minority)

                         Administrative Support

                            Christa Crawford


                            C O N T E N T S

                              ----------                              
                                                                   Page

US VISIT's Continuing Efforts....................................     8
Statement of Randolph C. Hite, Director, Information Technology 
  Architecture and Systems Issues, Government Accountability 
  Office.........................................................    11
Status of Implementing GAO Recommendations.......................    12
Prepared Statement of Randolph C. Hite...........................    13
Results in Brief.................................................    14
Background.......................................................    15
Acquisition and Implementation Strategy..........................    15
US VISIT is Being Implemented in Four Increments.................    16
US VISIT Capability is Operating at Ports of Entry...............    17
DHS has yet to Demonstrate that US VISIT as Defined is the Right 
  Solution.......................................................    18
Operational and Technological Context are Still Being Defined....    18
Return on Investment has yet to be Determined....................    19
Analysis of Program Impacts and Options is Being Performed.......    21
DHS is Still Establishing Needed Program Management Capabilities.    22
DHS has yet to Fully Establish Program Accountability Mechanisms.    25
US VISIT Strategic Plan..........................................    27
Government-wide Interoperability.................................    27
Biometric Watchlist..............................................    28
Exit Capability at Land Ports of Entry...........................    29
2006 Funding Level...............................................    30
2007 Funding Level...............................................    31
Exit Capability at Air and Seaports of Entry.....................    32
Statement of Senator Patty Murray................................    32
Western Hemisphere Travel Initiative.............................    33
Land Border Crossing Initiatives.................................    34
Land Border Crossing Requirements................................    35
Land Border Crossing Challenges..................................    35
Statement of Senator Ted Stevens.................................    36
Common set of Required Border Crossing Documentation.............    36
Harmonized Secure Border Documentation--Pass Card................    37
Impact of Border Crossing Security on Alaskans...................    38
Southern Border Security Requirements............................    40
Border Security Comparison--Washington State vs. Mexico..........    40
Harmonization of Proprietary Database Systems....................    41
Departmental Focus Needed to Guide US VISIT......................    43
Revised Cost and Schedule Estimate Report of Real Time 
  Interoperability...............................................    43
Interoperability Funding.........................................    45
Congressional Funding Limitations................................    46
Exit Strategy Limitations........................................    46
Additional Committee Questions...................................    48
Questions Submitted to James A. Williams.........................    48
Questions Submitted by Senator Judd Gregg........................    48
Return on Investment.............................................    48
Air Exit Tracking................................................    49
Land Entry/Exit Tracking Pilots..................................    50
Information Technology Platform..................................    51
Automated Biometric Identification System (IDENT)/Integrated 
  Automated Fingerprint Identification System (IAFIS) 
  Interoperability...............................................    52
Border Crossing Card/Laser Visa Readers..........................    52
Office of Inspector General Report: US VISIT System Security 
  Management Needs Strengthening.................................    53
Limitations of US VISIT..........................................    53
Question Submitted by Senator Thad Cochran.......................    54
US VISIT: Biometric Technology Model.............................    54
Questions Submitted by Senator Richard C. Shelby.................    54
Entry/Exit Border Technology.....................................    54
Questions Submitted by Senator Robert C. Byrd....................    57
Fiscal Year 2006 Spend Plan......................................    57
Ten Fingerprint..................................................    57
DHS-FBI Interaction..............................................    58
Immigration Statistics...........................................    58
Biometric Performance............................................    59
Database Interoperability Milestones.............................    60
Questions Submitted by Senator Patrick J. Leahy..................    61
Immigration and Customs Enforcement Law Enforcement Support 
  Center.........................................................    61
Western Hemisphere Travel Initiative.............................    61
Questions Submitted to Randolph C. Hite..........................    62
Questions Submitted by Senator Judd Gregg........................    62


                   UNITED STATES ENTRY/EXIT TRACKING

                              ----------                              


                      WEDNESDAY, JANUARY 25, 2006

                               U.S. Senate,
                 Subcommittee on Homeland Security,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:01 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Judd Gregg (chairman) presiding.
    Present: Senators Gregg, Stevens, Byrd, and Murray.


                OPENING STATEMENT OF SENATOR JUDD GREGG


    Senator Gregg. We will begin the hearing of the Homeland 
Security Subcommittee of the Appropriations Committee. I 
appreciate Senator Byrd joining us today, as he always does, 
and it is a pleasure to have our witnesses today.


                           US VISIT OVERVIEW


    The purpose of this hearing is to review the status of the 
US VISIT program. For those who are not up to speed on what US 
VISIT is, basically the effort to try to protect this country 
comes down to a lot of different parts, but the most 
fundamental part is the capacity to gather intelligence about 
the people who are threats. Knowing who is going to attack us 
before they attack us, is absolutely critical to our capacity 
to defend ourselves.
    An essential element of that is that when we determine that 
information, when we gain information as to who the threat is 
or what the threat is, getting that information disseminated to 
the people who are on the front lines for the purposes of 
protecting us as a Nation and making sure that people who come 
into our country come here to participate in our great Nation's 
many benefits rather than to harm us is a critical effort; the 
integration of the information with the front-line individual 
who has the capacity to review the individuals coming into this 
country.
    US VISIT is essentially the backbone of this effort, in 
that this is the computer structure, the software structure, 
the concept structure, which will hopefully, when it works 
fully, integrate all the different information vehicles which 
we have out there. All the intelligence that we are gathering, 
and all the background that we have, and make that information 
from all the various agencies that are involved here--and we 
are talking about a large number of major agencies--make that 
information available on a real-time basis to the gatekeeper, 
the Border Patrol agent, and the Customs and Border Protection 
officer, so that they can evaluate an individual who is in 
front of them, who is seeking entry into this country, and know 
whether that individual means us harm.
    It is a huge undertaking. Just getting these various 
agencies integrated is a huge undertaking from a standpoint of 
having their various systems communicate with each other. But 
actually getting real-time information, that is hard 
information, that is person-centered, is a true challenge.
    I congratulate the Department for the strides it has made 
in this area. Basically, we want to hear today about the 
positive steps, but we are also really interested in is what we 
still have to do. We know that there are still issues out 
there, especially in the exit area, and we also know that there 
are issues relative to integration, especially between the huge 
database of fingerprints which the FBI has and the capacity of 
that database to be accessed completely as versus selectively.
    Additionally, there is the fundamental issue of the 
communication between different agencies and whether it is 
flowing effectively, and the issue of air entry and land entry 
and the fact that we are making progress in air entry, but how 
are we doing on land entry.
    So there are a lot of issues still out there. This truly is 
the backbone, US VISIT, the backbone of our capacity to 
determine who is coming into the country and whether they are 
going to cause us harm if they are coming in legally. It is a 
critical piece of infrastructure that we want to stay on top of 
as a Congress, and be sure we are aware of what the potential 
is and where we can be helpful in supporting the Department as 
it tries to get this system up and running.
    So that is the purpose of this hearing. The fact that this 
is the first hearing that this subcommittee has held in this 
session reflects, I think, the high level of interest and 
priority that we place on the success of US VISIT, because we 
recognize that without this program working effectively we 
simply are not going to be able to protect our borders.
    Senator Byrd.


                  STATEMENT OF SENATOR ROBERT C. BYRD


    Senator Byrd. Mr. Chairman, thank you.
    Is this microphone on?
    We have made great progress in putting a man on the moon 
and bringing him home again. Yet, thus far we have not 
developed a good PA system in this country. We also have not 
developed a system whereby we can know where men are 
underground. We are not using the available technology, as we 
should, so that we know where a coal miner is and be able to 
communicate with him in the mine. It is a sad situation. 
Forgive me for bringing that in.
    Senator Gregg. No, that is understandable, Senator, 
considering what you have been through and your State.
    Senator Byrd. Let me say to the people who are viewing this 
panel, you have just seen a demonstration of how a chairman 
ought to open a meeting, how he ought to know what he is 
talking about, and how he can convey and communicate his 
thoughts to the audience. I congratulate him. I am very proud 
of this chairman. I wish he were on my side of the aisle, but 
he is not. But that aside, I have a tremendous respect for this 
chairman.
    Senator Gregg. Thank you.
    Senator Byrd. I tell you, I have been around here 48 years 
in this body and 6 years in the other body before I came here, 
and 6 years in the State legislature, both houses, before that, 
and I have not seen a chairman who is better than this one and 
very few who are as good. I am proud of him. I do not care if 
he is on the other side of the aisle. He is a friend of mine 
and he is a colleague of mine. I am proud of him. I am proud to 
say I am on his committee. If you have to have a Republican, I 
have got one of the best here, one of the best.
    Senator Gregg. That is very generous of you.
    Senator Byrd. We do not draw a line between Republicans and 
Democrats here, but I thought that ought to be said.
    I thank you, Mr. Chairman, for your support last spring of 
my border security amendment. I was pleased that the Senate 
acted in a bipartisan manner to begin providing the resources 
we need to secure our borders. With your leadership, Mr. 
Chairman--let me repeat that. With your leadership, Mr. 
Chairman, we continued that effort in the fiscal year 2006 
Homeland Security Appropriations Act, and I commend you, Mr. 
Chairman, wholeheartedly for your effort last month to secure 
an additional $1.1 billion for border security, and I challenge 
the White House--let me say that again--I challenge--do you 
hear me out there?--I challenge the House leadership and the 
White House--hear me again--to embrace this effort.
    By convening this hearing today, Mr. Chairman, you are 
keeping the Senate focused on border security. The US VISIT 
program is an integral part of our border security effort. 
Given the fact that the Congress has invested over $1.3 billion 
in this program, I congratulate our chairman for providing 
appropriate oversight.
    The US VISIT program is supposed to provide us with 
accurate information about which individuals are legally 
entering the country and about when they depart. I am pleased 
that the Department, under Secretary Chertoff's leadership, 
announced on July 13, 2005, its intention to move from using 
two fingerprints when enrolling individuals into the US VISIT 
system to capturing all ten finger and thumbprints. This is a 
major step, a major step toward full interoperability with the 
FBI fingerprint system.
    Former subcommittee Chairman Cochran and I urged former 
Secretary Ridge to take this step when we first met with him in 
the Capitol almost 3 years ago. I am pleased that we are 
finally moving forward.


                               BIOMETRICS


    Now, Mr. Chairman, for years you and I have raised concerns 
that the administration has not made a priority of integrating 
our various biometric databases. If we are to ensure that we 
only allow entry into this country of those who pose no threat, 
we need to verify their identity and match their biometric 
information, their fingerprints, against the FBI's existing 
fingerprint database.
    Over 2 years ago, this subcommittee began calling upon the 
administration for real-time interoperability between the 
Automated Biometric Identification System, IDENT, and the FBI's 
Integrated Automated Fingerprint Identification System, IAFIS. 
It appears that the message is finally being heard and that 
some progress is being made toward this end. The subcommittee 
wants to learn today when we will achieve this goal, and how 
much it will cost?
    I look forward to hearing from the witnesses and I again 
congratulate my chairman for conducting this hearing and for 
addressing our border security needs in a bipartisan manner.
    Senator Gregg. Thank you. Thank you, Senator, and thank you 
for those very kind words, and the feelings are mutual. 
Obviously, you have been an extraordinary leader in the Senate 
for many, many years, a legend really.
    Senator Byrd. Thank you, thank you.
    Senator Gregg. I enjoy working with you immensely and the 
points you made are the points that concern myself.
    Senator Byrd. Thank you.
    Senator Gregg. I would note that the FBI center I believe 
is in West Virginia is it not, that has all these fingerprints?
    Senator Byrd. Would you say that again, please?
    Senator Gregg. I also note that the temperature in this 
room is extraordinarily warm, so I may take my coat off, and if 
people want to take their coats off, please do. Clearly this 
committee is going to be needing LIHEAP money if we keep this 
temperature up.
    Senator Byrd. I am, I will take mine off.
    Senator Gregg. A little warm in here.
    We are joined today, fortunately, by the people who have 
some answers for us and who have done a good job trying to get 
this system up. That is the Director of the US VISIT program, 
Jim Williams, and also the Director of Technology, Information 
Architecture Systems at the Government Accountability Office, 
Randy Hite. We appreciate your commitment to this effort. We 
know it has been sincere and genuine and we would like to hear 
your thoughts of where we are, where we are going, and what the 
problems are and how we can help.
    Mr. Williams.

STATEMENT OF JAMES A. WILLIAMS, DIRECTOR, UNITED STATES 
            VISITOR AND IMMIGRATION STATUS TECHNOLOGY 
            PROGRAM, DEPARTMENT OF HOMELAND SECURITY

    Mr. Williams. Good morning, Chairman Gregg, ranking member 
Byrd, and other distinguished subcommittee members. Thank you 
for the opportunity today to discuss with you the Department of 
Homeland Security's US VISIT program. In addition to these 
brief oral remarks, I have submitted a written statement, which 
I hope you will include in the record.
    Mr. Chairman, as Congress has mandated, our immigration and 
border management system must simultaneously enhance the 
security of our citizens and visitors, facilitate legitimate 
travel and trade, ensure the integrity of our immigration 
system, and protect the privacy of our visitors. To accomplish 
these goals, Mr. Chairman, you and your colleagues in Congress 
have wisely recognized that we cannot continue to use 20th 
century tools to address 21st century threats, challenges, and 
opportunities. We owe the American people a wholesale 
transformation of our immigration and border management system.
    US VISIT represents the most prominent step we have taken 
so far and it is succeeding because it combines the best of 
technology, people, and business processes with the right 
policies, infrastructure, and with a strong emphasis on 
interagency and intergovernmental cooperation and collaboration 
with the private sector.
    In just 2 years of operation, US VISIT has met a series of 
substantial milestones, giving us for the first time a 
biometrically based system to reliably verify the identity of 
those who enter or apply for entrance into the United States. 
On January 5, 2004, we deployed US VISIT biometric entry 
procedures at 115 airports and 14 seaports. On September 30, 
2004, we expanded biometric entry procedures to include those 
applying for admission under the Visa Waiver Program, VWP. In 
October 2004, US VISIT supported the full deployment of the 
State Department's BioVisa program, which records biometric and 
biographic information at consulates around the world.
    By December 29, 2004, 2 days ahead of schedule, we deployed 
US VISIT biometric entry at our 50 busiest land ports along our 
northern and southern borders. At 14 pilot locations, US VISIT 
has collected biometrics from travelers departing the United 
States. In early August 2005, we began testing radio frequency 
identification technology, or RFID, at five ports along our 
northern and southern land borders, and we deployed biometric 
entry capabilities at 104 remaining land ports of entry before 
the congressionally mandated deadline of December 31, 2005.
    As a result of all this, US VISIT is providing powerful 
capabilities that did not exist just 2 years ago. Since January 
2004, we have processed more than 47 million visitors, which 
makes US VISIT one of the largest scale biometric applications 
in the world. Biometrics have enabled DHS to intercept at our 
ports of entry more than a thousand people with criminal 
histories, such as murderers, rapists, child predators, drug 
traffickers, and immigration violators, and to deny visas 
overseas to thousands more.
    Just as importantly, biometrics are depriving potential 
terrorists of the ability to use fraudulent identification 
documents, which are among their most powerful tools, to gain 
entry and threaten our country and our people.
    We also place a high priority on being responsible stewards 
of the information and technologies entrusted to us by applying 
the principles of the Privacy Act to protect our visitors' 
private information from misuse. Just last month, the 9/11 
Commission's Public Discourse Project gave the US VISIT program 
a grade of B, recognizing our achievements to date and 
providing a reminder we have much work to do.


US VISIT FUTURE INITIATIVES: E-PASSPORTS, INTEROPERABILITY, TEN FINGER 
                                 SCANS


    I would like to say just a few words about our work ahead. 
With the State Department, we are working with VWP countries to 
ensure they issue e-Passports to their citizens after October 
of this year, and we are also currently testing e-Passport 
readers with Australia, New Zealand, and Singapore as part of a 
live test at San Francisco International Airport. Also, DHS and 
US VISIT are making important strides to share information 
across many agencies. We know that interoperability between 
databases is an important priority for us, this committee, and 
for you in particular, Mr. Chairman. DHS and the Departments of 
Justice and State are working hard to achieve interoperability 
between the FBI's IAFIS fingerprint system and DHS's IDENT 
fingerprint system. We are making good progress on this effort, 
thanks in large part to the efforts of FBI's Tom Bush and Jerry 
Pender, as well as the State Department's Tony Edson.
    We are also preparing a plan now to implement Secretary 
Chertoff decision to enroll all U.S. visitors with ten finger 
scans. This will enable us to identify visitors with even 
greater accuracy than we do today, send fewer people to 
secondary inspection, and allow border and visa-issuing 
officers to focus more on those who might be greater risks.
    Before I close, I would like to note that we appreciate the 
advice and support that we have received from GAO's Randy Hite 
and his team, who have provided important insights about the 
development of the US VISIT program.
    As Winston Churchill said to the British people after they 
won their first major battle of World War II: ``We are at the 
end of the beginning.'' We know that we have much work ahead to 
deliver the 21st century system that the President, the 
Congress, and the American people need to ensure our continued 
national and economic security and protect our values.


                           PREPARED STATEMENT


    I appreciate greatly the support of this committee and the 
Congress that allowed for our achievements thus far, and we 
look forward to continuing to work with you as we move ahead.
    I would be glad to answer your questions. Thank you.
    [The statement follows:]

                Prepared Statement of James A. Williams

    Chairman Gregg, Ranking Member Byrd, and other distinguished 
Members, it is a pleasure to appear before you today to discuss the 
progress the Department of Homeland Security's United States Visitor 
and Immigrant Status Indicator Technology (US VISIT) program has made 
in securing our Nation's borders.

                 ESTABLISHMENT OF THE US VISIT PROGRAM

    It is the Department of Homeland Security's (DHS or Homeland 
Security) vision to modernize and improve our immigration and border 
management system through integration, collaboration, and cooperation 
among all parts of the immigration and border management community--a 
community that includes DHS organizations such as Customs and Border 
Protection (CBP), and the Department of State (DOS or State), among 
many others. Moreover, it is imperative that these many organizations 
work together as a single enterprise to accomplish a single mission--
coordinating roles, sharing information and technology, complementing 
and reinforcing one another's business processes, and eliminating 
redundancies.
    DHS created the US VISIT program in July 2003 to meet statutory 
requirements and, more broadly, to achieve the following program goals:
  --To enhance the security of our citizens and visitors;
  --To facilitate legitimate travel and trade;
  --To ensure the integrity of our immigration system; and
  --To protect the privacy of our visitors.
    The US VISIT program is part of a continuum of security measures 
that begins outside our Nation's physical borders. The program is a 
critical component of DHS's strategies to prevent terrorist attacks on 
the United States and facilitate the movement of legitimate travel and 
trade. US VISIT represents a major achievement in creating an 
integrated border screening system that enhances our Nation's security 
and our efforts to reform our immigration and border management 
systems. Through US VISIT, DHS is increasing our ability to manage the 
information collected about foreign visitors during the pre-entry, 
entry, status management, and departure processes, and allows us to 
conduct better analysis of that information, and thereby strengthens 
the integrity of our immigration system.

                      ACCOMPLISHMENTS OF US VISIT

    DHS deployed US VISIT on time, within budget, and has met every 
mandate established by Congress to date, as well as incorporating 
biometrics (fingerscans and digital photographs) into US VISIT. The 
addition of biometrics, coupled with the integration of databases, has 
contributed to improved decision-making and information sharing across 
the immigration and border management community. In each of the 
incremental improvements that have been successfully deployed to date, 
all of the four goals listed above have been met.
    DHS met its first statutory requirement by integrating existing 
arrival and departure biographic information on December 31, 2003. 
Subsequently, DHS:
  --deployed US VISIT biometric entry procedures at 115 airports and 14 
        seaports on January 5, 2004, for those individuals applying for 
        admission with nonimmigrant visas (Since that time, US VISIT 
        has been deployed to an additional seaport);
  --expanded biometric entry procedures to include those individuals 
        applying for admission under the Visa Waiver Program on 
        September 30, 2004;
  --supported the deployment of DOS's BioVisa Program, completed in 
        October 2004;
  --deployed biometric entry to the 50 busiest land ports by December 
        29, 2004;
  --collects biometrics on exit at 14 pilot locations for travelers 
        departing the United States;
  --implemented radio frequency identification technology (RFID) at 
        five sites along the northern and southern land borders to 
        capture entry/exit information, trigger updated watchlist 
        checks, and provide the results of this information in a 
        cohesive form to the CBP officer at entry;
  --deployed to all ports of entry the initial capability to compare 
        and authenticate travel documents issued by the United States 
        by October 26, 2005;
  --deployed biometric entry capabilities to the remaining 104 land 
        border ports of entry before the Congressionally mandated 
        deadline of December 31, 2005; and
  --will deploy reader technology that is capable of accommodating 
        biometrically enabled e-Passports from Visa Waiver Program 
        countries by October 26, 2006.

Enhancing Security and Improving Integrity of the Immigration System
    The use of biometric and biographic data provides DOS consular 
officers, CBP officers, and other immigration and border management 
officials the information they need to authenticate travel documents; 
verify identity; and identify criminals, immigration violators, and 
other individuals who may pose threats to our security or public safety 
before they can enter the United States. For the overwhelming majority 
of foreign travelers who are welcome into our country, this same access 
to data means they can be processed more quickly and more efficiently 
while their privacy is protected.
    Through US VISIT, DHS has processed approximately 47.6 million 
travelers at our ports of entry from its inception through January 5, 
2006. During this same period, the use of biometrics alone has allowed 
DHS to intercept more than 1,011 known criminals and immigration law 
violators--including individuals wanted for murder, rape, drug 
trafficking, and pedophilia. Two examples:
  --Several months ago, CBP officers at Los Angeles International 
        Airport encountered a Swiss national seeking admission as a 
        visa waiver applicant. A US VISIT fingerscan check by CBP 
        officers revealed that this person was wanted by INTERPOL for 
        suspected pedophilia.
  --Prior to US VISIT, the traveler presented a fraudulent visa to 
        enter the United States more than 60 times using without 
        detection by standard biographic record checks. A routine US 
        VISIT check by CBP officers at John F. Kennedy International 
        Airport revealed his deception, and further CBP checks found 
        that he had two prior arrests for drug trafficking, a 
        subsequent failure to appear in court and visa fraud.
    The use of biometric identifiers--specifically digital fingerscans 
and photographs--has made travel safer and more secure by identifying 
individuals attempting to claim other identities. The matching of 
fingerprints through DOS's BioVisa Program, which is fully integrated 
with US VISIT, against DHS's biometric watchlist has resulted in 15,200 
hits on individuals applying to DOS for visas to come to the United 
States, to date (January 2004 through January 5, 2006).
    Additionally, US VISIT provides Immigration and Customs 
Enforcement's (ICE) Compliance Enforcement Unit with a listing of 
possible overstays on a weekly basis. This exchange of information has 
led to the arrest by ICE of 122 individuals (January 2004 through 
January 5, 2006) who have overstayed the terms of their admission.
Facilitating Travel and Trade
    These accomplishments have been achieved without adversely 
impacting inspection times for the millions of legitimate international 
travelers who visit the United States every year. At some land border 
ports of entry, automation of former paper processes through US VISIT 
procedures have significantly reduced the time it takes for a visitor 
to obtain a Form I-94 and be admitted into the country. For example, in 
Laredo, Texas, the Form I-94 issuance process has been reduced from an 
average of 8 to11 minutes to just 2 to 5 minutes, even though we have 
added the collection of biometrics and additional security screening to 
the process. The Port Director in Nogales, Arizona, James Tong, said 
that US VISIT ``saved their bacon'' by being able to deal effectively 
with the long lines at his port during the last holiday season thanks 
to faster processing capabilities.

Protecting the Privacy of Our Visitors
    From its beginning, US VISIT has applied the principles of the U.S. 
Privacy Act to foreign nationals enrolled in the program. US VISIT has 
acted to ensure institutional adherence to privacy regulations and best 
practices including establishment of a Privacy Office that oversees 
development of privacy principles and policy, mandatory privacy 
training for program staff, and a set of checks and procedures to 
ensure an avenue for redress by the public. The program has published, 
and regularly updated, a Privacy Impact Assessment and Systems of 
Record Notices. From more than 47.6 million transactions, the Privacy 
Office has received approximately 131 requests for redress since the 
program's beginning. DHS's former Chief Privacy Officer Nuala O'Connor 
Kelly said of US VISIT, ``There's a program that's taking a lot of 
information and they're dealing with it respectfully, accurately and 
thoughtfully . . . I think they're a textbook study on how to get it 
right.''

                     US VISIT'S CONTINUING EFFORTS

    The Intelligence Reform and Terrorism Prevention Act of 2004, 
following the 9/11 Commission Report, has called for the completion of 
a biometric entry and exit system as expeditiously as possible. US 
VISIT has undertaken the following additional initiatives:
International Border Management and Cooperation
    We are working with foreign governments and private sector entities 
to establish strong and workable international standards for 
interoperability. For example, DHS has worked closely with DOS and 
countries participating in the Visa Waiver Program (VWP) to ensure new 
passports issued by VWP countries and our Department of State on or 
after October 26, 2006, will be e-Passports that include an integrated 
computer chip capable of storing biographic information from the data 
page, a digital photograph, and future biometric information that can 
be read by DHS readers.
    Further, we are working in concert with Australia, New Zealand, and 
Singapore to pilot test e-Passport readers. The test began January 15 
and will run through the late spring. Australia's immigration minister 
announced that his country would test a biometric border security 
system at Sydney's airport. Japan is building a biometric entry system 
which they have publicly stated will be modeled after US VISIT. The 
European Commission published proposals in June 2005, to upgrade the 
Schengen Information System to include biometric data as well as 
information on individuals subject to European arrest warrants or 
extradition, and individuals refused entry to the European Union. 
Currently, the European Union is collecting fingerscans and digital 
photographs in several pilot sites comparable to the BioVisa Program.
    DHS and US VISIT are also working closely with our Canadian and 
Mexican neighbors, largely through the Security and Prosperity 
Partnership, in bi-national working groups that are helping us create a 
more consolidated, North American approach to enhancing security and 
facilitating trade and travel.

International Registered Traveler
    International Registered Traveler (IRT) initiatives cover a wide 
variety of programs, including proposed programs such as a future 
international trusted traveler program, and ongoing programs on North 
American borders such as FAST, SENTRI, and NEXUS. For the past year, US 
VISIT, in coordination with CBP and the Transportation and Security 
Administration (TSA), has been working closely with representatives 
from The Netherlands to develop and test an international registered 
traveler program that would allow enrolled travelers to pass through 
inspections more quickly.

Information Sharing Across Agencies
    Efforts to support the sharing of alien biometric and biographic 
information, and integrated alien information systems and processes 
within the immigration and border management enterprise have already 
reaped rewards such as the expansion of US VISIT databases to include 
information from DOS, USCIS, the Federal Bureau of Investigation (FBI), 
CBP, ICE, the Department of Defense (DOD), and INTERPOL.
    DHS, and the Departments of Justice (DOJ) and DOS are working 
collaboratively to achieve interoperability between the FBI's 
Integrated Automated Fingerprint Identification System (IAFIS) and 
DHS's Automated Biometric Identity System (IDENT).

Departure Confirmation
    DHS is examining the results of the current exit pilots at 14 
airports and seaports and DHS will determine the best approach for 
capturing exit data using biometrics and biographic information. We 
continue to rely on our existing exit process, which are being enhanced 
now by the implementation of the Advanced Passenger Information System 
rule.

10-Print Transition and Interoperability
    US VISIT is not a single database or computer network, but rather 
the bond that ties together several, previously independent databases 
and watchlists. The benefit of using prior systems, as opposed to 
starting anew, is that DHS has been able to make marked improvements 
over a very short period of time.
    DHS is progressing towards a seamlessly integrated system that will 
allow users access to all relevant information in a timely manner to 
make the right decisions on those individual visitors and immigrants 
they encounter The next step is the interoperability of Homeland 
Security's IDENT with the FBI's IAFIS.
    Currently, DHS uses the IDENT two index fingerprint system to 
collect and match fingerprints of international visitors entering 
United States and of applicants for visas with the Department of State. 
This process allows DHS and DOS to conduct watchlist checks and verify 
that the person appearing before the CBP officer is the same person 
previously encountered or granted a visa or other travel document.
    IDENT/IAFIS interoperability will increase DHS and DOS's ability to 
screen individuals, increase accuracy of matching, and provide greater 
ability to match against latent prints. Integration will also benefit 
the FBI and other law enforcement organizations by providing them with 
increased access during the interim solution to information on high-
risk individuals to whom DOS refused a visa and those whom DHS has 
expeditiously removed.
    On July 13, 2005, the Secretary announced that in the future, 
first-time visitors to the United States will be enrolled in the 
program by submitting ten fingerprints. The Administration is 
developing an implementation plan and associated cost estimates. The 
plan will address interoperability as well as migration to ten 
fingerscans. Moving to a 10-fingerscan standard will allow us to be 
able to identify visitors with even greater accuracy. This will 
translate into sending fewer people to secondary inspection, allowing 
us to focus more time and attention on those who might be potential 
risks to the country. It also allows us to match against additional 
watchlist fingerprints including latent prints, and create a common 
standard of fingerprint capture and use.
    Although making both fingerprint databases interoperable may sound 
simple, it presents a number of challenges. New systems and processes 
must be developed, and new hardware must be installed at both database 
storage sites. This must all be done in a manner that maintains the 
high standards of efficiency, effectiveness, and privacy that we have 
achieved with the current US VISIT system.

DHS and DOJ Joint Solutions
    During joint meetings this past spring, staff from US VISIT and the 
FBI Criminal Justice Information Services (CJIS) Division identified 
three potential models for making IDENT and IAFIS interoperable. In May 
2005, US VISIT and DOS leaders traveled to Clarksburg, WV to meet with 
the leadership of the FBI'S CJIS Division. During that meeting, we 
agreed to guiding principles for interoperability.
    These efforts were given additional energy with Secretary 
Chertoff's announcement that US VISIT will transition to biometrically 
screening international visitors using a fingerprint standard of 10-
fingerscan capture at enrollment and two-flat finger verification for 
each subsequent encounter.
    An Interoperability Integrated Project Team (IPT) was established 
in June with FBI'S CJIS Division and State Department's Bureau of 
Consular Affairs. This team, with representation from the major 
government stakeholders, will develop the roadmap to successful 
interoperability. Additionally, USCIS and ICE are two very important 
stakeholders and are participating actively when preparing for future 
interoperability.
    Our relationship with FBI's CJIS Division has been further 
strengthened with the addition of US VISIT Deputy Director, Robert 
Mocny, as the DHS representative to the FBI's CJIS Division Advisory 
Policy Board (APB). This signifies a new and improved relationship with 
FBI's CJIS Division, and participation will hasten progress towards 
achieving full interoperability and optimize our work with States and 
localities.
    The IPT has agreed upon three phases to achieving interoperability: 
(1) an interim data sharing model (data sharing solution); (2) initial 
operating capability (IOC); and (3) full operating capability (FOC).
    The interim solution will consist of a prototype (also known as the 
interim data sharing model) that is a first step towards the new 
interoperable environment between IDENT and IAFIS. The interim solution 
will allow for two-way sharing of certain biometric information. FBI 
will provide information on all wants and warrants. DHS will provide 
information on expedited removals. State will provide Category 1 visa 
refusals (e.g., generally one involving a permanent ground of 
inadmissibility). DHS and FBI's CJIS Division will formally start the 
first phase on February 1, 2006, and anticipate the interim solution to 
be implemented over the following 6 to 8 months. This time period will 
be used to design and build the prototype system.
    During the next phase, the initial operating capability (IOC), 
State and DHS will begin to collect 10 prints; DHS will convert the 
current two-print DHS IDENT system to store and utilize 10-flat prints 
in processing. DHS and FBI will establish an infrastructure for 
exchanging information and search capabilities.
    Finally, the full operating capability (FOC) will be achieved about 
eighteen months after the completion of IOC. The FOC includes full 
information sharing, subject to controlling laws and policy; high 
performance searches of biometric data in both IDENT and IAFIS for 
positive identification; increased matcher performance appropriate to 
the increased volumes; and more comprehensive biographic/case data 
sharing.
    DHS, along with the Departments of State, Justice, and Defense, as 
well as the National Institute of Standards and Technology, hosted an 
industry day to challenge the industry to make a smaller, faster, more 
accurate 10-print capture device. We are working with industry to help 
design new capture devices that meet DHS's basic operational 
requirements at primary inspection. Advances in technology will allow 
DHS and State to routinely collect 10 slap prints, without negatively 
impacting the thousands of international visitors that pass though our 
ports and visa issuing posts every day.
    As with previous border security initiatives that involve using 
biometrics, no one should underestimate the very real and significant 
technological challenges, including the present realities that include:
  --No capture device on the market today can take and process 10 
        prints in the same timeframe experienced for taking and 
        processing two prints.
  --No capture device on the market today can capture 10 prints in less 
        than three slaps (four fingers left, four fingers right, two 
        thumbs), and most require four slaps (four fingers left, four 
        fingers right, left thumb, right thumb). None meet current 
        operational processing requirements for ports of entry, 
        embassies, or consulates.
  --When more than one finger is scanned, segmentation of the fingers 
        into individual scans is necessary; this is one of the primary 
        factors that add processing time beyond that experienced today 
        when using single finger scans.
  --Finally, the vendor community will need to manufacture sufficient 
        quantities of scanners to respond to this initiative.
    IDENT/IAFIS interoperability will provide all users with more 
information and greater accuracy. Collecting and storing ten-prints on 
initial encounter (enrollment) will improve the accuracy of matches and 
provide increased ability to match latent prints, DHS and DOS can then 
use two prints to verify that the person appearing before them is the 
same one encountered previously.

IDENT/IAFIS Workstation Deployment
    DHS completed deployment of integrated IDENT/IAFIS workstations to 
all remaining CBP ports of entry and Immigration and Customs 
Enforcement (ICE) sites by December 31, 2005.
    The 2005 deployment focused on the remaining 66 ports of entry as 
well as the 339 ICE locations.
    These workstations allow DHS's users in the field to collect one 
set of 10-rolled prints and simultaneously transmit them to both IDENT 
and IAFIS for checks. This functionality is being deployed to improve 
access to fingerprint and criminal history data for law enforcement 
purposes.
    The IDENT/IAFIS workstations are an important tool for Border 
Patrol, secondary inspections, and interior enforcement. During these 
encounters--where DHS already has identified that the individual may 
not be admissible or may pose a threat--more time can be spent with the 
individual so that DHS can obtain additional information from both of 
these biometric watchlist systems that will help in the determination 
of what actions may be most appropriate.

                               CONCLUSION

    Since inception, US VISIT has met all of its goals. DHS and US 
VISIT continue to work with the rest of the world to harmonize 
international border processes and standards for data sharing.
    At the same time, these improvements in screening have facilitated 
legitimate trade and travel. We conducted (and continue to conduct) 
extensive outreach and public education efforts to ensure that both 
affected government staff and travelers understood the US VISIT process 
and knew what to expect at the borders.
    DHS continues to explore departure confirmation alternatives at our 
air and seaports. US VISIT is looking at effective ways to utilize RFID 
at the land ports. In the future, this information could be shared with 
State and local law enforcement, as appropriate. Through US VISIT, we 
are establishing an ``enrolled population''--a population that is 
``known'' and for whom risk is assessed through recurrent biometric 
screening. And from there, we can expand the security and facilitation 
enhancements provided by DHS and US VISIT through the development of a 
registered traveler program to facilitate the travel of known, low-risk 
individuals.
    In closing, I'd like to thank you for your support for the work 
that has already been accomplished and your future assistance and 
commitment to the work that lies ahead.

    Senator Gregg. Thank you, Mr. Williams.
    Mr. Hite we do appreciate GAO. You are sort of the fair 
arbiter here, calling it how you see it, and we are interested 
in what you see.

STATEMENT OF RANDOLPH C. HITE, DIRECTOR, INFORMATION 
            TECHNOLOGY ARCHITECTURE AND SYSTEMS ISSUES, 
            GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Hite. Thank you, Mr. Chairman. Let me begin by 
commending this subcommittee for its oversight of the US VISIT 
program. Through legislative language, you have required annual 
expenditure plans of the US VISIT program and through that you 
have been able to provide valuable program direction and you 
have established a real important accountability mechanism. So 
I commend you for that.
    Now, this legislative language has also required GAO to 
review these annual expenditure plans. In this regard, we have 
issued reports on each plan as well as other issues surrounding 
the program and we have made over 25 recommendations aimed at 
improving DHS's ability to manage the program, recommendations, 
I would add, that DHS has stated have served to make the 
program stronger.
    My testimony today largely focuses on where DHS stands in 
implementing our recommendations and to facilitate this 
discussion what I will do is place the recommendations into the 
three buckets. Bucket one contains those recommendations to 
ensure that the program as it has been defined thus far by DHS 
is the right thing to do, meaning that sufficient analysis has 
been performed to demonstrate that each program increment is 
being defined within the context of a larger homeland security 
operational and technological vision, and that each increment 
will produce mission results commensurate with expected costs.
    Bucket two contains those recommendations to ensure that 
the program is being done the right way, meaning that DHS is 
employing the necessary mix of people, processes, and tools to 
maximize the chances of delivering incrementally promised 
capabilities and benefits on time and within budget.
    Bucket three contains those recommendations to ensure that 
the program is held accountable for results, meaning that 
incremental commitments--and by that I mean cost, schedule, 
capability, and benefit commitments--are defined and 
performance against each is measured and disclosed.

               STATUS OF IMPLEMENTING GAO RECOMMENDATIONS

    Now, before I summarize where the program stands in 
implementing these buckets of recommendations, let me first 
give credit where credit is due. Specifically, the US VISIT 
program in concert with the State Department and others have 
met some pretty demanding time frames for deploying and 
operating an entry screening and identification capability at 
hundreds of overseas facilities and U.S. ports of entry. This 
capability is producing certain results, such as denying visas 
to undeserving applicants, preventing entry to criminal aliens, 
and arguably deterring terrorists from even attempting entry. 
These are not trivial accomplishments, especially considering 
that they have occurred during a period when DHS has 
experienced some very well-publicized growing pains.
    Having said this, however, I would also reiterate what you 
mentioned, Mr. Chairman, in your opening remarks, and that is 
what is operating today at the ports of entry still does not 
include a comparable exit capability and much remains to be 
done before DHS and FBI fingerprinting systems achieve real-
time interoperability.
    In addition, many of our recommendations aimed at improving 
US VISIT program management have not yet been fully 
implemented. With respect to those recommendations aimed at 
ensuring that US VISIT is the right thing, there's more to be 
done. In particular, while the program office--and I emphasize, 
the program office--has done this, they have established their 
understanding of the strategic context in which US VISIT is to 
operate by, for example, drafting a strategic plan showing how 
US VISIT is aligned with the proposed immigration and border 
management vision. The plan has not yet been--the plan has been 
received at the departmental level, but has not been approved, 
and it remains unclear how this program-level strategic plan 
relates to broader DHS strategic initiatives, such as the 
secure border initiative and the Department's enterprise 
architecture.
    As we have previously reported, implementing programs like 
US VISIT without an explicit and stable corporate context 
increases the likelihood that later the program will have to be 
reworked. In addition, reliable return on investment analyses 
have yet to be produced that show that program increments are 
cost effective, and certain analyses done to date show that 
program impacts and options going forward were limited.
    With respect to recommendations aimed at ensuring that the 
US VISIT program is done the right way, DHS has made mixed 
progress. On the positive side, progress has been good in 
establishing human capital capabilities, the people, which is 
important in this particular program because achievements 
achieved thus far are owed largely to the outstanding efforts 
of the people on the program, both the contractor and with the 
government.
    But this kind of people dependency does not reasonably 
assure future successes. To have such assurance, the program 
needs to institutionalize certain management processes, such as 
acquisition management, configuration management, risk 
management, capacity management, and on and on, all of which we 
have recommended. I would also add that these are not just 
nice-to-have process capabilities; these are fundamental to 
ensuring that large complex programs like US VISIT live up to 
expectations.
    Finally, on the issue of accountability more work remains 
to be done there, too, to implement our recommendations. For 
example, the expenditure plans that you have required through 
legislation to date have not defined in meaningful and 
measurable terms what incremental capabilities and benefits--
and I emphasize the incremental aspect of that--will be 
delivered, when, and what costs; and these plans have not 
adequately addressed what progress is actually being made 
against incremental commitments.
    Without measurable commitments and timely and accurate 
reporting on the satisfaction of them, I would submit that 
program accountability is lost.

                           PREPARED STATEMENT

    In closing, let me say that our Nation's immigration and 
border management challenges require that programs like US 
VISIT be managed effectively and efficiently. Our 
recommendations are aimed at making this happen. This concludes 
my statement. I would be happy to answer any questions that you 
have at this time.
    [The statement follows:]

                 Prepared Statement of Randolph C. Hite

    Mr. Chairman and Members of the Subcommittee: We appreciate the 
opportunity to participate in the Subcommittee's hearing on US VISIT 
(the United States Visitor and Immigrant Status Indicator Technology), 
a multibillion-dollar program of the Department of Homeland Security 
(DHS) that is intended to achieve a daunting set of goals: to enhance 
the security of our citizens and visitors and ensure the integrity of 
the U.S. immigration system, and at the same time to facilitate 
legitimate trade and travel and protect privacy. To achieve these 
goals, US VISIT is to record the entry into and exit from the United 
States of selected travelers, verify their identity, and determine 
their compliance with the terms of their admission and stay.
    Since fiscal year 2002, the House and Senate Appropriations 
Committees have provided valuable oversight and direction to DHS on US 
VISIT by legislatively directing it to submit annual expenditure plans 
for committee approval. This legislation also directed us to review 
these plans. Our reviews have produced four reports that, among other 
things, described DHS progress against legislatively mandated 
milestones and identified fundamental challenges that the department 
faced in delivering promised program capabilities and benefits on time 
and within cost.\1\ For example, we reported in September 2003 that the 
program office did not have the human capital and acquisition process 
discipline needed to effectively manage the program. In light of the 
challenges that we identified, we concluded that the program carries an 
appreciable level of risk, meaning that it must be managed effectively 
if it is to be successful.
---------------------------------------------------------------------------
    \1\ GAO, Information Technology: Homeland Security Needs to Improve 
Entry Exit System Expenditure Planning, GAO-03-563 (Washington, DC: 
June 9, 2003); Homeland Security: Risks Facing Key Border and 
Transportation Security Program Need to Be Addressed, GAO-03-1083 
(Washington, DC: Sept. 19, 2003); Homeland Security: First Phase of 
Visitor and Immigration Status Program Operating, but Improvements 
Needed, GAO-04-586 (Washington, DC: May 11, 2004); and Homeland 
Security: Some Progress Made, but Many Challenges Remain on U.S. 
Visitor and Immigrant Status Indicator Technology Program, GAO-05-202 
(Washington, DC: Feb. 23, 2005).
---------------------------------------------------------------------------
    Managing US VISIT effectively requires high levels of capability 
and expertise. Fundamentally, it entails being able to respond 
affirmatively to two basic questions. First, are we doing the right 
thing? To be sure that a program is doing the right thing, it needs to 
be justified by sufficient fact-based and verifiable analysis to show 
that the program as defined will properly fit within the larger 
homeland security operational and technological environments and that 
it will produce mission value commensurate with expected costs and 
risks. The second question is, are we doing it the right way? To be 
done the right way, a program needs to be executed in a rigorous and 
disciplined manner, which means that it needs to employ the necessary 
mix of people, processes, and tools to reasonably ensure that promised 
program capabilities and expected mission value are delivered on time 
and within budget. Beyond these two questions, effective program 
management also means that the program is held accountable for results, 
which involves measuring and disclosing performance relative to 
explicitly defined program goals, outcomes, and commitments.
    Over the last 4 years, our reports have provided recommendations to 
DHS to ensure that these questions are answered and used as the basis 
for informed decision making about US VISIT. They have also provided 
recommendations to promote DHS accountability for the program. These 
recommendations have been aimed at helping the department to ensure 
that this program fulfills expectations: in other words, that the 
program is doing the right thing in the right way, and that it is 
holding itself accountable for doing so. According to DHS, the 
recommendations have made US VISIT a stronger program. Further, they 
concur with the need to implement them with due speed and diligence.
    My statement will describe the status of US VISIT and where the 
department now stands in implementing these recommendations and thus in 
addressing the challenges that it faces. It is based on our 
aforementioned reports to the Appropriations Committees and our ongoing 
work for the House Committee on Homeland Security. All work on which 
this testimony is based was performed in accordance with generally 
accepted government auditing standards.

                            RESULTS IN BRIEF

    To its credit, the US VISIT program has met a number of 
legislatively mandated requirements. A pre-entry screening capability 
is in place in visa issuance offices, and an entry identification 
capability is available at 115 airports, 14 seaports, and in the 
secondary inspection areas \2\ of 154 land ports of entry. This has 
been accomplished despite the considerable departmental change 
occurring around the program, and according to DHS, it has prevented 
criminal aliens from entering the United States, besides probably 
deterring other criminals and terrorists from attempting to enter 
through these ports.
---------------------------------------------------------------------------
    \2\ Secondary inspection is used for more detailed inspections that 
may include checking more databases, conducting more intensive 
interviews, or both.
---------------------------------------------------------------------------
    Our recommendations over the last 4 years have been aimed at 
helping DHS meet its US VISIT obligations by ensuring that it is doing 
the right thing in the right way, and that the department holds itself 
accountable for results. To address these recommendations, DHS has 
taken a number of steps. To help ensure that is doing the right thing, 
the department is in the process of clarifying the strategic context in 
which US VISIT is to operate; it has analyzed the program's costs, 
benefits, and risks; and it has begun analyzing program impacts and 
options that will provide a basis for future program increments. 
However, the program's fit within the department's operational and 
technology context remains unclear, and DHS has yet to demonstrate that 
early program increments are producing or will produce mission value 
commensurate with expected costs and risks. In particular, the 
department's return on investment analyses for exit solutions do not 
demonstrate that investment options will be cost-effective.
    On our recommendations aimed at ensuring that the program is 
executed in the right way, DHS has made mixed progress. For example, 
the department has made good progress in establishing the program's 
human capital capabilities, which is important, because progress in 
establishing program management process controls, such as test 
management, has not been as good. For example, a test plan used in a 
recent system acceptance test did not adequately trace between test 
cases and the requirements to be verified by testing. As we have 
previously reported, incomplete test plans reduce assurance that 
systems will perform as intended once they are deployed. Our experience 
in reviewing large, complex programs like US VISIT has shown that such 
process management weaknesses typically result in programs falling 
short of expectations.
    With regard to our recommendations for establishing accountability 
for program results by measuring and disclosing performance relative to 
program goals, outcomes, requirements, and commitments, more also 
remains to be done. For example, DHS has yet to define performance 
standards that reflect limitations of the existing systems that make up 
US VISIT. Also, its expenditure plans have not described progress 
against commitments made in previous plans. Unless performance against 
requirements and commitments is measured and disclosed, the ability to 
manage and oversee the program will suffer.

                               BACKGROUND

    US VISIT is a governmentwide program intended to enhance the 
security of U.S. citizens and visitors, facilitate legitimate travel 
and trade, ensure the integrity of the U.S. immigration system, and 
protect the privacy of our visitors. The scope of the program includes 
the pre-entry, entry, status, and exit of hundreds of millions of 
foreign national travelers who enter and leave the United States at 
over 300 air, sea, and land ports of entry, as well as analytical 
capabilities spanning this overall process.
    To achieve its goals, US VISIT uses biometric information (digital 
fingerscans and photographs) to verify identity and screen persons 
against watch lists.\3\ In many cases, the US VISIT process begins 
overseas, at U.S. consular offices, which collect biometric information 
from applicants for visas, and check this information against a 
database of known criminals and suspected terrorists. When a visitor 
arrives at a port of entry, the biometric information is used to verify 
that the visitor is the person who was issued the visa or other travel 
documents. Ultimately, visitors are to confirm their departure by 
having their visas or passports scanned and undergoing fingerscanning. 
(Currently, at a few pilot sites, departing visitors are asked to 
undergo these exit procedures.) The exit confirmation is added to the 
visitor's travel records to demonstrate compliance with the terms of 
admission to the United States.
---------------------------------------------------------------------------
    \3\ Biometric comparison is a means of identifying a person by 
biological features unique to that individual.
---------------------------------------------------------------------------
    Other key US VISIT functions include:
  --collecting, maintaining, and sharing information on certain foreign 
        nationals who enter and exit the United States;
  --identifying foreign nationals who (1) have overstayed or violated 
        the terms of their admission; (2) may be eligible to receive, 
        extend, or adjust their immigration status; or (3) should be 
        apprehended or detained by law enforcement officials;
  --detecting fraudulent travel documents, verifying traveler identity, 
        and determining traveler admissibility through the use of 
        biometrics; and
  --facilitating information sharing and coordination within the 
        immigration and border management community.
    In July 2003, DHS established a program office with responsibility 
for managing the acquisition, deployment, operation, and sustainment of 
the US VISIT system and its associated supporting people (e.g., Customs 
and Border Protection officers), processes (e.g., entry/exit policies 
and procedures), and facilities (e.g., inspection booths and lanes).
    As of October 2005, about $1.4 billion has been appropriated for 
the program, and according to program officials, about $962 million has 
been obligated to acquire, develop, deploy, operate, and maintain US 
VISIT entry capabilities, and to test and evaluate exit capability 
options.

                ACQUISITION AND IMPLEMENTATION STRATEGY

    DHS plans to deliver US VISIT capability in four increments, with 
Increments 1 through 3 being interim, or temporary, solutions that 
fulfill legislative mandates to deploy an entry/exit system, and 
Increment 4 being the implementation of a long-term vision that is to 
incorporate improved business processes, new technology, and 
information sharing to create an integrated border management system 
for the future. In Increments 1 through 3, the program is building 
interfaces among existing (``legacy'') systems, enhancing the 
capabilities of these systems, and deploying these capabilities to air, 
sea, and land ports of entry. These first three increments are to be 
largely acquired and implemented through existing system contracts and 
task orders.
    In May 2004, DHS awarded an indefinite-delivery/indefinite-quantity 
\4\ prime contract to Accenture and its partners. According to the 
contract, the prime contractor will help support the integration and 
consolidation of processes, functionality, and data, and it will 
develop a strategy to build on the technology and capabilities already 
available to produce the strategic solution, while also assisting the 
program office in leveraging existing systems and contractors in 
deploying the interim solutions.
---------------------------------------------------------------------------
    \4\ An indefinite-delivery/indefinite-quantity contract provides 
for an indefinite quantity, within stated limits, of supplies or 
services during a fixed period of time. The government schedules 
deliveries or performance by placing orders with the contractor.
---------------------------------------------------------------------------
            US VISIT IS BEING IMPLEMENTED IN FOUR INCREMENTS

    Increment 1 concentrates on establishing capabilities at air and 
sea ports of entry. It is divided into two parts--1A and 1B.
  --Increment 1A (air and sea entry) includes the electronic capture 
        and matching of biographic and biometric information (two 
        digital index fingerscans and a digital photograph) for 
        selected foreign nationals, including those from visa waiver 
        countries.\5\ Increment 1A was deployed on January 5, 2004, 
        through the modification of pre-existing systems.\6\ These 
        modifications accommodated the collection and maintenance of 
        additional data fields and established interfaces required to 
        share data among DHS systems in support of entry processing at 
        115 airports and 14 seaports.
---------------------------------------------------------------------------
    \5\ The Visa Waiver Program permits foreign nationals from 
designated countries to apply for admission to the United States for a 
maximum of 90 days as nonimmigrant visitors for business or pleasure.
    \6\ Foreign nationals from visa waiver countries were included as 
of September 30, 2004.
---------------------------------------------------------------------------
  --Increment 1B (air and sea exit) involves the testing of exit 
        devices to collect biometric exit data for select foreign 
        nationals. Three exit alternatives were pilot tested at 11 air 
        and sea ports of entry. These alternatives are as follows.
  --Kiosk.--A self-service device (including a touch screen interface, 
        document scanner, finger scanner, digital camera, and receipt 
        printer) that captures a digital photograph and fingerprint and 
        prints out an encoded receipt.
  --Mobile Device.--A hand-held device that is operated by a 
        workstation attendant and includes a document scanner, finger 
        scanner, digital camera, and receipt printer to capture a 
        digital photograph and fingerprint.
  --Validator.--A hand-held device that is used to capture a digital 
        photograph and fingerprint, which are then matched to the 
        photograph and fingerprint captured via the kiosk and encoded 
        in the receipt.
    Increment 2 focuses primarily on extending US VISIT to land ports 
of entry. It is divided into three parts--2A, 2B, and 2C.
  --Increment 2A (air, sea, and land entry) includes the capability to 
        biometrically compare and authenticate valid machine-readable 
        visas and other travel and entry documents at all ports of 
        entry. Increment 2A was deployed on October 23, 2005, according 
        to program officials. It also includes the deployment by 
        October 26, 2006, of the capability to read biometrically 
        enabled passports from visa waiver countries.
  --Increment 2B (land entry) redesigned the Increment 1 entry solution 
        and expanded it to the 50 busiest land ports of entry. The 
        process for issuing entry/exit forms \7\ was redesigned to 
        enable the electronic capture of biographic, biometric (unless 
        the traveler is exempt), and related travel documentation for 
        arriving travelers. This increment was deployed to the busiest 
        50 U.S. land border ports of entry on December 29, 2004. Before 
        Increment 2B, all information on the entry/exit forms was hand 
        written. The redesigned process provides for electronically 
        capturing the biographic data on the entry/exit form. In some 
        cases, Customs and Border Protection (CBP) officers enter the 
        data electronically and then print the completed form.
---------------------------------------------------------------------------
    \7\ Entry/exit forms (Form I-94, entry/exit form, and Form I-94W, 
entry/exit for foreign nationals from visa waiver countries) are used 
to record a foreign national's entry into the United States. Each form 
has two parts--arrival and departure--and each part contains a unique 
number for the purposes of recording and matching arrival and departure 
records.
---------------------------------------------------------------------------
  --Increment 2C (land entry and exit) is to provide the capability to 
        automatically, passively, and remotely record the entry and 
        exit of covered individuals using radio frequency (RF) 
        technology tags at primary inspection and exit lanes.\8\ This 
        tag includes a unique ID number that is to be embedded in each 
        entry/exit form, thus associating a unique number with a US 
        VISIT record for the person holding that form. One of DHS's 
        goals in using this technology is to improve the ability to 
        collect entry and exit information. In August 2005, the program 
        office deployed the technology to three land ports of entry to 
        verify the feasibility of using passive RF technology to record 
        traveler entries and exits from the number embedded in the 
        entry/exit form. The results of this demonstration are to be 
        reported in February 2006.
---------------------------------------------------------------------------
    \8\ RF technology relies on proximity cards and card readers. RF 
devices read the information contained on the card when the card is 
passed near the device and can also be used to verify the identity of 
the cardholder.
---------------------------------------------------------------------------
    Increment 3 extended Increment 2B (land entry) capabilities to 104 
land ports of entry; this increment was essentially completed as of 
December 19, 2005.\9\
---------------------------------------------------------------------------
    \9\ At one port of entry, these capabilities were deployed by 
December 19, but were not fully operational until January 7, 2006, 
because of a telephone company strike that prevented the installation 
of a T-1 line.
---------------------------------------------------------------------------
    Increment 4 is the strategic US VISIT program capability, which 
program officials stated will likely consist of a further series of 
incremental releases or mission capability enhancements that will 
support business outcomes. The program reports that it has worked with 
its prime contractor and partners to develop this overall vision for 
the immigration and border management enterprise.
    All increments before Increment 4 depend on the interfacing and 
integration of existing systems,\10\ including the following:
---------------------------------------------------------------------------
    \10\ In addition, Increment 2C (RF technology) will include the 
creation of a new system, the Automated Identification Management 
System.
---------------------------------------------------------------------------
  --The Arrival and Departure Information System (ADIS) stores:
  --noncitizen traveler arrival and departure data received from air 
        and sea carrier manifests,
  --arrival data captured by CBP officers at air and sea ports of 
        entry,
  --I-94 issuance data captured by CBP officers at Increment 2B land 
        ports of entry,
  --departure information captured at US VISIT biometric departure 
        pilot (air and sea) locations,
  --pedestrian arrival information and pedestrian and vehicle departure 
        information captured at Increment 2C port of entry locations, 
        and
  --status update information provided by SEVIS and CLAIMS 3 (described 
        below).
    ADIS provides record matching, query, and reporting functions.
  --The passenger processing component of the Treasury Enforcement 
        Communications System (TECS) includes two systems: Advance 
        Passenger Information System (APIS), a system that captures 
        arrival and departure manifest information provided by air and 
        sea carriers, and the Interagency Border Inspection System, a 
        system that maintains lookout data and interfaces with other 
        agencies' databases. CBP officers use these data as part of the 
        admission process. The results of the admission decision are 
        recorded in TECS and ADIS.
  --The Automated Biometric Identification System (IDENT) collects and 
        stores biometric data about foreign visitors.
  --The Student and Exchange Visitor Information System (SEVIS) and the 
        Computer Linked Application Information Management System 
        (CLAIMS 3) contain information on foreign students and foreign 
        nationals who request benefits, such as change of status or 
        extension of stay. Some of these systems, such as IDENT, are 
        managed by the program office, while some systems are managed 
        by other organizational entities within DHS. For example, TECS 
        is managed by CBP, SEVIS is managed by Immigration and Customs 
        Enforcement, CLAIMS 3 is under United States Citizenship and 
        Immigration Services, and ADIS is jointly managed by CBP and US 
        VISIT.
    US VISIT also interfaces with other, non-DHS systems for relevant 
purposes, including watch list updates and checks to determine whether 
a visa applicant has previously applied for a visa or currently has a 
valid U.S. visa. In particular, US VISIT receives biographic and 
biometric information from the Department of State's Consular 
Consolidated Database as part of the visa application process, and 
returns fingerscan information and watch list changes.

           US VISIT CAPABILITY IS OPERATING AT PORTS OF ENTRY

    Over the last 3 years, US VISIT program officials and supporting 
contractor staff have worked to meet challenging legislative time 
frames, as well as a DHS-imposed requirement to use biometric 
identifiers. Under law, for example, DHS was to create an electronic 
entry and exit system to screen and monitor the stay of foreign 
nationals who enter and leave the United States and implement the 
system at (1) air and sea ports of entry by December 31, 2003, (2) the 
50 highest-volume land ports of entry by December 31, 2004, and (3) the 
remaining ports of entry by December 31, 2005.\11\ It was also to 
provide the means to collect arrival/departure data from biometrically 
enabled and machine-readable travel documents at all ports of 
entry.\12\
---------------------------------------------------------------------------
    \11\ 8 USC 1365a; 6 USC 251 (transferred Immigration and 
Naturalization Service functions to DHS); 8 USC 1732(b).
    \12\ 8 USC 1732(b); 6 USC 251.
---------------------------------------------------------------------------
    To the program office's credit, it has largely met its obligations 
relative to an entry capability. For example, on January 5, 2004, it 
deployed and began operating most aspects of its planned entry 
capability at 115 airports and 14 seaports, and added the remaining 
aspects in February 2005. During 2004, it also deployed and began 
operating this entry capability in the secondary inspection areas of 
the 50 highest volume land ports of entry. As of December 19, 2005, it 
had deployed and begun operating its entry capability at all but 1 of 
the remaining 104 land ports of entry.\13\ The program has also been 
working to define feasible and cost-effective exit solutions, including 
technology feasibility testing at 3 land ports of entry and operational 
performance evaluations at 11 air and sea ports of entry.
---------------------------------------------------------------------------
    \13\ One port of entry was not fully operational until January 7, 
2006, because of a telephone company strike that prevented the 
installation of a T-1 line.
---------------------------------------------------------------------------
    Moreover, the development and deployment of this entry capability 
has occurred during a period of considerable organizational change, 
starting with the creation of DHS from 23 separate agencies in early 
2003, followed by the establishment of a US VISIT program office 
shortly thereafter--which was only about 5 months before it had to meet 
its first legislative milestone. Compounding these program challenges 
was the fact that the systems that were to be used in building and 
deploying an entry capability were managed and operated by a number of 
the separate agencies that had been merged to form the new department, 
each of which was governed by different policies, procedures, and 
standards.
    As a result of the program's efforts to deploy and operate an entry 
capability, DHS reports that it has been able to apprehend and prevent 
the entry of hundreds of criminal aliens: as of March 2005, DHS 
reported that more than 450 people with records of criminal or 
immigration violations have been prevented from entering. For example, 
its biometric screening prevented the reentry of a convicted felon, 
previously deported, who was attempting to enter under an alias; 
standard biographic record checks using only names and birth dates 
would have likely cleared the individual.
    Another potential consequence, although difficult to demonstrate, 
is the deterrent effect of having an operational entry capability. 
Although deterrence is not an expressly stated goal of the program, 
officials have cited it as a potential byproduct of having a publicized 
capability at the border to screen entry on the basis of identity 
verification and matching against watch lists of known and suspected 
terrorists. Accordingly, the deterrent potential of the knowledge that 
unwanted entry may be thwarted and the perpetrators caught is arguably 
a layer of security that should not be overlooked.

   DHS HAS YET TO DEMONSTRATE THAT US VISIT AS DEFINED IS THE RIGHT 
                                SOLUTION

    A prerequisite for prudent investment in programs is having 
reasonable assurance that a proposed course of action is the right 
thing to do, meaning that it properly fits within the larger context of 
an agency's strategic plans and related operational and technology 
environments, and that the program will produce benefits in excess of 
costs over its useful life. We have made recommendations to DHS aimed 
at ensuring that this is in fact the case for US VISIT, and the 
department has taken steps intended to address our recommendations. 
These steps, however, have yet to produce sufficient analytical 
information to demonstrate that US VISIT as defined is the right 
solution. Without this knowledge, investment in the program cannot be 
fully justified.

     OPERATIONAL AND TECHNOLOGICAL CONTEXT ARE STILL BEING DEFINED

    Agency programs need to properly fit within a common strategic 
context or frame of reference governing key aspects of program 
operations--e.g., what functions are to be performed by whom, when and 
where they are to be performed, what information is to be used to 
perform them, and what rules and standards will govern the application 
of technology to support them. Without a clear operational context for 
US VISIT, the risk is increased that the program will not interoperate 
with related programs and thus not cost-effectively meet mission needs.
    In September 2003 we reported that DHS had not defined key aspects 
of the larger homeland security environment in which US VISIT would 
need to operate. For example, certain policy and standards decisions 
had not been made, such as whether official travel documents would be 
required for all persons who enter and exit the country--including 
United States and Canadian citizens--and how many fingerprints would be 
collected. Nonetheless, program officials were making assumptions and 
decisions at that time that, if they turned out to be inconsistent with 
subsequent policy or standards decisions, would require US VISIT 
rework. To minimize the impact of these changes, we recommended that 
DHS clarify the context in which US VISIT is to operate.
    About 28 months later, defining this operational context remains a 
work in progress. For example, the program's relationships and 
dependencies with other closely allied initiatives and programs are 
still unclear. According to the US VISIT Chief Strategist, an 
immigration and border management strategic plan was drafted in March 
2005 that shows how US VISIT is aligned with DHS's organizational 
mission and that defines an overall vision for immigration and border 
management. According to this official, the vision provides for an 
immigration and border management enterprise that unifies multiple 
internal departmental and other external stakeholders with common 
objectives, strategies, processes, and infrastructures. As of December 
2005, however, we were told that this strategic plan has not been 
approved.
    In addition, since the plan was drafted, DHS has reported that 
other relevant initiatives have been undertaken. For example:
  --The DHS Security and Prosperity Partnership of North America is to, 
        among other things, establish a common approach to securing the 
        countries of North America--the United States, Canada, and 
        Mexico--by, for example, implementing a border facilitation 
        strategy to build capacity and improve the legitimate flow of 
        people and cargo at our shared borders.
  --The DHS Secure Border Initiative is to implement a comprehensive 
        approach to securing our borders and combating illegal 
        immigration.
    According to the Chief Strategist, portions of the strategic plan 
are being incorporated into these initiatives, but these initiatives 
and their relationships with US VISIT are still being defined.
    Similarly, the mission and operational environment of US VISIT are 
related to those of another major DHS program--the Automated Commercial 
Environment (ACE), which is a new trade processing system that is 
planned to support the movement of legitimate imports and exports and 
to strengthen border security. In addition, both US VISIT and ACE could 
potentially use common IT infrastructures and services. As we reported 
in February 2005, the program office recognized these similarities, but 
managing the relationship between the two programs had not been a 
priority matter. Accordingly, we recommended that DHS give priority to 
understanding the relationships and dependencies between the US VISIT 
and ACE programs.
    Since our recommendation, the US VISIT and ACE managers have formed 
an integrated project team to, among other things, ensure that the two 
programs are programmatically and technically aligned. Program 
officials stated that the team has met three times since April 2005 and 
plans to meet on a quarterly basis going forward. The team has 
discussed potential areas of focus and agreed to three areas: RF 
technology, program control, and data governance. However, it does not 
have an approved charter, and it has not developed explicit plans or 
milestone dates for identifying the dependencies and relationships 
between the two programs.
    It is important that DHS define the operational context for US 
VISIT, as well as its relationships and dependencies with closely 
allied initiatives and such programs as ACE. The more time it takes to 
settle these issues, the more likely that extensive and expensive 
rework will be needed at a later date.

             RETURN ON INVESTMENT HAS YET TO BE DETERMINED

    Prudent investment also requires that an agency have reasonable 
assurance that a proposed program will produce mission value 
commensurate with expected costs and risks. Thus far, DHS has yet to 
develop an adequate basis for knowing that this is the case for its 
early US VISIT increments. Without this knowledge, it cannot adequately 
ensure that these increments are justified.
    Assessments of costs and benefits are extremely important, because 
the decision to invest in any capability should be based on reliable 
analyses of return on investment. According to OMB guidance, individual 
increments of major systems are to be individually supported by 
analyses of benefits, cost, and risk.\14\ In addition, OMB guidance on 
the analysis needed to justify investments states that such analysis 
should meet certain criteria to be considered reasonable.\15\ These 
criteria include, among other things, comparing alternatives on the 
basis of net present value and conducting uncertainty analyses of costs 
and benefits. (DHS has also issued guidance on such economic analyses, 
which is consistent with that of OMB.\16\ Without reliable analyses, an 
organization cannot be reasonably assured that a proposed investment is 
a prudent and justified use of resources.
---------------------------------------------------------------------------
    \14\ OMB, Planning, Budgeting, Acquisition and Management of 
Capital Assets, Circular A-11, Part 7 (Washington, DC: June 21, 2005).
    \15\ OMB, Guidelines and Discount Rates for Benefits-Cost Analysis 
of Federal Programs Circular A-94 (Washington, DC: Oct. 29, 1992).
    \16\ Department of Homeland Security, Capital Planning and 
Investment Control: Cost-Benefit Analysis Workbook (Washington, DC: May 
2003).
---------------------------------------------------------------------------
    In September 2003, we reported that the program had not assessed 
the costs and benefits of Increment 1. Accordingly, we recommended that 
DHS perform such assessments for future increments.\17\ In February 
2005, we reported that although the program office had developed a 
cost-benefit analysis for Increment 2B (which provides the capability 
for electronic collection of traveler information at land ports of 
entry),\18\ it had again not justified the investment, because its 
treatment of both benefits and costs was unclear and insufficient.\19\ 
Further, we reported that the cost estimates on which the cost-benefit 
analysis was based were of questionable reliability, because effective 
cost-estimating practices were not followed. Accordingly, we 
recommended that DHS follow certain specified practices for estimating 
the costs of future increments.\20\
---------------------------------------------------------------------------
    \17\ GAO, Homeland Security: Risks Facing Key Border and 
Transportation Security Program Need to Be Addressed, GAO-03-1083 
(Washington, DC: 1Sept. 19, 2003).
    \18\ GAO, Homeland Security: Some Progress Made, but Many 
Challenges Remain on U.S. Visitor and Immigrant Status Indicator 
Technology Program, GAO-05-202 (Washington, DC: Feb. 23, 2005).
    \19\ For example, the cost-benefit analysis identified two 
categories of quantifiable benefits, but gave no quantitative or 
monetary estimates for those benefits. Instead, the analysis addressed 
two categories of benefits said to be nonquantifiable (strategic 
alignment benefits, such as the improvement of national security and 
the promotion of legitimate trade and travel, and operational 
performance benefits, such as improvement of traveler identification 
and validation of traveler documentation), but it did not explain why 
those benefits could not be quantified.
    \20\ Such cost-estimating practices are provided in a checklist for 
determining the reliability of cost estimates that was developed by 
Carnegie Mellon University Software Engineering Institute: A Manager's 
Checklist for Validating Software and Schedule Estimates, CMU/SEI-95-
SR-004 (January 1995).
---------------------------------------------------------------------------
    Since our February 2005 report, the program has developed a cost-
benefit analysis for Increment 1B (which is to provide exit 
capabilities at air and sea ports of entry). The latest version of this 
analysis, dated June 23, 2005, identifies potential costs and benefits 
for three exit solutions at air and sea ports of entry and provides a 
general rationale for the viability of the three alternatives 
described.\21\ This latest analysis meets some but not all the OMB 
criteria for economic analyses. For example, it explains why the 
investment was needed, and it shows that at least two alternatives to 
the status quo were considered. However, it does not include, for 
example, a complete uncertainty analysis for the three exit 
alternatives evaluated. That is, it does not include a sensitivity 
analysis for the three alternatives, which is a major part of an 
uncertainly analysis.\22\ (A sensitivity analysis is a quantitative 
assessment of the effect that a change in a given assumption--such as 
unit labor cost--will have on net present value.) A complete analysis 
of uncertainty is important because it provides decision makers with a 
perspective on the potential variability of the cost and benefit 
estimates should the facts, circumstances, and assumptions change.
---------------------------------------------------------------------------
    \21\ As described in the background section, these alternatives are 
a mobile device, a kiosk, and a validator.
    \22\ The other major component of an uncertainty analysis is a 
Monte Carlo simulation. A Monte Carlo simulation allows all a model's 
parameters to vary simultaneously according to their associated 
probability distribution. The result is a set of estimated 
probabilities of achieving alternative outcomes (costs, benefits, and/
or net benefits), given the uncertainty in the underlying parameters.
---------------------------------------------------------------------------
    In addition, the quality of a cost-benefit analysis is dependent on 
the quality of the cost assessments on which it is based. However, the 
cost estimate associated with the June 2005 cost-benefit analysis for 
the three exit solutions (Increment 1B) did not meet key criteria for 
reliable cost estimating. For example, it did not include a detailed 
work breakdown structure. A work breakdown structure serves to organize 
and define the work to be performed, so that associated costs can be 
identified and estimated. Thus, it provides a reliable basis for 
ensuring that the estimates include all relevant costs.
    Program officials stated that they recognize the importance of 
developing reliable cost estimates and have initiated actions to more 
reliably estimate the costs of future increments. For example, the 
program has chartered a cost analysis process action team, which is to 
develop, document, and implement a cost analysis policy, process, and 
plan for the program. Program officials also stated that they have 
hired additional contracting staff with cost-estimating experience.
    Strengthening the program's cost-estimating capability is extremely 
important. The absence of reliable cost estimates impedes, among other 
things, both the development of reliable economic justification for 
program decisions and the effective measurement of performance.

       ANALYSIS OF PROGRAM IMPACTS AND OPTIONS IS BEING PERFORMED

    Program decisions and planning depend on adequate analyses and 
assessments of program impacts and options. The department has begun to 
develop such analyses, but some of these, such as its analyses of the 
operational impact of Increment 2B and of the options for its exit 
capability, do not yet provide an adequate basis for investment and 
deployment decisions.
    We reported in May 2004 that the program had not assessed its 
workforce and facility needs for Increment 2B (which provides the 
capability for electronic collection of traveler information at land 
ports of entry). Because of this, we questioned the validity of the 
program's assumptions and plans concerning workforce and facilities, 
since the program lacked a basis for determining whether its 
assumptions were correct and thus whether its plans were adequate. 
Accordingly, we recommended that DHS assess the full impact of 
Increment 2B on workforce levels and facilities at land ports of entry, 
including performing appropriate modeling exercises.
    Seven months later, the program office evaluated Increment 2B 
operational performance, with the stated purpose of determining the 
effectiveness of Increment 2B performance at the 50 busiest land ports 
of entry. For this evaluation, the program office established a 
baseline for comparing the average times to issue and process entry/
exit forms at 3 of these 50 ports of entry. The program office then 
conducted two evaluations of the processing times at the three ports, 
first after Increment 2B was deployed as a pilot, and next 3 months 
later, after it was deployed to all 50 ports of entry. The evaluation 
results showed that the average processing times decreased for all 
three sites. Program officials concluded that these results supported 
their workforce and facilities planning assumptions that no additional 
staff was required to support deployment of Increment 2B and that 
minimal modifications were required at the facilities.\23\
---------------------------------------------------------------------------
    \23\ Specifically, they said minimal modifications to interior 
workspace were required to accommodate biometric capture devices and 
printers and to install electrical circuits. These officials stated 
that modifications to existing officer training and interior space were 
the only changes needed.
---------------------------------------------------------------------------
    However, the scope of the evaluations is not sufficient to satisfy 
the evaluations' stated purpose or our recommendation for assessing the 
full impact of 2B. For example, the selection of the three sites, 
according to program officials, was based on a number of factors, 
including whether the sites already had sufficient staff to support the 
pilot. Selecting sites based on this factor could affect the results, 
and it presupposes that not all ports of entry have the staff needed to 
support 2B. In addition, evaluation conditions were not always held 
constant: specifically, fewer workstations were used to process 
travelers in establishing the baseline processing times at two of the 
ports of entry than were used during the pilot evaluations.
    Moreover, CBP officials from a land port of entry that was not an 
evaluation site (San Ysidro) told us that US VISIT deployment has not 
reduced but actually lengthened processing times. (San Ysidro processes 
the highest volume of travelers of all land ports of entry.) Although 
these officials did not provide specific data to support their 
statement, their perception nevertheless raises questions about the 
potential impact of Increment 2B on the 47 sites that were not 
evaluated.
    Similarly, in February 2005, we reported that US VISIT had not 
adequately planned for evaluating the alternatives for Increment 1B 
(which provides exit capabilities at air and sea ports of entry) 
because the scope and timeline of its exit pilot evaluation were 
compressed. Accordingly, we recommended that DHS reassess plans for 
deploying an exit capability to ensure that the scope of the exit pilot 
provides for adequate evaluation of alternative solutions.
    Over the last 11 months, the program office has taken actions to 
expand the scope and time frames of the pilot. For example, it 
increased the number of ports of entry in the pilot from 5 to 11, and 
it also extended the time frame by about 7 months. Further, according 
to program officials, they were able to achieve the target sample sizes 
necessary to have a 95 percent confidence level in their results.
    Nevertheless, questions remain about whether the exit alternatives 
have been adequately evaluated to permit selection of the best exit 
solution for national deployment. For example, one of the criteria 
against which the alternatives were evaluated was the rate of traveler 
compliance with US VISIT exit policies (that is, foreign travelers 
providing information as they exit the United States).\24\ However, 
across the three alternatives, the average compliance with these 
policies was only 24 percent, which raises questions as to their 
effectiveness.\25\ The evaluation report cites several reasons for the 
low compliance rate, including that compliance during the pilot was 
voluntary. The report further concludes that national deployment of the 
exit solution will not meet the desired compliance rate unless the exit 
process incorporates an enforcement mechanism, such as not allowing 
persons to reenter the United States if they do not comply with the 
exit process. Although an enforcement mechanism might indeed improve 
compliance, program officials stated that no formal evaluation has been 
conducted of enforcement mechanisms or their possible effect on 
compliance. The program director agreed that additional evaluation is 
needed to assess the impact of implementing potential enforcement 
mechanisms and plans to do such evaluation.
---------------------------------------------------------------------------
    \24\ The other two evaluation criteria were cost and conduciveness 
to travel.
    \25\ Compliance rates were 23 percent for the kiosk, 36 percent for 
the mobile device, and 26 percent for the validator.
---------------------------------------------------------------------------
    DHS IS STILL ESTABLISHING NEEDED PROGRAM MANAGEMENT CAPABILITIES

    Establishing effective program management capabilities is important 
to ensure that an organization is going about delivering a program in 
the right way. Accordingly, we have made recommendations to establish 
specific people and process management capabilities. While DHS is 
making progress in implementing many of our recommendations in this 
area, this progress has often been slow.
    One area in which DHS has made good progress is in implementing our 
recommendations to establish the human capital capabilities necessary 
to manage US VISIT. In September 2003, we reported that the US VISIT 
program had not fully staffed or adequately funded its program office 
or defined specific roles and responsibilities for program office 
staff. Our prior experience with major acquisitions like US VISIT shows 
that to be successful, they need, among other things, to have adequate 
resources, and program staff need to understand what they are to do, 
how they relate to each other, and how they fit in their organization. 
In addition, prior research and evaluations of organizations show that 
effective human capital management can help agencies establish and 
maintain the workforce they need to accomplish their missions. 
Accordingly, we recommended that DHS ensure that human capital and 
financial resources are provided to establish a fully functional and 
effective program office, and that the department define program office 
positions, roles, and responsibilities. We also recommended that DHS 
develop and implement a human capital strategy for the program office 
that provides for staffing positions with individuals who have the 
appropriate knowledge, skills, and abilities.
    DHS has implemented our recommendation that it define program 
office positions, roles, and responsibilities, and it has partially 
completed our two other people-related recommendations. It has filled 
most of its planned government positions and is on the way to filling 
the rest, and it has filled all of its planned contractor positions. 
However, the program completed a workforce analysis in February 2005 
and requested additional positions based on the results. Securing these 
necessary resources will be a continuing challenge.
    In addition, as we reported in February 2005, the program office, 
working with the Office of Personnel Management, developed a draft 
human capital plan that employed widely accepted human capital planning 
tools and principles (for example, it included an action plan that 
identified activities, their proposed completion dates, and the office 
responsible for the action). In addition, the program office had 
completed some of the activities in the plan. Since then, the program 
office has finalized the human capital plan, completed more activities, 
and formulated plans to complete others (for example, according to the 
program office, it has completed an analysis of its workforce to 
determine diversity trends, retirement and attrition rates, and 
mission-critical and leadership competency gaps, and it has plans to 
complete an analysis of workforce data to maintain strategic focus on 
preserving the skills, knowledge, and leadership abilities required for 
the US VISIT program's success).
    Program officials also said that the reason they have not completed 
several activities in the plan is that these activities are related to 
the department's new human capital initiative, MAXHR.\26\ Because this 
initiative is to include the development of departmentwide 
competencies, program officials told us that it could potentially 
affect ongoing program activities related to competencies. As a result, 
these officials said that they are coordinating these activities 
closely with the department as it develops and implements this new 
initiative, which is currently being reviewed by the DHS Deputy 
Secretary.
---------------------------------------------------------------------------
    \26\ This initiative is to provide greater flexibility and 
accountability in the way employees are paid, developed, evaluated, 
afforded due process, and represented by labor organizations.
---------------------------------------------------------------------------
    DHS's progress in implementing our human capital recommendations 
should help ensure that it has sufficient staff with the right skills 
and abilities to successfully execute the program. Having such staff 
has been and will be particularly important in light of the program's 
more limited progress to date in establishing program management 
process capabilities. DHS's progress in establishing effective 
processes governing how program managers and staff are to perform their 
respective roles and responsibilities has generally been slow. In our 
experience, weak process management controls typically result in 
programs falling short of expectations. From September 2003, we have 
made numerous recommendations aimed at enabling the program to 
strengthen its process controls in such areas as acquisition 
management, test management, risk management,\27\ configuration 
management,\28\ capacity management,\29\ security, privacy, and 
independent verification and validation (IV&V).\30\ DHS has not yet 
completed the implementation of any of our recommendations in these 
areas, with one exception. It has ensured that the program office's 
IV&V contractor was independent of the products and processes that it 
was verifying and validating, as we recommended. In July 2005, the 
program office issued a new contract for IV&V services after following 
steps to ensure the contractor's independence (for example, IV&V 
contract bidders were to be independent of the development and 
integration contractors and are prohibited from soliciting, proposing, 
or being awarded work for the program other than IV&V services). If 
effectively implemented, these steps should adequately ensure that 
verification and validation activities are performed in an objective 
manner, and thus should provide valuable assistance to program managers 
and decision makers.
---------------------------------------------------------------------------
    \27\ Risk management is a process for identifying potential 
problems before they occur so that they can be mitigated to minimize 
any adverse impact.
    \28\ Configuration management is a process for establishing and 
maintaining the integrity of the products throughout their life cycle.
    \29\ Capacity management is intended to ensure that systems are 
properly designed and configured for efficient performance and have 
sufficient processing and storage capacity for current, future, and 
unpredictable workload requirements.
    \30\ The purpose of IV&V is to provide management with objective 
insight into the program's processes and associated work products. Its 
use is a recognized best practice for large and complex system 
development and acquisition projects like US VISIT.
---------------------------------------------------------------------------
    In the other management areas, DHS has partially completed or has 
only begun to address our recommendations, and more remains to be done. 
For example, DHS has not completed the development and implementation 
of key acquisition controls. We reported in September 2003 \31\ that 
the program office had not defined key acquisition management controls 
to support the acquisition of US VISIT, increasing the risk that the 
program would not satisfy system requirements or meet benefit 
expectations on time and within budget. Accordingly, we recommended 
that DHS develop and implement a plan for satisfying key acquisition 
management controls in accordance with best practices.\32\
---------------------------------------------------------------------------
    \31\ GAO, Homeland Security: Risks Facing Key Border and 
Transportation Security Program Need to Be Addressed, GAO-03-1083 
(Washington, DC: Sept. 19, 2003).
    \32\ Specifically, we recommended that DHS follow guidance from 
Carnegie Mellon University's Software Engineering Institute (SEI), 
which has developed the Software Acquisition Capability Maturity Model 
(SA-CMM). This model explicitly defines process management controls 
that are recognized hallmarks of successful organizations and that, if 
implemented effectively, can greatly increase the chances of 
successfully acquiring software-intensive systems. The SA-CMM uses 
maturity levels to assess process maturity. See Carnegie Mellon 
Software Engineering Institute, Software Acquisition Capability 
Maturity Model, version 1.03 (March 2002). Since we made our 
recommendation, however, SEI has begun transitioning to an integrated 
model and for its improvement program, the program office is using this 
integrated model: SEI, Capability Maturity Model Integrated, Systems 
Engineering Integrated Product and Process Development, Continuous 
Representation, version 1.1 (March 2002).
---------------------------------------------------------------------------
    The program office has recently taken steps to lay the foundation 
for establishing key acquisition management controls. For example, it 
has developed a process improvement plan to define and implement these 
controls that includes a governance structure for overseeing 
improvement activities. In addition, the program office has recently 
completed a self-assessment of its acquisition process maturity, and it 
plans to use the assessment results to establish a baseline of its 
acquisition process maturity as a benchmark for improvement. According 
to program officials, the assessment included key process areas that 
are generally consistent with the process areas cited in our 
recommendation. The program has ranked these process areas and plans to 
focus on those with highest priority. (Some of these high-priority 
process areas are also areas in which we have made recommendations, 
such as configuration management and risk management.)
    The improvement plan is currently being updated to reflect the 
results of the baseline assessment and to include a work breakdown 
structure, process prioritization, and resource estimates. According to 
a program official, the goal is to conduct a formal appraisal to assess 
the capability level of some or all of the high-priority process areas 
by October 2006.
    These recent steps provide a foundation for progress, but fully and 
effectively implementing key acquisition management controls takes 
considerable time, and DHS is still in the early stages of the process.
    Therefore, it is important that these improvement efforts stay on 
track. Until these controls are effectively implemented, US VISIT will 
be at risk of not delivering promised capabilities on time and within 
budget.
    Another management area of high importance to a complex program 
like US VISIT is test management. The purpose of system testing is to 
identify and correct system defects before the system is deployed. To 
be effective, testing activities should be planned and implemented in a 
structured and disciplined fashion. Among other things, this includes 
developing effective test plans to guide the testing activities and 
ensuring that test plans are developed and approved before test 
execution.
    In this area also, DHS's progress responding to our recommendation 
has been limited. We reported in May 2004, and again in February 2005, 
that system testing was not based on well-defined test plans, and thus 
the quality of testing being performed was at risk. Because DHS test 
plans were not sufficiently well-defined to be effective, we 
recommended that before testing begins, DHS develop and approve test 
plans that meet the criteria that relevant systems development guidance 
prescribes for effective test plans: namely, that they (1) specify the 
test environment; (2) describe each test to be performed, including 
test controls, inputs, and expected outputs; (3) define the test 
procedures to be followed in conducting the tests; and (4) provide 
traceability between the test cases and the requirements to be verified 
by the testing.
    About 20 months later, the quality of the system test plans, and 
thus system testing, is still a challenge. To the program's credit, the 
test plans for the Proof of Concept for Increment 2C, dated June 28, 
2005 (which introduces RF technology to automatically record the entry 
and exit of covered individuals), satisfied part of our recommendation. 
Specifically, the test plan for this increment was approved on June 30, 
2005, before testing began (according to program officials, it began on 
July 5, 2005). Further, the test plan described, for example, the 
scope, complexity, and completeness of the test environment; it 
described the tests to be performed, including a high-level description 
of controls, inputs, and outputs; and it identified the test procedures 
to be performed.
    However, the test plan did not adequately trace between test cases 
and the requirements to be verified by testing. For example, about 70 
percent of the requirements that we analyzed did not have specific 
references to test cases. Further, we identified traceability 
inconsistencies, such as one requirement that was mapped to over 50 
test cases, even though none of the 50 cases referenced the 
requirement.
    Time and resource constraints were identified as the reasons that 
test plans have not been complete. Specifically, program officials 
stated that milestones do not permit existing testing/quality personnel 
the time required to adequately review testing documents.\33\ According 
to these officials, even when the start of testing activities is 
delayed because, for example, requirements definition or product 
development takes longer than anticipated, testing milestones are not 
extended.
---------------------------------------------------------------------------
    \33\ The Systems Assurance Manager stated that she has only two 
staff, including herself, for ensuring testing quality of the US VISIT 
composite system.
---------------------------------------------------------------------------
    Without complete test plans, the program does not have adequate 
assurance that the system is being fully tested, and thus unnecessarily 
assumes the risk of system defects not being detected and addressed 
before the system is deployed. This means that the system may not 
perform as intended when deployed, and defects will not be addressed 
until late in the systems development cycle, when they are more 
difficult and time-consuming to fix. This has in fact happened already: 
postdeployment system interface problems surfaced for Increment 1, and 
manual work-arounds had to be implemented after the system was 
deployed.
    Until process management weaknesses such as these are addressed, 
the program will continue to be overly dependent on the exceptional 
performance of individuals to produce results. Such dependence 
increases the risk of the US VISIT program falling short of 
expectations.

    DHS HAS YET TO FULLY ESTABLISH PROGRAM ACCOUNTABILITY MECHANISMS

    To better ensure that US VISIT and DHS meet expectations, we made 
recommendations related to measuring and disclosing progress against 
program commitments. Thus far, such performance and accountability 
mechanisms have yet to be fully established. Measurements of the 
operational performance of the system are necessary to ensure that the 
system adequately supports mission operations, and measurements of 
program progress and outcomes are important for demonstrating that the 
program is on track and is producing results. Without such 
measurements, program performance and accountability can suffer.
    As we reported in September 2003, the operational performance of 
initial system increments was largely dependent on the performance of 
existing systems that were to be interfaced to create these increments. 
For example, we said that the performance of an increment would be 
constrained by the availability and downtime of the existing systems, 
some of which had known problems in these areas. Accordingly, we 
recommended that DHS define performance standards for each increment 
that are measurable and that reflect the limitations imposed by this 
reliance on existing systems. In February 2005, we reported that 
several technical performance standards for increments 1 and 2B had 
been defined, but that it was not clear that these standards reflected 
the limitations imposed by the reliance on existing systems. Since 
then, the program office has defined certain other technical 
performance standards for the next increment (Increment 2C, Phase 1), 
including standards for availability. Consistent with what we reported, 
the functional requirements document states that these performance 
standards are largely dependent upon those of the current systems, and 
for system availability, it sets an aggregated availability standard 
for Increment 2C components. However, the document does not contain 
sufficient information for a determination of whether these performance 
standards actually reflect the limitations imposed by reliance on 
existing systems. Unless the program defines performance standards that 
do this, it will be unable to identify and effectively address 
performance shortfalls.
    Similarly, as we observed in June 2003, to permit meaningful 
program oversight, it is important that expenditure plans describe how 
well DHS is progressing against the commitments made in prior 
expenditure plans. The expenditure plan for fiscal year 2005 (the 
fourth US VISIT expenditure plan) does not describe progress against 
commitments made in the previous plans. For example, according to the 
fiscal year 2004 plan, US VISIT was to analyze, field test, and begin 
deploying alternative approaches for capturing biometrics during the 
exit process. However, according to the fiscal year 2005 plan, US VISIT 
was to expand its exit pilot sites during the summer and fall of 2004, 
and it would not deploy the exit solution until fiscal year 2005. The 
plan does not explain the reason for this change from its previous 
commitment nor its potential impact. Nor does it describe the status of 
the exit pilot testing or deployment, such as whether the program has 
met its target schedule or whether the schedule has slipped.
    Additionally, the fiscal year 2004 plan stated that $45 million in 
fiscal year 2004 was to be used for exit activities. However, in the 
fiscal year 2005 plan, the figure for exit activities was $73 million 
in fiscal year 2004 funds. The plan does not highlight this difference 
or address the reason for the change in amounts. Also, although the 
fiscal year 2005 expenditure plan includes benefits stated in the 
fiscal year 2004 plan, it does not describe progress in addressing 
those benefits, even though in the earlier plan, US VISIT stated that 
it was developing metrics for measuring the projected benefits, 
including baselines by which progress could be assessed. The fiscal 
year 2005 plan again states that performance measures are under 
development.
    Figure 1 provides our analysis of the commitments made in the 
fiscal year 2003 and 2004 plans, compared with progress reported and 
planned in February 2005.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 Figure 1. Time Line Comparing Commitments Made in the US VISIT Fiscal 
Year 2003 and 2004 Plans with Commitments and Reported Progress in the 
                         Fiscal Year 2005 Plan

    The deployment of an exit capability, an important aspect of the 
program that was to result from the exit pilots shown in the figure, 
further illustrates missed commitments that need to be reflected in the 
next expenditure plan. In the fiscal year 2005 expenditure plan, the 
program committed to deploying an exit capability to air and sea ports 
of entry by September 30, 2005. Although US VISIT has completed its 
evaluation of exit solutions at 11 pilot sites (9 airports and 2 
seaports), no decision has yet been made on when an exit capability 
will be deployed. According to program officials, deployment to further 
sites would take at least 6 months from the time of the decision. This 
means that the program office will not meet its commitment.
    Another accountability mechanism that we recommended in May 2004 is 
for the program to develop a plan, including explicit tasks and 
milestones, for implementing all our open recommendations, and report 
on progress, including reasons for delays, both to department 
leadership (the DHS Secretary and Under Secretary) in periodic reports 
and to the Congress in all future expenditure plans. The department has 
taken action to address this recommendation, but the initial report 
does not disclose enough information for a complete assessment of 
progress. The program office did assign responsibility to specific 
individuals for preparing the implementation plan, and it developed a 
report identifying the person responsible for each recommendation and 
summarizing progress. This report was provided for the first time to 
the DHS Deputy Secretary on October 3, 2005, and the program office 
plans to forward subsequent reports every 6 months. However, some of 
the report's progress descriptions are inconsistent with our 
assessment. For example, the report states that the impact of Increment 
2B on workforce levels and facilities at land ports of entry has been 
fully assessed. However, as mentioned earlier, evaluation conditions 
were not always held constant--that is, fewer workstations were used to 
process travelers in establishing the baseline processing times at two 
of the ports of entry than were used during the pilot evaluations.
    In addition, the report does not specifically describe progress 
against most of our recommendations. For example, we recommended that 
the program reassess plans for deploying an exit capability to ensure 
that the scope of the exit pilot provides for adequate evaluation of 
alternative solutions. With regard to the exit evaluation, the report 
states that the program office has completed exit testing and has 
forwarded the exit evaluation report to the Deputy Secretary for a 
decision. However, it does not state whether the program office had 
expanded the scope or time frames of the pilot.
    In closing, I would emphasize that the program has met many of the 
demanding requirements in law for deployment of an entry-exit system, 
owing, in large part, to the hard work and dedication of the program 
office and its contractors, as well as the close oversight and 
direction of the House and Senate Appropriations Committees. 
Nevertheless, core capabilities, such as exit, have yet to be 
established and implemented, and fundamental questions about the 
program's fit within the larger homeland security context and its 
return on investment remain unanswered. Moreover, the program is 
overdue in establishing the means to effectively manage the delivery of 
future capabilities. The longer the program proceeds without these, the 
greater the risk that the program will not meet its commitments.
    Measuring and disclosing the extent to which these commitments are 
being met are also essential to holding the department accountable, and 
thus are an integral aspect of effective program management. Our 
recommendations provide a comprehensive framework for addressing each 
of these important areas and thus ensuring that the program as defined 
is the right solution, that delivery of this solution is being managed 
in the right way, and that accountability for both is in place. We look 
forward to continuing to work constructively with the program to better 
ensure the program's success.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions that you or members of the committee may have at 
this time.

                        US VISIT STRATEGIC PLAN

    Senator Gregg. Thank you, Mr. Hite. Let us pick up where 
you have sort of laid some groundwork issues here. Mr. 
Williams, why has the Department not accepted your strategic 
plan at the Department level? Do you know or can you speak to 
that?
    Mr. Williams. We have had discussions with the Department 
about this and we are still working with them to essentially 
vet our plan. In the meantime, we have been using this plan, 
our strategic vision for an immigration and border management 
enterprise, to guide our increments, so we are using it today 
and we believe as we have had discussions with departmental 
officials that we are in concert with their overall vision.
    Senator Gregg. Do you expect them as part of their border 
security initiative which Secretary Chertoff talked about 2 
weeks ago, where he was taking the lead clearly from this 
committee--I am just saying that as an aside--do you expect 
them to pick up your plan and integrate it into that?
    Mr. Williams. Well, as the Department is trying to prepare 
a comprehensive plan for the borders, including things like the 
Secure Border Initiative and US VISIT, we hope that we become a 
part of that finalized vision. But again, we are working with 
them with it. But we are using it today because as we have had 
discussions we believe we are on the right track.
    Senator Gregg. Well, I think that is what Mr. Hite said. He 
said you have got a good plan, but it has not been accepted yet 
at the higher level, therefore it is subject to change. We went 
through this with the FBI and I chaired the subcommittee which 
had jurisdiction over the FBI when they tried to do Trilogy the 
first time, the second time, the third time. Each time it did 
not work because the leadership had not gotten the strategic 
plan together, and so the thing kept changing all the time. I 
am concerned about that happening here.
    So I guess we will just have to ask Mr. Chertoff, Secretary 
Chertoff, where we are going with that.

                    GOVERNMENT-WIDE INTEROPERABILITY

    You mentioned, Mr. Williams, that there are a series of 
agencies which you integrate with on the biometric side and on 
the intelligence side, I presume. How many different agencies 
are there independent of HSA?
    Mr. Williams. Independent of DHS?
    Senator Gregg. DHS.
    Mr. Williams. Well, first I would like to say that within 
DHS we integrate across many different components of DHS, 
including Citizenship and Immigration Services, Immigration and 
Customs Enforcement, Customs and Border Protection, and even 
doing work with TSA and others.
    Beyond that, we work very closely with Department of State 
and in our very first increment we integrated with Department 
of State's CCD, or Consular Consolidated Database, and the 
result of that meant that for the first time when the officers 
actually scanned a passport or visa, say at Dulles Airport, 
what popped up on their screen was the photo that the State 
Department took when that person applied for a visa. We 
continue to work on integration with the State Department.
    With the FBI, we have an executive committee that myself, 
Tom Bush of the FBI, and Tony Edson, State chair, where we are 
working together on interoperability between IAFIS and IDENT, 
and we are very proud of the collegial relationship and what we 
have accomplished so far and we are developing plans for full 
operational capability and flow interoperability of IAFIS and 
IDENT. We also recently have had many discussions also with the 
Department of Defense about what they are doing in the area of 
biometrics, and those discussions actually took place, I 
believe it was, last week, we went out to Clarksburg, West 
Virginia, had a session hosted by the FBI, and had a great 
discussion between the FBI, DOD, and US VISIT.
    Senator Gregg. How about the new intelligence director?
    Mr. Williams. Actually, we work very closely with Charlie 
Allen, our Chief Intelligence Officer. In fact, I met with him 
yesterday morning to brief him on what we are doing and how we 
can make sure that as we receive information from other 
agencies, biometric information, we can work together with his 
intelligence analysts and make sure that he gets the 
information he needs to do his job; because we are both 
somebody who provides, and information that is provided to us, 
we can run that information against our enrolled database.
    Just to give you an example of how this can work, we had a 
person last year who was an Iraqi capture who then escaped, but 
DOD had taken his fingerprints. That person then went and left 
Iraq after he escaped. Those prints came from DOD to the FBI to 
us. That person applied for a visa at the State Department, 
where it hit. So we are working across the immigration border 
management spectrum with the intelligence, with the law 
enforcement and the immigration border management agencies.

                          BIOMETRIC WATCHLIST

    Senator Gregg. Does the information that they develop at 
the Counterterrorism Center that's been set up--it used to be 
called NCTC; I can never remember what the new name is--is that 
information integrated, too?
    Mr. Williams. Yes. As a person, or a biographic, or 
biometric information is promoted to the National 
Counterterrorism Center to become a known or suspected 
terrorist, a KST, that biometric then is labeled as such by the 
FBI and they provide us daily updates on those KSTs, that we 
then load into our Lookout system.
    Senator Gregg. So if you are a CBP officer or a border 
person at a port of entry, air entry--I understand land is 
still coming up--walk us through what happens?
    Mr. Williams. Sure. When that plane leaves, that 
information--name, date of birth, other information--is sent 
electronically and that is checked against a biometric watch 
list while that person is on the plane. So when that person 
arrives at Dulles Airport and that passport or visa is first 
swiped, if that biographic has been a hit against a terrorism 
watch list, then biographically it would be a red flag as soon 
as it pops up on the screen.
    A person subject to US VISIT would be asked to put down 
their digital finger scans, left, right index finger first--
later on, it will be ten prints--take a digital photo. After 
the officer presses ``Send'' while they are still interviewing 
the person, within about 6 to 10 seconds there is a response 
back--is that a biometric hit against our watch list? In our 
watch list we have--again, this is updated daily. We get known 
or suspected terrorists, we get the FBI's wants and warrants of 
foreign-born, unknown country of origin, child predators 
foreign-born, and unknown country of origin. We also add in 
fingerprints from DHS, deported felons, and recidivists, people 
who keep trying to come across the border.
    That makes up our biometric watch list. When that 6 to 10 
seconds happens, that watch list is checked and the screen in 
front of the officer is either blinking green, meaning it is 
not a hit, or it is blinking red, it is a hit.
    Senator Gregg. Now, if the person were to fly in to 
Vancouver and get in a car and drive in to Spokane or 
someplace--what is the crossing point?
    Senator Murray. Blaine.
    Senator Gregg. Blaine. I would love to visit it. I am sure 
it is beautiful.
    What is the status? You do not have the preliminary 
information coming out of Vancouver on the flight when they 
come into Vancouver, right?
    Mr. Williams. No. But if the person is driving across the 
land border coming into the United States at Blaine, if that 
person is subject to US VISIT, which means they have a visa--
there are some restrictions, but generally--if they are coming 
from anywhere in the world with a non-immigrant visa or they 
are under the visa waiver program, they go into secondary 
processing. They are not processed at primary.
    At secondary processing they would be subject to the US 
VISIT program. Now, the majority of people at land borders are 
processed through primary and that includes U.S. citizens, 
permanent residents, Canadian citizens, and Mexicans with 
border crossing cards. Those people today are not included 
under US VISIT.

                 EXIT CAPABILITY AT LAND PORTS OF ENTRY

    Senator Gregg. There are a bunch of other questions I have. 
I especially want to get into this exit issue because I do not 
think there is much point in having this program unless we know 
who is leaving as well as who is coming in. But I do want to 
give my colleagues the opportunity to go.
    Senator Byrd.
    Senator Byrd. Mr. Williams, in response to a question for 
the record from a March 30, 2004, hearing, I asked ``What would 
be the physical impact of the exit capability at our land 
border ports of entry? Would there be a need for new 
construction, procurement of land, building of additional 
roads, and so forth?''
    The response I was provided was that it depends on the 
solution that was ultimately deployed. I was also told that 
that decision would not be made until after the prime 
integrator contract was awarded in mid-fiscal year 2004 and the 
integrator offers a more comprehensive solution.
    Well, now we are in the second quarter of fiscal year 2006. 
Are we any closer to knowing what the need will be for 
additional facilities construction, outbound lanes or staffing?
    Mr. Williams. First of all, ranking member Byrd, I would 
like to say that your message on interoperability between the 
databases is message received. We are working very hard on 
that. I will say that you have outlined some of our toughest 
challenges today, such as going forward integration, further 
integration of databases, but exit, in particular at land 
borders, is probably one of our toughest challenges in terms of 
coverage.
    We looked at this several years ago in terms of if we 
wanted to take all of the 700-plus lanes coming into the 
country and mirror image replace those with the same 
infrastructure, land acquisition, it would probably be over $3 
billion. But more so than that, you have given us a mandate to 
implement a biometric entry-exit system, but also do it in a 
way that does not adversely impact legitimate trade and travel.
    We have people leaving the United States today in cars, 
buses, bicycles, and on foot, and generally they are people who 
just drive out of the country, drive at say 40, and 50 miles an 
hour in some places. What we are trying to do is look at, 
instead of building a solution that says we mirror image entry, 
where we stop everybody at a facility, an infrastructure, 
before leaving, trying to look at a way to collect that 
information about people leaving. We are only testing the 
technology today.
    One of the things we are testing at Blaine is could we use 
RFID, toll booth-like technology, that would then collect the 
information that the person left the country, without adversely 
impacting legitimate travel and trade. So we are trying to deal 
or come up with a solution that works within the constraints 
that have been handed us. Exit is difficult both at land and 
air and sea because we are different from other countries; we 
have not built the infrastructure and put in place at either 
airports, seaports, or at our land border, crossings that would 
stop people and make them go through a passport control type 
system like they do in many other countries. So we are trying 
to deal with the constraint of trying to make sure we preserve 
our economic prosperity, but at the same time meet the mandate 
that you have given us to have an exit system.

                           2006 FUNDING LEVEL

    Senator Byrd. Does the President's budget really meet the 
needs?
    Mr. Williams. The President's--does it meet the needs? The 
President's budget for fiscal year 2006, he requested $390 
million for our program. We wish we had received that. That is 
what we thought we needed.
    Senator Byrd. Would you say that again?
    Mr. Williams. The President requested for US VISIT for 
fiscal year 2006 $390 million and that is what we said we 
needed and we wish we had received that amount. We received 
less.
    Senator Byrd. How much less?
    Mr. Williams. I believe we are about $340 million right 
now.
    Let me tell you my concern there. Congress in the 
Intelligence Reform and Terrorism Prevention Act, following up 
on the 9/11 Commission, gave us a mandate to accelerate the 
biometric entry-exit system and I think we have made great 
progress in meeting our commitments to Congress and we want to 
continue to do so. As we deploy capabilities, we have to pay 
for the operations and maintenance of that, and those 
operations and maintenance as we deploy more capabilities 
become a larger part of our annual budget, which then leaves 
less money for new investments in additional capabilities or in 
fact to accelerate the program.
    Senator Byrd. Well, does the budget request reflect the 
needs?
    Mr. Williams. Yes, sir. The budget request for $390 
million, we provided a justification for how we would spend 
that money and what investments, what benefits, would come from 
that.
    Senator Byrd. So the President's budget request accurately 
reflects your needs?
    Mr. Williams. Yes, sir.
    Senator Byrd. There is nothing in the 2006 request for the 
exit capability.
    Mr. Williams. We actually had in the 2006--in the 2005 
request we had the additional money that we were going to use 
to further deploy exit at air and seaports. For exit at land we 
did have money in the 2006 request to continue the testing of 
the RFID technology, a solution we think is promising for exit 
at land borders.

                           2007 FUNDING LEVEL

    Senator Byrd. What about the 2007 budget? Will it reflect 
the needs? There is nothing in your 2006 request for the exit 
capability. Are we clear on what the 2007 budget will provide?
    Mr. Williams. Well, we have not submitted the--we have not 
submitted the fiscal year 2007 budget. We are currently working 
that with DHS.
    Senator Byrd. So what do you think here? What can we do to 
help here?
    Mr. Williams. Well, I think it would help to have us be 
given the money the President requested. Certainly we know you 
want to continue to provide support to us in terms of the 
money, the resources, and the direction that you have provided 
that helps us get the job done. Your support is invaluable to 
getting momentum across the Federal agencies to get this job 
done. While we have great partnerships right now with many 
agencies, it always helps to know that this is important to you 
all, important in terms of giving us the support and the 
resources we need to get the job done.
    Senator Byrd. Well, you have appealed for us to meet the 
President's request. Did he meet your request?
    Mr. Williams. The President's budget reflected what we 
thought we needed for fiscal year 2006.
    Senator Byrd. Fully?
    Mr. Williams. Well, we are trying to undertake this program 
understanding it is a matter of national urgency----
    Senator Byrd. The answer is no?
    Mr. Williams. We are trying to take a measured approach to 
do this. Giving us all the money at one time does not mean that 
we can do all of this quickly. We have to be able to do this, 
as Mr. Hite said, in a way that makes sure we can manage it 
well. This is millions of dollars of taxpayers' money. We want 
to make sure that we manage it well and deliver our commitments 
that we have made to you. And too much money simply is money 
that we would just sit there with it, because we want to make 
sure that we get this right.
    Senator Byrd. You did not answer my question. I have heard 
that business about too much money so many times from this 
administration. When I have sought to increase the amounts of 
money, I get the ``too much money, we have too much money, we 
have enough money already to do this and to do that and to do 
this and to do that.''

              EXIT CAPABILITY AT AIR AND SEAPORTS OF ENTRY

    Well, let me ask you, Mr. Hite. In your testimony you noted 
that the fiscal year 2005 US VISIT spend plan, which the 
Congress approved almost a year ago, committed to deploying an 
exit capability to air and seaports of entry by September 30, 
2005. Yet your testimony further states: ``No decision has been 
made about when an exit capability will be deployed. According 
to program officials, deployment to further sites would take at 
least 6 months from the time of the decision.''
    In your evaluation of the airport and seaport environment, 
is it better to deploy a limited, if not final, exit capability 
or is it wiser to wait for what the US VISIT program office 
determines is the ultimate solution? What is your answer?
    Mr. Hite. It would be my position that they should wait to 
have the credible analysis to make an informed decision about 
what solution is going to best accomplish the end goal. What 
they have pilot tested thus far at the land borders and at the 
air and sea borders has demonstrated that those solutions are 
not viable options. The air and sea, for example, there was a 
very low compliance rate on the part of those exiting the 
country, and certainly there is a tremendous amount of issues 
with the land borders surrounding the use of RFID and what that 
will actually tell you because it does not track an individual, 
it tracks a document, and even then it does not necessarily--
depending on the number of documents, depending on the 
placement of those documents in a vehicle or on an individual, 
it does not necessarily read them all.
    Senator Byrd. Thank you, Mr. Chairman.
    Senator Gregg. Thank you, Senator.
    Senator Byrd. Thank you.
    Senator Gregg. We go back and forth here. Senator Stevens.
    Senator Stevens. No.
    Senator Gregg. Senator Murray.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Mr. Chairman, thank you, and to you, 
Senator Byrd, for holding this very important hearing today.
    As Mr. Williams knows very well, my State poses some very 
significant challenges for those of us who want to make sure 
that we ensure security but do not impede the flow of 
legitimate travel and commerce across our border, which is very 
important in my State. We have one of the busiest border 
stations in the entire country along our northern border. We 
have an airport that serves as a gateway to Asia. We have 
cruise terminals that served nearly a million passengers and we 
have three international ferry terminals.
    We also have the distinction, of course, of apprehending 
Ahmad Rassam back in 1999, the first suspected al-Qaeda 
terrorist. We were lucky at that time that an alert Border 
Patrol agent noticed Rassam when he visited and arrived by 
ferry from Canada.
    So today US VISIT is making it easier for us to catch these 
people who are attempting to enter our country. I know and my 
citizens know that this is a very important program, it is 
important to our safety, and our security, and our community. 
So you should be very proud of your accomplishments so far.
    That being said, I want to echo some of the comments that 
have been made. We have to ensure that the biometric screening 
is interoperable with the FBI as soon as possible, and you 
addressed that. We all know that in order to have a fully 
functioning system the exit portion of this program has to be 
implemented as well. So I share those concerns.

                  WESTERN HEMISPHERE TRAVEL INITIATIVE

    Mr. Williams, while you are here I did want to ask you 
about another issue that is of great concern to me and that is 
the Western Hemisphere Travel Initiative, and specifically the 
passport requirement for travel between the United States and 
Canada. We are all aware Secretaries Chertoff and Rice 
announced their intention to establish this new PASS card last 
week to be used at land border crossings in lieu of the 
passport, but that announcement really did not serve to answer 
a lot of the looming questions and we have frankly been getting 
a lot more since that announcement.
    I know, Mr. Williams, this is not your program to 
implement, but you are part of the interdepartmental working 
group that is tasked with the implementation of that, and you 
need to know that this is a major concern of my border 
communities and it is really a growing concern within the 
tourism and business communities on both sides of our border. 
This program has the potential to severely impact communities 
along the northern border by impeding legitimate cross-border 
commerce and travel between the United States and Canada, which 
is precisely what you have worked so hard to avoid with the US 
VISIT.
    There is already evidence that the passport requirement is 
impacting our cross-border tourism simply because the rules and 
implementation dates haven't been clear to our average 
citizens. I think you know that our State has a very robust 
tourism industry that has historically depended on fluid cross-
border travel. I would just like to take this opportunity to 
encourage you as a member of that interdepartmental working 
group to work closer with our local communities so we can 
address their concerns. I would even suggest perhaps 
establishing an official advisory group made up of some of our 
elected, business and community leaders from that area.
    I would really ask that you ensure that the Department 
consider the adverse economic impact of new passport 
regulations and allow adequate time for travelers to be 
notified and require the additional documentation if that is 
what is determined. And I would ask that you would consider 
delaying the air and sea travel deadline and applying a uniform 
date for implementing the new documentation requirements for 
all travel, land, air, and sea, and would really appreciate 
your attention to this because, as you can imagine, this is a 
very, very concerning issue to a lot of our business leaders in 
the State of Washington.
    We all want the security. You have done a good job with US 
VISIT. We want to make sure we do not do something that does 
not increase security, but instead really harms our economy and 
the tourism industry and the business industries that will be 
impacted by that.

                    LAND BORDER CROSSING INITIATIVES

    Mr. Williams. If you would like, I would be glad to comment 
on some of the work we are doing there, trying to bring 
together the requirements in law of the Western Hemisphere 
Travel Initiative; as well as the Security and Prosperity 
Partnership that was signed by President Bush, President Fox, 
and then Prime Minister Martin last March; as well as the Rice-
Chertoff joint vision, looking at the challenges of the land 
border.
    One of the things, Senator, that I think would be helpful 
is to stop what seems to be negative effects already when the 
requirement is not until, for the land borders, until January 
1, 2008. There are some misperceptions that a passport is 
required now; and what ought to be clear is for the land 
borders, it is January 1, 2008, and that the law says a 
passport or other accepted travel document.
    What Secretaries Rice and Chertoff announced is a PASS 
card, People Access Security Service, a card that could be used 
in lieu of a passport, especially for those frequent land 
border crossers. What we are trying to do is, being very 
sensitive to the economic impacts and we know that between 
United States and Canada about $1.4 billion a day crosses that 
border, is how do we enhance security and at the same time 
facilitate legitimate travel and trade? If we can put a low-
cost wallet-size PASS card in the hands of those frequent 
crossers, that then uses 21st century technology, that would 
allow that information to be read ahead of time, put that 
information on the screen, we can accomplish three objectives 
that we do not do today at the land border.
    Number one, we would get advance information about that 
person, that would allow for a better security decision and 
hopefully a faster processing.
    Number two, we could actually record their entry, which we 
don't do today for many people. We do not know, for example, 
with a border crossing card--all those people are inspected and 
their biometrics are taken at issuance, but generally when they 
come into the country there is not a record today that they 
entered. We know that often good people who enter, become bad 
people. So we want to be able to preposition the information on 
the officer's screen, have advance information, number one. 
Number two, we want to record their entry.
    Number three, what we are looking for in the future is 
could we take that advance information and within a few seconds 
check it against a watch list, so we give greater confidence to 
the officer who has to interview that person or inspect that 
person to say: All right, I already know who this person is, I 
know they are not on a watch list. That should speed up the 
processing of good people. It is just good risk management. 
That is what we are trying to put in place, is a low-cost, 
secure, 21st century card that would meet both the security and 
economic needs of your community.

                   LAND BORDER CROSSING REQUIREMENTS

    Senator Murray. Well, I appreciate that, but there are 
different dates. Ferries, for example, is implemented 2007, 
land 2008. So people in my State already assume that you have 
to have a passport and they are saying, never mind, I am not 
going, I do not have one; now, do I need that one or do I need 
this PASS card, and do I have to buy that? The confusion alone.
    So I would really encourage you to sit down with business 
leaders there, who are feeling a tremendous impact from all of 
the different dates, different cards, different ideas that have 
come out.
    Mr. Williams. We do believe that one of the keys to our 
success where we are implementing change for human beings is 
communication. We know you can never communicate enough, but we 
try to do extensive outreach, particularly in your community, 
where we are doing testing right now. But I think we need the 
support of everybody, the Congress, the administration, even 
the media, to correctly communicate what it is that the 
requirements are--they are not until January 1, 2008--and what 
we are trying to do.
    Senator Murray. For the ferries it is 2007, and a lot of 
the people, cross-border travel, go by ferry.
    Mr. Williams. And they believe today that they have to have 
a passport, and that is not the requirement today. So again, we 
need to communicate what is the requirement. We had a lot of 
these misperceptions about US VISIT before we started, people 
saying we were going to shut down the borders, shut down the 
economy. In fact, what we are trying to do is build out a 21st 
century immigration and border management system that meets our 
needs.
    I look at some of your crossings and, frankly, when I look 
at them I look at them as economic chokepoints, when you see 
cars and trucks waiting to come to the United States to do 
business, you see family. We want those people to come and we 
ought to be able to use better technology and better business 
processes to enhance our security and our economic prosperity.

                     LAND BORDER CROSSING CHALLENGES

    Senator Murray. Well, are you concerned that adding 
millions of daily passport checks is going to slow down 
legitimate travel?
    Mr. Williams. As I said, one of our mandates is to do no 
harm, to not adversely impact the economy. That is why we test, 
test, test to make sure we get it right. That is a concern 
always to us, that we do not want to add even seconds to 
people's time, because for many of our very busy land border 
crossings we know through queuing theory that if you add a few 
seconds to each person you are going to add hours to that last 
person in line and then discourage them from coming.
    Senator Murray. Mr. Chairman, in my State we have kids who 
live in Point Roberts who have to travel into Canada every day 
to come back down into school to go to school in Washington 
State. If they get backed up in a long line, that is a huge 
impact. Plus, we have thousands of trucks that travel across 
our border with goods.
    It is a real challenge in our State. But let me just go 
back and make one really important point. Ferries is 2007, land 
is 2008. So there is a legitimate business concern by our 
ferries, many of them private businesses, that people will not 
use ferries and we are going to jam up the lines even more on 
the land crossings because of that. One date for everybody 
would really make a huge difference and I would encourage you 
to consider that.
    Mr. Williams. I will take that message back, Senator.
    Senator Murray. Thank you.
    Thank you very much, Mr. Chairman.
    Senator Gregg. Thank you.
    Senator Stevens said he has something.

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Mr. Chairman, I just want to join the 
Senator from Washington, because we are already getting 
complaints about the requirement for passports. I believe it is 
coming from Canada now, anticipating what you might do. I 
remember when we were a territory we had to have a birth 
certificate to get back into the United States. We weren't 
considered to be--although we were citizens, we weren't 
considered to be acceptable to come through immigration without 
birth certificates or a passport from Alaska.
    We finally worked that out, and now we find that there is 
just total uncertainty as to what is required. A student will 
fly outside to--we call it outside; down to the south 48--to go 
to school and drive back and find out they do not have the 
documents to allow them, as they stand in line or their car has 
been in line for an hour or two, they do not have the documents 
to get through the border, on both sides, both the United 
States and Canada.

          COMMON SET OF REQUIRED BORDER CROSSING DOCUMENTATION

    So I want to join the Senator from Washington to say I 
think you have got to work it out with Canada. The same 
documents ought to be acceptable on both sides of the border to 
permanent residents. It is one thing for tourists who are 
traveling from throughout the world that they should have a 
passport to come in our country. That is acceptable. But those 
of us who fly back and forth or drive back and forth, fly one 
way and drive the other way, it is getting to be very 
confusing.
    I have had emergency calls: How do I get a passport 
overnight? If we are going to have to have a requirement for 
passports for land travel, the passport office is going to be 
overwhelmed by Alaskans and people from the Northwest States 
that travel back and forth to our State, as well as travel to 
Canada as the Senator from Washington says. We have people in 
our State also that have to go through Canada to get home and 
Canadians that have to come through our country to get home. We 
have cross-border situations the same as you do in terms of 
Washington and the northern States.
    But I urge you to get some common approach with Canada so 
that documents acceptable on one side are going to be 
acceptable on the other. It does seem to me that this 
difference between the time frame of putting into effect of 
land transportation has one requirement, but meanwhile there is 
another requirement for air transportation and water 
transportation--particularly the cruise ships. Our own ferries, 
we have ferries, they stop in Canada, but they go on down to 
Seattle, and they do that every day, and people are being 
caught unawares that if they have gotten off in Canada they 
have to have some different type of documentation when they 
come into Seattle.
    It is not right. I think special attention ought to be paid 
to the people who live on the northern tier because it is 
really going to cause a lot of problems this summer, I think, 
from what we are hearing. I do not know about Washington, but I 
am sure they must be flooded with the same requests for just 
overnight help to get passports. It is not possible, as you 
know, and that delays a lot of people. After they have made 
plans for months, they suddenly find out there is one thing 
they did not know and that was they had to have a passport 
either coming or going through Canada.
    So I think whatever you can do to help us eliminate this 
anxiety right now over being treated differently--deep down 
inside--people don't like me to say it too often, but we are 
citizens of the United States that live in Alaska. But we have 
special treatment now for Alaskans. We have different 
requirements as we come back into the south 48 than you would 
have otherwise if you went into Canada from Washington and came 
back into Washington. I don't think that's fair.
    So I hope that you can find some way to stabilize this and 
get an international agreement on travel through Canada to 
Alaska.
    Mr. Williams. Well, again, Senator, the requirement is a 
requirement in law that says passport or other accepted travel 
document. As part of the Security and Prosperity Partnership, 
we are working very closely with Canada. We have established a 
working group. I have a counterpart with the Canada Border 
Services Agency, Mr. Alons Alacaire, who we meet with 
frequently, and in fact we have Canadian officials right now, 
starting yesterday, today and tomorrow, that are meeting in 
Crystal City on this particular topic.
    So we are working closely with Canada, and our goal is just 
as you stated. We want to be able to harmonize the technology 
and the business processes so that if you have this card that 
would facilitate your entry into the United States, you could 
use that same card going back into Canada, so you could cross 
from Blaine over to Canada and back and forth, whether United 
States or Canadian citizen.

           HARMONIZED SECURE BORDER DOCUMENTATION--PASS CARD

    If we could harmonize on the same type of technology and 
business processes, we can make it easier for those people who 
want to cross. But again, the requirement is not for the land 
borders that you must have a passport today. The requirement in 
law in the Intelligence Reform and Terrorism Prevention Act 
says for the land borders it is January 1, 2008, and it says an 
other accepted travel document is acceptable. That is what 
Secretary Rice and Secretary Chertoff announced, is this PASS 
card we will be working on, to work with Department of State to 
produce a low-cost, secure card that would make crossing the 
border more secure and facilitate it, and then work with Canada 
and Mexico to make sure that we can make something that works 
across North America in a harmonized fashion.

             IMPACT OF BORDER CROSSING SECURITY ON ALASKANS

    Senator Stevens. Well, that is all right and good, but our 
State is one-fifth the size of the United States. You do not 
have an office in Alaska. And you say acceptable travel 
documents. What is wrong with a birth certificate? It used to 
be acceptable, but it is not acceptable now. So we are going to 
have to find some way to get people from Holikachuk or Shizref 
or Nome down to somewhere in Seattle to get a certificate, get 
a card to enable them to travel down there.
    I think you are not waking up to what it is that I am 
telling you. The circumstances in rural Alaska are much 
different from anywhere else. They cannot get those cards.
    Mr. Williams. Well, again, we will work with the State 
Department to make sure they can get the cards.
    Talking about a birth certificate, what we are trying to do 
is make this whole supply chain of identification documents 
more secure. A customs and border protection officer would have 
to be familiar with as many as 8,000 different birth 
certificates and we are not sure that that is the right answer 
for the future. We think we can produce a secure document that 
would again facilitate their entry, and we would be glad to 
local officials in your district, sir--in your State.
    Senator Stevens. I hope you will and I hope you speak to 
our governor and the state legislature, because they are very 
much disturbed over what is happening. If you go from Hawaii to 
the West Coast you do not have to go through a foreign country. 
If you go from Alaska by land to the south 48, you have to 
drive through Canada. If you go through on a ferry, you have to 
go through Canada.
    I do not think it is fair to say we would not have an 
office in our State. But what is more, why can you not set it 
up so you get it by mail and somehow or other not have to make 
a personal appearance to get these cards?
    Mr. Williams. The State Department, we are working closely 
with them on how do we get these cards into the hands of people 
who need them. They are considering all options and we are 
discussing that with them, and we will certainly consider that.
    Senator Stevens. Well, as a grandfather of three hockey 
puck grandchildren, they fly down to the south 48 and they fly 
back. Sometimes they drive back. Those people, they don't plan 
in advance to get that card. Somehow or other, you've got to 
find some way to recognize the problems so Alaskans can travel.
    Mr. Williams. We also know that we have to look at what 
Secretary Chertoff mentioned as the possibility of a one-day 
pass to make it easier for people who are the person, just as 
you said, who might fly down for one day, even on a whim. How 
do we help that person, meet our needs and meet their needs? 
They want to be able to go down on a flight like that, but we 
also want to make sure we meet the requirements of the law that 
they have something that provides for the security, because 
every time we do not do something to provide for the security, 
as we know, people who want to do us harm study our 
vulnerabilities. We want to make sure we meet the economic 
needs of our country to make sure people can travel with a one-
day thought, but also make sure we provide adequate security. 
That is the mission that you have given us, is to accomplish 
both of those.
    So we are looking at not only a PASS card, but other things 
that we would have to take care of the various populations and 
how they travel.
    Senator Stevens. Well, why do you not arrange for the 
travel people to be able to issue temporary cards or something 
like that, or your exit station as you drive? There is only one 
road out of Alaska and that is the highway. Why could they not 
issue some sort of a return pass so they can get back through, 
not only from the south 48 driving through Canada to come back 
into Alaska? This idea of having to go and get a special card 
for those people, you are basically talking about the rest of 
Americans. They do not even think about this the way we have 
to. I think you have some up in New England have similar 
problem.
    Senator Gregg. We view Maine as a foreign country. Trying 
to come through New Hampshire when they are getting to 
Massachusetts, we basically require them to stop at our liquor 
stores and buy liquor before they can get into Massachusetts.
    Senator Stevens. Well, I am belaboring it, but we have a 
tough problem and I think you should find some way to deal with 
it by getting the people, our travelers, an ordinary contact, 
the airlines or the ferry system or the exit station on the 
Alaska Highway. Somehow or other, people ought to be able to 
satisfy the requirements to get into the contiguous 48 States 
and get back home without having to find some complicated 
process of coming to their Senator to get a passport overnight.
    Mr. Williams. We agree and we are considering those ideas 
right now. We understand the need.
    Senator Gregg. I think it is a valid point.
    Senator Murray. Mr. Chairman, if I could just add to the 
Senator from Alaska. As you can see, this is causing a 
tremendous amount of concern out there. It is not just 
something we can decide from here in Washington, DC. I would 
really advise you to get an advisory committee made up from 
business and elected leaders in both my State and Alaska, so 
you can understand the real impacts.
    This is a huge concern. I would just remind all of us that 
the Vancouver Olympics are coming up very quickly and that is 
why our businesses are so concerned. This kind of confusion 
could really have an impact on those visiting.
    Thank you, Mr. Chairman.
    Senator Gregg. I think the Senators have made an excellent 
point, especially as it relates to the Alaskan situation.

                 SOUTHERN BORDER SECURITY REQUIREMENTS

    I am wondering, on the southern border they have a pass, a 
border crossing card. Is my understanding correct that CBP has 
decided not to integrate that into the database, that basically 
that card does not get----
    Mr. Williams. The border crossing card which is used by 
Mexican citizens, it is issued--when people apply at Department 
of State, it is issued to the 6.8 million Mexican citizens, who 
use it about 100 million times a year. When that card is 
issued, their biometrics are taken and checked against our 
databases. When that person then comes in, there actually is a 
machine-readable zone on that card, which is swiped most of 
time at pedestrian.
    At vehicle lanes, it is just not practical to take all of 
the people's cards out of a car and say, let us pull them out 
and use that card.
    Senator Gregg. Yes, that is my point. That is not 
integrated into US VISIT, is it?
    Mr. Williams. Well, actually the biometrics that were taken 
at the time of issuance are.
    Senator Gregg. But if they do not use the card, so----
    Mr. Williams. But if a person comes in, a border crossing 
card person, and they are on foot coming in as a pedestrian, we 
can check their biometrics today. If they are in a vehicle, 
though, it is more problematic.
    Senator Gregg. So that basically there has been a decision 
made that the overwhelming number of people coming across those 
borders you cannot really--even though you have got the cards 
issued, the cards are not being used to track people who are 
coming into the country if they are coming by car?
    Mr. Williams. We do not generally record their entry today. 
What we are hoping is as we look at this RFID technology, as 
many of these border crossing cards were issued 10 years ago 
are coming up for expiration, we are working with the State 
Department to try and harmonize all of these cards around 
technology and business processes, meaning if you could put 
that RFID technology as part of the border crossing card then 
at least when that car that maybe has four or five Mexican 
citizens coming in under the limits of the border crossing card 
program, we would be able to know who is coming in and record 
their entry, which we do not do today.

        BORDER SECURITY COMPARISON--WASHINGTON STATE VS. MEXICO

    Senator Gregg. Well, I guess my point is Washington is 
having a problem because we are going to require Canadians 
coming in to have a card or a passport, and yet we have got a 
card on the southern border and we are not using it and we are 
allowing a lot of people to come across the border who are not 
being----
    Mr. Williams. Well, people are inspected when they present 
their border crossing card.
    Senator Gregg. It is done arbitrarily. I mean, they pick 
out a car, they say, this car.
    Mr. Williams. This [indicating] is the card. They come in 
and the picture is looked at on the card and compared to the 
picture of the person in front of them. They might also swipe 
it and----
    Senator Gregg. But not if they are in a car.
    Mr. Williams. Not if they are in a car, generally no. We 
would shut down the economies if we stopped everybody in a car 
and said, we have got to check every one of these cards in 
terms of swiping them and reading them.
    Senator Gregg. That is exactly the concern they are having 
in Washington State.
    Mr. Williams. Yes. But again, if we can take these cards 
when they are being reissued and incorporate technology in so 
that when that person is coming, like when you approach a toll 
booth, that you can read that information and then put it on 
the screen, that allows you then to know who the person is by 
putting the picture and the information on the screen and be 
able to quickly take a look at the person.
    But it also allows us to record their entry, which we are 
not doing today. They are inspected, but there is no recording 
of their entry.
    Senator Gregg. Well, I understand that. But just, I guess 
it is hard to conceive of how you would do this without 
actually stopping the car. Let us use E-ZPass as an example. If 
you are using some sort of E-ZPass system, you are assuming 
that the person who put that E-ZPass in their window is the 
same person who is on--who is getting it cleared. I mean, there 
is no reason that person would not be different.
    Mr. Williams. Well, even in our trusted traveler program on 
the southern border with Mexico, the SENTRI program is like E-
ZPass. Those people, every one of them is stopped. There is 
still a visual inspection of the person coming in.

             HARMONIZATION OF PROPRIETARY DATABASE SYSTEMS

    Senator Gregg. Well, it sounds like a technological 
challenge. Which gets me to a more technical issue which I am 
interested in, which I think has been raised by GAO, which is 
the proprietary nature of these different systems is broken 
out--different Departments have different proprietary systems. 
How are you managing that? Both GAO and the OIG report had 
serious concerns.
    Mr. Williams. Well, again, I think we have achieved a lot 
according to the Congressional mandates. Our first mandate of 
Congress in the Data Management Improvement Act was to 
integrate databases, which we did January 5, 2004. We know we 
have a lot more work to do. What we want to be able to do is 
what you have told us to do, is essentially to have real-time 
information available to people, decision makers, across the 
immigration border management spectrum, whether you are a State 
Department visa-issuing officer, a CIS adjudication officer, an 
ICE agent, a CBP officer. All of those people could encounter 
the same people, and they need to know what happened in all 
those previous encounters.
    We do not do all of the kind of real-time access to 
information that we need today. For example, if somebody is 
turned away at a port of entry and then turns around and 
applies to State for a new visa, State does not always know the 
action that was taken at a port of entry. What we want to be 
able to do is build a person-centric view of that person that 
takes the information from all of these databases, that can 
then aggregate the information and present it back to the 
decision maker in real time.
    Senator Gregg. Well, how far are you from doing that?
    Mr. Williams. Well, I think we have made great strides in 
doing that. But I think also we have a ways to go. Again, there 
are many examples where we do not provide that kind of easy 
access, real-time access to the information.
    Senator Gregg. What's causing the inability to get there? 
Is it that these proprietary systems are not integrated or can 
not be integrated because they are different?
    Mr. Williams. We believe we can do this. It is a function 
of money, resources, and time. This is what we are shooting 
for, is to continue to do this.
    Senator Gregg. How do you avoid ending up getting locked 
into one system that is not flexible enough to deal with 
breakout technology that could significantly improve the 
system?
    Mr. Williams. Well, what we always try to do is try to 
follow open standards. In many of the systems that we put in 
place, we try to follow international standards, because what 
we are trying to do is we are trying to harmonize, frankly, 
with the rest of the world. As everybody is in the same battle 
against terrorism, how do we look at immigration, border 
management, and biometric systems and build them in a way that 
we can share?
    We are doing the same thing as we meet with industry. We 
communicate our needs. We do not want proprietary technology 
because that locks us into something that is not flexible in 
terms of costs and technology. We want something that is an 
open standard, where we have competitive choices there.
    I will say in terms of the person-centric view we are 
trying to build out, to further integrate these databases, that 
was part of the money that we requested in the fiscal year 2006 
budget.
    Senator Gregg. I want to get to that in a second.
    Mr. Hite, how do you evaluate the answers that Mr. Williams 
gave to the last two points?
    Mr. Hite. I guess I would offer this. It is not normally 
GAO's custom to defend the Executive Branch on something, but 
they were given a very demanding----
    Senator Gregg. Well, please do. We are interested in good 
feedback and constructive criticism.
    Mr. Hite. They were given a very demanding schedule in 
terms of putting in place the entry-exit capability by certain 
legislatively defined time frames. As a practical reality, the 
only way that was going to be accomplished in meeting those 
time frames was to leverage existing legacy technology, 
independent systems that weren't developed to common standards 
and had to be interfaced in order to accomplish what was 
mandated to be done by a certain point in time.
    As a natural consequence of that, what you have now is US 
VISIT, a system of separate systems, systems that are managed 
by separate organizational units. I think the criticism that we 
made and that the IG made around certain aspects of how you 
manage that system of systems, whether it be security or 
whether it be configuration management, was recognizing the 
fact that if you--by virtue of the fact that you had to build 
from this set of legacy systems, you need to come up with some 
way to centralize, give some type of centralized oversight to 
how this collective set is managed from a configuration 
standpoint and from a security standpoint.
    And that was not being done. It was basically relying on 
the fact that the individual systems are being managed and 
therefore issues surrounding security or issues surrounding 
configuration would take care of themselves.
    So on the one hand I think they have dealt with and 
effectively played the cards that they were dealt in this 
particular situation. Now, strategically going forward they are 
looking for ways to go beyond that and create a more 
interoperable solution. But that is down the road. That is 
years down the road. That is in fact what they have largely 
brought on the prime contractor to help them do.

              DEPARTMENTAL FOCUS NEEDED TO GUIDE US VISIT

    Senator Gregg. Does Mr. Williams need more authority in 
order to force integration of these systems?
    Mr. Hite. I would not jump to him needing more authority at 
this case. Maybe some authority to help him manage the interim 
solutions now. But strategically, I think I go back to what I 
said in my opening remarks, and I think you made the point too. 
US VISIT is not an island. US VISIT fits within a larger 
context within the Department of Homeland Security, and that 
context needs to be defined and based on that definition. There 
needs to be put in place an authority, a power, a 
responsibility, an accountability structure, to make sure that 
it can be accomplished.
    Right now, in some respects I believe the program is--it is 
sometimes the tail trying to wag the dog, because it is trying 
to accomplish certain things through its program and what its 
span of control and authority is, yet some of the things it is 
trying to deal with are outside its control. So I think the 
Department needs to step up and define this context, so that 
programs like US VISIT and other programs out there like Secure 
Flight and trusted traveler programs can be engineered in a way 
that they work as one holistic interoperable set.

REVISED COST AND SCHEDULE ESTIMATE REPORT OF REAL TIME INTEROPERABILITY

    Senator Gregg. I have a couple more questions. Senator 
Byrd, did you have any additional thoughts, questions?
    Senator Byrd. Just briefly. I'm very impressed by your 
witnesses today, favorably so.
    Mr. Williams, the conference report accompanying the fiscal 
year 2006 Homeland Security Appropriations Act required the 
submission, Mr. Williams, by November 20, 2005--it is my 
birthday, November 20, 2005 of a revised cost and schedule 
estimate for the achievement of real-time interoperability 
between the Integrated Automated Fingerprint Identification 
System, IAFIS, and the Automated Biometric Identification 
System, IDENT. We have yet to receive that report.
    Your office has been charged with taking the lead on this 
project. How much additional money will you need for true 
IDENT-IAFIS interoperability, can you tell us?
    Mr. Williams. I believe we did submit a report, but I am 
not sure it included the out year estimates for what we think 
we need. I will tell you it is a number somewhere, in terms of 
between us and the FBI--we developed a joint estimate together 
on what it would take to achieve full interoperability. It is 
something you will see, I think, as part of the fiscal year 
2007 budget submission, that next increment of money that we 
need.
    Frankly, I have to be careful what I say here because I do 
not want to jump in front of the President's fiscal year 2007 
budget. That is not something I should do. But we have outlined 
what the cost estimates are. I believe you may already have 
that information. I am not sure. But we do have a clear plan 
and it is going to be something that is an amount of money that 
is more than $100 million, just for example.
    But it is something where we think the benefits--as Mr. 
Hite said, we will outline all of the benefits we believe that 
will be achieved. We are already starting to see the benefits 
of that interoperability relationship that we have with the 
FBI, and we do have a clear plan, based upon money and 
resources, how to get there. The money that we will need you 
will see in the fiscal year 2007 budget.
    Senator Byrd. Are you saying that you will have enough 
money in 2006?
    Mr. Williams. We are currently looking at our 2006 budget 
money to see whether we have enough money to do what we want to 
do in 2006. What we have developed with the FBI is a three-part 
plan. First of all, something we call an interim data-sharing 
model. That is something where we would start with the FBI 
sharing information with us, we would share information back 
with them, for example, and we have already started doing this.
    Previously, in our watch list we had wants and warrants of 
foreign-born, unknown country of origin people. They are now 
starting to share their wants and warrants of U.S. citizens, so 
that is something they are sharing with us. Eventually, we will 
start sharing with them things like visa refusals, so that we 
have a bidirectional sharing of information.
    That is an interim data-sharing model. We will then go into 
initial operating capability of what we think will be the full 
interoperability model. Initial operating capability, we hope 
to start that some time in the fall. We are looking right now, 
working with OMB to make sure we have the money to achieve 
that.
    Going beyond that, in the out years we would then be 
shooting for a few years down the line for a few operational, 
interoperational capability between IAFIS and IDENT. That money 
we hope will be included in the fiscal year 2007 budget 
request.
    Senator Byrd. I may have missed something, but are you 
saying you have enough money in 2006 or that you do not have 
enough money?
    Mr. Williams. Again, we are working with the Department and 
OMB to make sure that we do, and that is an ongoing process 
right now. As we define with the FBI what we want to do 
initially--initially it is this interim data-sharing model--I 
believe we have the money today for that, that we have 
identified the money for that today. The money we need for 
initial operating capability that we would begin some time 
later in the fall of this year, we are currently working with 
OMB and the Department to identify that money.
    Senator Byrd. So we are already 4 months into the fiscal 
year. I do not understand why you are waiting. We should have 
received a plan months ago.
    Mr. Williams. Again, I believe you did receive a response 
from the Department, but it did not contain all of the 
estimates because the Department did not want to provide 
information in advance of the President's budget. But in terms 
of--we are not waiting. We have a plan. Again, I talk to Tom 
Bush regularly. We have our regular executive committee 
meetings with him. I talked to him last night.
    We are already beginning this interim data-sharing model, 
where the FBI is already today transmitting additional 
information to us, and we are going to start some time later 
where we can give information back to them. We are not waiting. 
We are trying to move out on this.
    What we are trying to do is get some early successes, and 
we think we are getting them already. In fact, for the 
information they are giving us we have already had some 
benefits just in the last few days, frankly.
    Senator Byrd. This interoperability is critical, critical, 
to the success of the US VISIT program. I hope that the 
President's 2007 budget when it is submitted in 2 weeks will 
include sufficient resources to move forward rapidly. What do 
you think? Do you think my hopes will be----
    Mr. Williams. I agree with your hope.
    Senator Byrd. You are in an agreeable mood. I should have 
been tougher on that question.

                        INTEROPERABILITY FUNDING

    Thank you, Mr. Chairman.
    Senator Gregg. I thank you, Senator. I think you have 
highlighted a point that is very critical here, which we have 
been highlighting as a subcommittee now for a long time, way 
back, as you mentioned, to when Secretary Ridge took over the 
Department. That is that this is a huge priority. We are glad 
there is progress being made. I am actually sort of surprised 
that there is progress being made, because the technology 
hurdles here are very significant, especially as to getting all 
ten fingerprints at the border entry point.
    But we do feel that this is critical as a committee, and we 
are committed to getting you the resources you need to do this. 
We took a run at getting $1.1 billion additional capital into 
the Department directed at border activity. In that number--and 
it was in the--it was actually in the defense appropriations 
bill and it would have been an emergency supplemental for the 
Department--we did not have additional funding for this issue, 
I do not believe.
    But we are going to take another run at that, getting that 
number, because that is capital improvement items and there 
will be a supplemental before we will be doing the final bill. 
So we will want to have that number, what you need to do this, 
and be ready to move with that number.
    The President's budget will be coming up on the 6th. 
Hopefully, by then we will know the number, and if the right 
number is not in the budget we will want to know from you what 
the right number is, because, as the Senator has pointed out 
and as we have pointed out on this committee for a number of 
years, this system is not going to work unless we can access 
that huge FBI database in my opinion. We would be leaving 
millions of potential hits on the table if you do not get into 
that database, and you can not get in there with two 
fingerprints.

                   CONGRESSIONAL FUNDING LIMITATIONS

    Second, there has been some discussion of what the proper 
funding level is for this US VISIT effort. Really, there were 
two things which limited our ability to fund this in our 
opinion. The first was that we still do not see--and I think 
Mr. Hite has made this point and you have made this point to 
some degree, but not maybe in the same way I will. We do not 
see an exit program that works and I am not inclined to just 
put money into something unless we have got a demonstration of 
something that works, that we can go to execution on.
    Mr. Hite has pointed out that most of the demonstration 
efforts in the area of the exit programs are not doing what has 
to be done. You have pointed out that the capital costs of 
doing a major exit mirror of the entrance would be huge, $3 
billion, and maybe not even functional. So we have got to come 
up with something that is more viable in this exit area.
    The second thing that has limited the amount of money here 
was when the White House sent up their budget to us on homeland 
security they put in a plug number, $1.5 or $1.7 billion, which 
was a fee increase on airlines to fund TSA, and then they 
reallocated those monies throughout the agency. Everybody knew 
that number was not real and that nobody was going to hit the 
airlines, which were on the brink of disaster as it was, with 
this type of a huge fee increase.
    So we as a committee were stuck with a hole of $1.7 
billion, which we then covered to a great extent. I think we 
picked up--thanks to the largesse of the chairman and the 
ranking member, we got an allocation that was significantly 
higher than one might have expected, and we were able to pick 
up a lot of that. But we were not able to pick up all of it. So 
that adjustment came across the board.
    I would hope--you do not have any role in this. But I would 
hope we would not get another plug number in this budget that 
is coming up, because it is not constructive to the effort of 
making this Department--of addressing the needs of this 
Department, as you might have noted in your own points.

                       EXIT STRATEGY LIMITATIONS

    So I would like to just get your thoughts on exit strategy 
because it is--you have made great progress on the entrance 
side. There is still a long way to go, as you mentioned. Mr. 
Hite certainly pointed out some of the things that need to be 
done here from a strategic planning side. But if there is one 
hole that clearly is not yet filled and which there does not 
yet seem to be a concept as to how we are going to do it 
effectively, it is the exit strategy. And if you do not know 
who is leaving--knowing who is coming in is important, but 
knowing who is leaving, if you are going to get a full picture 
of where we stand as a country and who is here and who is not 
here that might threaten us, it is important to know who is 
leaving.
    Mr. Williams. Let me summarize where we have been on exit 
again. Talking about air and sea, we are currently conducting 
these 14 pilots at 12 airports and 2 seaports.
    Senator Gregg. If I could interject, I am sorry. But Mr. 
Hite has basically said they are not working.
    Mr. Williams. Well, that is what I wanted to comment on. We 
evaluated these pilots based upon looking at compliance, cost, 
convenience to the traveler. While we think the compliance 
rates were low, we also have had recently something that caused 
us to believe that, if implemented this way--and again, we are 
looking at what is the right implementation strategy--that one 
of the keys is enforcement, because where ICE took an 
enforcement action in a particular place our compliance rate, 
which was not great at that particular airport, all of a sudden 
because ICE did something as part of an outbound operation, our 
compliance rates in terms of the airlines wanting to help us 
comply and getting passengers to comply so that we did not 
disrupt their departure times, our compliance rates went up.
    I think part of the problem with our compliance rates was 
first of all, again we did not have the infrastructure that you 
have on entry. Second, this was a new requirement and there 
were people who believed, even though we told them it was 
mandatory, they either did not believe it was mandatory or they 
did not believe there would be any discipline or consequences 
for failing to comply.
    We just had a recent incident where ICE decided, and we 
support that, to do an outbound operation because of another 
reason. All of a sudden, in that particular place all the 
airlines who did not want their departures interrupted by 
people, by ICE, looking at who had not checked out, so then all 
of a sudden the airlines said, well, let us work with you to 
make sure people do check out so you do not disrupt our 
departures. And our compliance rate shot up to around 90 
percent, 90 percent meaning those people who should check out 
of the country biometrically did check out of the country.
    I think while we are looking at the results of these pilots 
and then looking at other alternatives, because we want to make 
sure we get this right--and again, dealing with a lack of 
infrastructure, and we want to work with the airports and the 
airlines and the cruise lines on getting this right. We do 
think there has been value in what we have done in these 
pilots. We have had over 400 hits.
    Senator Gregg. I am sure it has some value.
    Mr. Williams. Also, our matching rate for when we have an 
entry biometric record to somebody leaving biometrically, 
matching those two records is over 99 percent. When we have 
been able to register that people have left, we have been able 
to take those off the radar screen of ICE. In fact, we have 
been working with ICE very collaboratively with some small but 
great results, where we have been able to look at databases 
such as--again, when an airplane leaves they have to provide us 
a departure manifest that says who is on it--looking at our 
biometric records of departure and saying to ICE: We can tell 
you, take these people off your radar screen; they have left. 
We have also been able to tell them with a degree of 
confidence: We think these people are still here.
    This is the first time, we believe, in our Nation's history 
that we have been able to identify people who are overstays, 
not through some other law enforcement or work site enforcement 
or national security means, but just simply by looking at our 
databases we have been able to say to ICE: We believe these 
people are overstays. And ICE has then taken that information 
and made nearly 100 arrests.
    So we are looking at an exit system that will put integrity 
in the immigration system. It's a difficult challenge, I agree. 
But I think the pilots that we did, if you can implement 
something like this nationwide with enforcement, where people 
think there's consequences if they don't comply, it is going to 
be of value to ensuring integrity in the immigration system. As 
the President said, we want people to come. We want to know why 
and we want to know, did they leave on time. That is the 
integrity of the immigration system and that is what we are 
shooting for.
    Senator Gregg. Well, we appreciate that, and I think we 
will probably ask GAO to give us an analysis of what we should 
fund if we were to tool up something like that, what they feel 
has worked there, too. But we do appreciate your conscientious 
effort here. You have done--you have made a lot more progress 
than I thought you would make, to be very honest, and you 
deserve a pat on the back for it. Your people deserve 
congratulations for all the effort and time they put into it 
and to making what is really a critical element of our national 
security work. So I thank you for that.

                     ADDITIONAL COMMITTEE QUESTIONS

    There is, as has been pointed out, a long way to go. As you 
say, it is the end of the beginning, or the beginning of the 
next step, anyway, whatever the term was. We have got a long 
way to go. You have started to build a foundation. We want to 
support you in that. So get us the numbers you need for that 
support, and to the extent GAO tells us that they make sense.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                Questions Submitted to James A. Williams

               Questions Submitted by Senator Judd Gregg

                          RETURN ON INVESTMENT

    Question. US VISIT will be a multi-billion dollar investment in a 
system that, while making significant strides in closing security gaps, 
will not be able to close them all. The most significant question: what 
is the return on investment for the American taxpayer?
    Answer. The United States Visitor and Immigrant Status Indicator 
Technology system (US VISIT) has made significant contributions since 
its first functional deployment in January 2004 to the Department of 
Homeland Security (DHS) strategic goals of: (1) detecting, deterring, 
and mitigating threats to our homeland; and (2) serving the public 
effectively by facilitating lawful trade, travel, and immigration. 
Evidence of these contributions includes:
  --Through January 2006, DHS has processed 49 million travelers 
        through its US VISIT biometric screening capabilities at ports 
        of entry, representing the largest application of biometric 
        screening capabilities in the world.
  --US VISIT is providing capabilities to enable improved matching of 
        exit records to entry records, as demonstrated by results from 
        fiscal year 2005. During a pilot of biometric exit, 92 percent 
        of biometric exit records were matched to entry records, 
        compared to 82 percent for biographic matching. This 10 percent 
        increase equates to the ability to match an additional five 
        million individuals approximately per year.
  --US VISIT screening of travelers at ports of entry have resulted in 
        nearly 3,500 biometric watch list hits, resulting in more than 
        1,000 adverse actions, including matches for individuals 
        convicted of serious crimes as well as individuals found to 
        have committed visa fraud and other immigration violations.
  --hrough support to the Department of State (DOS) BioVisa program, US 
        VISIT supports a virtual border and detects persons of interest 
        before they ever reach our shores. Through January 2006, State 
        screened nearly 10.5 million visa application records through 
        US VISIT, resulting in almost 13,900 matches to derogatory 
        information.
  --Immigration and Customs Enforcement (ICE) apprehended 173 aliens 
        based on overstay records identified by US VISIT through 
        January 2006. These arrests mark a significant milestone. For 
        the first time in our Nation's history, nonimmigrant aliens who 
        overstay their authorized period of admission are being 
        identified by an automated system and this data is 
        electronically provided to enforcement authorities.
    These statistics represent some of the contributions to date from 
implementation of US VISIT in response to critical legislative 
mandates.
    The return on investment for the American taxpayer is the creation 
of a virtual border with end-to-end information management on foreign 
nationals traveling to the United States, covering their interactions 
with Federal officials before they enter, when they enter, and when 
they exit. Implementation of this border management technology will 
also provide the necessary data to perform better analyses of our 
immigration system, inform policy development, and support enforcement 
efforts.

                           AIR EXIT TRACKING

    Question. What are the results of the biometric exit pilots 
executed in airports?
    Answer. The exit pilot determined that all three exit alternatives 
were able to capture and transmit biographic and biometric information. 
All alternatives processed travelers quickly and efficiently and do not 
unduly impede travel.
    The exit pilot evaluation demonstrated that biometrics provide a 
significant enhancement to the existing ability to match arrival and 
departure records. US VISIT was able to successfully match biometric 
exit records to a biometric entry record for 92 percent of all 
travelers who complied with the exit process, as opposed to only an 82 
percent successful matching rate of biographic-only records. This 10 
percent increase would equate to, on a nationwide scale, the Government 
matching an additional 5 million individuals approximately per year.
    Compliance rates during the pilot were below 50 percent at the 
majority of pilot locations, but may improve with enforcing the 
requirement.
    Biometric processing at exit provides an additional level of law 
enforcement through the identification of persons who are attempting to 
leave the United States with active wants and warrants.
    Between January 5, 2004, and December 1, 2005, DHS had 322 
biometric watch list hits on exit. While many of these matches did not 
require DHS to stop the individual from leaving the country, 
significant matches reviewed by the National Targeting Center (NTC) law 
enforcement, and meeting documented criteria in standard operating 
procedures, did merit response by DHS. Examples of significant records 
responded to include, and are limited to, known or suspected 
terrorists, active felony warrants, and active Interpol warrants. Of 
these matches, five resulted in DHS taking adverse action.
    Question. Is this a cost-effective means of tracking individuals as 
they leave the United States?
    Answer. As a part of the exit pilots, US VISIT is examining the 
costs and benefits of this project.
    Question. None of the pilots included setting up passport control 
areas for departing passengers. Why?
    Answer. During the initial development of possible solutions for 
the collection of exit biometrics, various alternatives were 
considered. US VISIT worked with Federal partners and stakeholders to 
determine which of the alternatives could be implemented that would 
also minimize the impact on the transportation companies and port 
authorities.
    A passport control system, in which gates are physically separated 
from the rest of the terminal, was considered but rejected because it 
would have required construction at every international departure 
terminal and would have changed airline operations to only permit 
international departures from certain gates.
    Question. Is this something DHS should consider implementing?
    Answer. No.
    Question. Is requiring the airlines to collect the biometric data 
and ensuring all passengers boarding aircraft have properly checked out 
of US VISIT under consideration? How would this be done?
    Answer. An integrated long-term solution could incorporate the 
collection of the US VISIT exit biometrics and biographic information 
into an existing function that a traveler is required to complete. This 
could be completed at check-in, pre-boarding security screening, or 
into the boarding gate procedures.
    Question. When will the Department make a decision as to how exit 
tracking will be implemented airports?
    Answer. DHS is examining the results of the current exit pilots at 
14 airports and seaports. DHS will determine the best approach for 
capturing exit data using biometrics and biographic information. We 
continue to rely on our existing exit process, which is now being 
enhanced by implementation of the Advanced Passenger Information System 
(APIS) rule.
    Question. When will a plan to implement that decision be submitted 
to this subcommittee?
    Answer. The implementation of exit tracking will be included in 
future expenditure plans.

                    LAND ENTRY/EXIT TRACKING PILOTS

    Question. What exactly is being piloted at the land border? Is it 
just the radio frequency identification tags (RFID)? Or has the reader 
been integrated with the computer in the primary inspection booth? In 
other words--are you testing only the tag or is the inspector getting 
real time information from the tag?
    Answer. US VISIT has established a pilot program at land border for 
documenting exits and any subsequent reentries of nonimmigrant 
travelers who have gone through the US VISIT process on entry. This 
pilot is operating at five U.S. land border crossings utilizing radio 
frequency identification (RFID) technology. Phase 1 of the test 
embedded an RFID tag into the form (Form I-94/A) used by nonimmigrant 
aliens and upgraded pedestrian primary workstations. The systems being 
developed associate the RFID tag with data for the traveler, and pre-
position the information for display to the Customs and Border 
Protection (CBP) Officer at the time of inspection. Also, Phase 1 
records travelers in a vehicle on exit which are equiped with overhead 
gantries (on which are hung RFID antenna) that are in place at all 
pilot locations to record these travelers as they depart. Phase 1 was 
implemented August 4, 2005.
    Question. Is RFID a viable technology for this kind of tracking?
    Answer. In 2004, an operational alternative analysis was conducted 
and RFID met both operational and technical requirements. This study 
examined remote sensing technologies such as facial recognition, iris 
scanning, retinal scanning, global positioning systems, voice 
recognition, as well as various types of RFID technologies. Criteria 
used in the analysis included mission fit to operational requirements, 
commercial availability, and impact on traveler privacy. RFID was 
identified as the best fit to the requirements using technology 
available today. Subsequently, an RFID feasibility study was performed 
using three RFID industry leaders that led to a vendor recommendation 
based on performance and deployment in a Proof of Concept.
    US VISIT believes that RFID has the potential for use at exit, even 
though the technology is still maturing. RFID is a rapidly advancing 
technology. US VISIT will continue to work with industry to develop 
RFID technology that meets the current and future needs of the 
immigration and border security management community.
    Question. How many different vendors are participating in the exit 
pilots as of today?
    Answer. The RFID Proof of Concept under way at selected land border 
locations is using RFID products (readers, antennae, and tags) from 
only one vendor.
    Question. Is there a risk of getting tied into one proprietary 
technology?
    Answer. US VISIT has conducted early discussions with industry and 
has stressed the importance of open standards and interoperability for 
RFID technologies. An important activity in the next phase is to 
evaluate and incorporate next generation RFID technologies into the 
Proof of Concept to mitigate the risk associated with proprietary 
products. Next generation RFID technologies are standards-based and 
backward-compatible so that existing documents can continue to be used.
    Question. Will RFID be able to replace the need to build vehicular 
exit lanes along the Nation's land borders?
    Answer. RFID is an emerging, evolving technology that private 
industry is continuing to develop and enhance (i.e., industry is moving 
toward an interoperable (versus proprietary) standard). We are testing 
the possibility that RFID can be used as the primary technology for 
recording the entry and exit of travelers in the land border 
environment. Any solution cannot impede the free flow of legitimate 
travelers and commerce on entry to, or exit from, the United States. In 
order to meet that objective, RFID was the most promising solution. 
Continuous improvement in the advances of RFID, business process 
improvement, and increased traveler compliance will replace the need 
for a costly public construction effort.
    Question. Once an individual is enrolled in US VISIT and in 
possession of the RFID-enabled I-94, how will you know if the readers 
successfully captured a subsequent border crossing, without knowing 
ahead of time when people plan to cross?
    Answer. As a part of the US VISIT enrollment process, the 
traveler's information is immediately available for subsequent use on 
reentry. The tag is associated with that traveler's biographic and 
biometric information on the back-end technical infrastructure. The 
radio frequency (RF) readers are strategically placed to automatically 
and remotely detect the presence of an RF-enabled I-94 from the head of 
the vehicle and from the pedestrian lanes. When a tag is read, the tag 
is immediately transmitted to the back-end systems for processing the 
reentry (or exit, as the case may be) so that information can be 
accessed and presented for the CBP Officer to use in the admission 
decision.
    Question. What is the level of confidence that the pilots will 
produce meaningful information for evaluation?
    Answer. DHS has already learned a great deal from the existing 
pilots and the results will be used for the next phase of testing.

                    INFORMATION TECHNOLOGY PLATFORM

    Question. Is the current information technology platform (inherited 
from legacy agencies) used by US VISIT adequate or likely to prove 
inadequate?
    Answer. Deployment of the US VISIT system required the beginning of 
the integration of existing systems immediately.
    In order to deploy US VISIT quickly, DHS and its enterprise 
partners--the Department of Justice (DOJ) and DOS--used (and have been 
successful) in trying to integrate disparate systems and networks to 
give users access to mission-critical information systems. However, the 
systems and their infrastructure platforms can be greatly improved. 
There are modernization efforts in various stages throughout DHS, as 
well as within critical partner agencies such as DOJ (including the 
Federal Bureau of Investigation (FBI)), that will decrease the risk to 
scalability and functionality that some older systems and platforms 
present. US VISIT continues to examine DHS systems. For example, as 
part of the plans and analysis for transitioning to 10-print biometrics 
and full interoperability with DOJ/FBI Criminal Justice Information 
Services (CJIS)-Integrated Automated Fingerprint Identification System 
(IAFIS), US VISIT will modernize the Automated Biometric Identity 
System (IDENT) platform.
    Question. One of the challenges facing US VISIT is that many of the 
information technology systems that are integral to this effort are 
owned and operated by other components and departments. How is this 
being managed?
    Answer. DHS has established a Federal Advisory Board that includes 
senior representatives from a wide range of stakeholders. US VISIT is a 
member of the DHS Joint Requirements Council. The US VISIT Chief 
Information Officer (CIO) is a member of the DHS CIO Council, and the 
DHS CIO has established a subgroup of CIOs as a Screening Portfolio (US 
VISIT, CBP, ICE, Transportation Security Administration (TSA), and U.S. 
Citizenship and Immigration Services (USCIS)) for those organizations 
that are primarily the owners and operators of systems and 
infrastructure that comprise critical pieces of US VISIT.
    Question. One of the challenges facing US VISIT is that many of the 
information technology systems that are integral to this effort are 
owned and operated by other components and departments. What mechanisms 
are in place to make sure that development decisions are getting made 
in a timely manner and that the decisions are in fact carried out?
    Answer. In addition to the answer provided previously, US VISIT has 
established Integrated Project Teams (IPTs) to manage each project. 
These teams oversee the project and then allocate resources to 
components via interagency agreements and basic service level 
agreements to make the necessary enhancements and improvements. The US 
VISIT IPT manager ensures that all components agree and obtain 
clearance on formal business requirements, which then dictate the 
progression of the project through its lifecycle and the key decision 
points that are required to keep the project on budget and within 
schedule and scope. Issues that would affect the project or projects 
are elevated.
    Question. What has been accomplished with the $21 million of fiscal 
year 2005 funds spent on developing the long-term strategy for US 
VISIT, including modernizing systems and capabilities and integrating 
databases?
    Answer. In fiscal year 2005, US VISIT allocated $21 million for 
Increment 4, the modernization and expansion of systems and 
capabilities. Of those funds, $13 million was allocated to the 
modernization of systems and capabilities and $8 million was allocated 
to facilities delivery support. Of the funding for modernizing systems, 
approximately $4 million was used for strategic planning and 
blueprinting. The funds for facilities delivery support have been 
obligated for environmental studies and analysis, systems and 
performance modeling, Geographical Information System development and 
sustainment, and facilities planning to support operations for air, 
sea, and land ports.
automated biometric identification system (ident)/integrated automated 

       FINGERPRINT IDENTIFICATION SYSTEM (IAFIS) INTEROPERABILITY

    Question. There are legislative proposals that would set a deadline 
of October 26, 2006, for DHS to complete the conversion of US VISIT 
from a 2-fingerprint standard to a 10-fingerprint standard. Can the 
conversion to 10-fingerprints be completed by October of 2006? If not 
then, what is a realistic timeframe?
    Answer. US VISIT does not require additional statutory authority to 
move from a 2- to a 10-fingerprint standard. The conversion to 10 
fingerprints cannot be completed by October 26, 2006, regardless of 
funding levels.
    US VISIT must undertake two initiatives: deploy electronic readers 
capable of scanning 10 fingerprints accurately and quickly; and develop 
interoperability between the FBI's IAFIS and DHS's IDENT. US VISIT has 
already made progress towards IDENT/IAFIS interoperability and is 
exploring 10-print readers for deployment to multiple environments.
    DHS, along with the Departments of State, Justice, and Defense, as 
well as the National Institute of Standards and Technology, hosted an 
industry day to challenge the private sector to make a smaller, faster, 
and more accurate 10-print capture device. We are working with industry 
to help design new capture devices that meet DHS's basic operational 
requirements at primary inspection. Advances in technology will allow 
DHS and State to routinely collect 10 slap prints, without negatively 
impacting the thousands of international visitors that pass though our 
ports and visa issuing posts every day.
    The joint DHS/DOJ/DOS Integrated Project Team has agreed upon three 
phases to achieving interoperability: (1) an interim data sharing model 
(data sharing solution); (2) initial operating capability (IOC); and 
(3) full operating capability (FOC).
    The interim solution will consist of a prototype (also known as the 
interim data sharing model) that is a first step toward achieving the 
new interoperable environment between IDENT and IAFIS. The interim 
solution will allow for two-way sharing of certain biometric 
information. FBI will provide information on all wants and warrants. 
DHS will provide information on expedited removals. DOS will provide 
Category 1 visa refusals (e.g., generally one involving a permanent 
ground of inadmissibility). DHS and FBI's CJIS Division formally 
started the first phase on February 1, 2006. This time period will be 
used to design and build the prototype system. These improvements will 
be completed by the end of fiscal year 2006.
    During the next phase--the initial operating capability (IOC)--DOS 
and DHS will begin to collect 10-prints and DHS will convert the 
current two-print DHS IDENT system to store and utilize 10-flat prints 
in processing. DHS and FBI will establish an infrastructure for 
exchanging information and search capabilities.
    Finally, the full operating capability (FOC) includes full 
information sharing, subject to controlling laws and policy; high 
performance searches of biometric data in both IDENT and IAFIS for 
positive identification; increased matcher performance appropriate to 
the increased volumes; and more comprehensive biographic/case data 
sharing.

                BORDER CROSSING CARD/LASER VISA READERS

    Question. Funds were appropriated to purchase readers for the 
border crossing cards in use along the southwest border. These machines 
were purchased and installed during fiscal year 2004; however the 
decision was made to not integrate the readers with the Customs and 
Border Protection (CBP) computer systems. So while an individuals card 
is read during the interaction with the inspector, no record is being 
kept of the number of times that individual crossed our borders, even 
though that capability exists.
    Given the technological challenges in pursuing RFID technology for 
tracking of entries and exits at land ports-of-entry will integration 
of the BCC readers with the CBP computer system be re-considered?
    Answer. US VISIT, in partnership with CBP, embarked on a further 
upgrade of card-reading software during fiscal year 2005. This upgrade 
was completed in October 2005 and allows CBP Officers quicker access to 
biographic and biometric information in the primary inspections 
environment for persons holding U.S.-issued travel documents and cards. 
The new software is fully integrated and thus offers the officer the 
option of viewing the alien's crossing history.

OFFICE OF INSPECTOR GENERAL REPORT: US VISIT SYSTEM SECURITY MANAGEMENT 
                          NEEDS STRENGTHENING

    Question. On January 24, 2006 the DHS Office of Inspector General 
released a report entitled ``US VISIT System Security Management Needs 
Strengthening''. What steps do you plan to take to remediate these 
issues?
    Answer. Our remediation steps are outlined in our formal response 
to the Office of the Inspector General (OIG) Report and included in the 
end of that report.
    Question. The report included findings that US VISIT was not in 
compliance with the Federal Information Security Management Act, and 
further that there was a lack of communication and coordination 
regarding the security of existing US VISIT systems between the program 
office, the CBP programs and Chief Information Officer, and the 
Immigration and Customs Enforcement programs and Chief Information 
Officer. How do you plan to remedy these situations?
    Answer. The OIG report concluded, ``Overall, information security 
controls, including physical access controls, have been implemented and 
provide an effective level of security on the systems, which comprise 
the backbone of US VISIT.'' The specific FISMA deficiencies mentioned 
in the report directly relate to documentation issues with memoranda of 
understanding and Interconnection Security Agreements (ISAs). At the 
time the report was written, DHS policy did not require an ISA for 
internal DHS connections (i.e. US VISIT to CBP). Since the publishing 
of the report, the DHS Information Technology (IT) Security policy was 
updated to require ISAs for ALL interconnections, both internal and 
external. US VISIT plans on fully complying with the OIG recommendation 
(as noted in our formal response included at the end of the report) and 
the DHS policy requirement.
    US VISIT formally disagreed with the finding that there was a lack 
of communication and coordination and included this information in its 
response to the OIG report, US VISIT program functions are implemented 
via systems, owned and operated by CBP and ICE, that are modified or 
enhanced according to functional and security requirements developed by 
US VISIT. Technical solutions meeting these requirements are often 
developed in concert, or at a minimum in consultation with, the other 
organizations. Furthermore, US VISIT is directly involved in oversight 
of system assurance testing and has established a life-cycle process 
that coordinates the involvement of CBP and ICE. In addition, we have 
initiated regular security team meetings, attended by the security 
principals from each organization that meet to discuss a wide range of 
security issues. These meetings are essentially conducted worker-to-
worker' and may not always have high visibility, but they nonetheless 
directly and positively impact the security posture of the systems 
comprising US VISIT.

                        LIMITATIONS OF US VISIT

    Question. After full deployment of US VISIT, gaps will continue. 
Individuals will continue to enter both legally and illegally--by 
walking across the land border between ports, using a private boat on 
lakes or in the ocean, or by using private planes. How will the 
Department ensure gaps between ports of entry are not exploited?
    Answer. DHS and CBP is aggressively pursuing the full 
implementation of the National Border Patrol Strategy for the 
deployment of all required resources to achieve operational control 
between the ports of entry, as well as the necessary detention and 
removal resources.
    A major supporting component of the strategy is the Department's 
Secure Border Initiative (SBI) to coordinate the deployment of all DHS 
resources for bringing operational control to both the Northern and 
Southern borders.
    The SBI includes the following:
  --More officers to patrol our borders, secure our ports of entry and 
        enforce immigration laws;
  --Expanded detention and removal capabilities to eliminate the 
        ``catch and release'' process;
  --A comprehensive and systemic upgrading of the technology used in 
        controlling the border, including manned and unmanned aerial 
        assets, and next-generation detection technology;
  --Increased investment in infrastructure improvements at the border--
        providing additional physical security to sharply reduce 
        illegal border crossings; and
  --Increased interior enforcement of our immigration laws--including 
        more robust worksite enforcement.
    The mix of resources provided by the SBI will substantially 
address, when fully deployed, the gaps on the land, water, and air to 
prevent the illegal entry into the United States of persons and 
contraband at and between the ports of entry.
    Question. How will the entry and exit of private boats and planes 
be tracked?
    Answer. The locations that process private boats and aircraft have 
generally not been designated in the Federal Register as US VISIT 
equipped locations, and therefore, US VISIT equipment has not been 
installed in these locations. The number of travelers subject to US 
VISIT requirements arriving at these locations is generally low.
    CBP does have other mechanisms in place to perform biographic 
queries of travelers and biometric queries if deemed necessary. All 
persons arriving via private boat and air must report their arrival to 
CBP. CBP enters all arrival data and traveler biographical information 
into the Treasury Enforcement Communications System (TECS) and issues 
an I-94 (which is also entered into TECS) if applicable. When the 
person issued the I-94 departs the United States, he must surrender the 
I-94 to CBP. CBP also has the authority and ability to perform 
fingerprint queries on any traveler where biometric equipment is 
available. Biometric equipment may not be available at smaller 
locations, however, and in situations where this is the case, CBP would 
transport the traveler a short distance to an equipped location.
                                 ______
                                 

               Question Submitted by Senator Thad Cochran

                  US VISIT: BIOMETRIC TECHNOLOGY MODEL

    Question. Mr. Williams, according to your written testimony, US 
VISIT has been deployed on time, within budget, and has met every 
mandate established by Congress to date. Also according to your 
testimony, US VISIT has processed approximately 47.6 million travelers 
at our points of entry, while intercepting over 1,000 known criminals 
and immigration law violators and receiving only 131 complaints 
regarding privacy issues.
    Do you think this model of implementation and management of 
biometric technology could be successfully deployed for other law 
enforcement uses in other Federal Government agencies?
    Answer. US VISIT already supports the sharing of biometrics and 
biographic data with DOS consular officers, CBP Officers, and USCIS 
Officers so they may have the information they need to authenticate 
travel documents, verify identity, adjudicate immigration benefits, and 
identify criminals, immigration violators, and other threats to our 
security. Additionally, ICE is using information from US VISIT to 
identify overstays and to strengthen immigration enforcement.
                                 ______
                                 

            Questions Submitted by Senator Richard C. Shelby

                      ENTRY/EXIT BORDER TECHNOLOGY

    Question. How long before border technology is in place to securely 
process entry and exit at all points in the United States?
    Answer. The initial phases of US VISIT have successfully 
implemented new screening capabilities that include biometric entry 
procedures now operating at 311 land, air, and sea ports of entry, as 
well as linking key interagency databases. US VISIT is piloting exit 
procedures in 14 air and seaports, and is exploring the use of RFID for 
exit at the land ports.
    Still, significant challenges remain before all the necessary 
technology and systems are in place to securely process entry and exit 
at all ports.
    Question. Is it really feasible to monitor every point of entry in 
the United States to accurately track entry and exit?
    Answer. The long-term strategy of US VISIT is to deploy end-to-end 
processes and manage information on foreign nationals traveling to the 
United States by integrating their interactions with government 
officials before they enter the United States, when they enter, and 
when they exit. Furthermore, linkage of key intelligence data and 
global coordination with our partners in the international open 
community has provided an increased level of security.
    The initial phases of US VISIT have successfully implemented new 
capabilities that include biometric entry procedures now operating at 
all 311 land, air, and sea ports of entry. US VISIT continues to 
develop exit capabilities and further integrate databases within the 
immigration and border security community.
    Question. What will be the total cost of such a project?
    Answer. The Department is devoping a long-term deployment schedule 
for a comprehensive, biometrically based entry-exit system. Many 
elements still need to be researched and tested before accurate cost 
estimates can be made.
    Question. Does the Department of Homeland security have a strategic 
forward looking plan to institute and proficiently carry out such a 
program?
    Answer. Since US VISIT has implemented its initial increments, US 
VISIT will now focus on improving business processes, developing and 
testing new technology, and improving information sharing to create an 
integrated border management system for the future.
    Question. What are the assumed error rates of a entry and exit 
tracking program?
    Answer. DHS does not assume error rates since exit is not deployed 
at all ports. However, DHS does have ``unmatched'' data on exit, which 
incorporates both biometric and biographic entry-exit matching 
strategies, and is dependent on the following factors: (1) The ability 
of the system to accurately match the arrival records that are captured 
to the corresponding departure records that are captured. This matching 
capability is constrained by the limitations of the matching 
technologies and by the accuracy and completeness of the data elements 
captured at entry and at exit. (2) The completeness (percentage of the 
population) for whom entry and exit records are captured at all points 
where persons can legally enter and depart the country. Surreptitious 
entries and exits (e.g., between ports of entry) are outside the scope 
of such a system. (3) The degree of certainty that records captured at 
departure indicate those individuals actually departed the county.
    Based on available information, we assume that fingerprints of 
sufficient quality to perform biometric matching cannot be captured for 
approximately 2 percent of the population. Of the remainder, studies 
performed by National Institute of Standards and Technology (NIST) 
indicate that for one-to-many searches, US VISIT biometric matches have 
a 97 percent accuracy rate, and for one-to-one searches a 99 percent 
accuracy rate. No corresponding statistical or scientific baseline has 
been established for biographic matching since the ability to 
accurately perform text-based record matching is dependent upon the 
accuracy and completeness of the specific data elements collected and 
the matching algorithms employed.
    Question. How many people slip through the system?
    Answer. US VISIT analyzes exit records to determine if stays were 
legally extended, if there were approved changes in status, or if 
information in other systems may have impacted matching an entry to an 
exit. US VISIT then provides ICE's Compliance Enforcement Unit (CEU) 
with a listing of possible overstays on a weekly basis. This exchange 
of information has led to the arrest by ICE of 122 individuals (January 
2004 through January 5, 2006) who have overstayed the terms of their 
admission.
    Question. Another major problem with our immigration system is visa 
overstays, what is Homeland Security doing to rectify this abuse?
    Answer. The Department is concerned about the number of visa 
overstays. Any one of ICE's roughly 6,000 criminal investigators can 
and does make arrests for visa violations on a daily basis. In fiscal 
year 2005, there were thousands of such arrests by ICE field agents.
    To further address the problem of visa overstays, ICE established 
the CEU in June 2003 to specifically target visa violators who pose an 
elevated national security or public safety threat. It is important to 
note there was no mechanism in place before the September 11, 2001, 
attacks to identify and prioritize visa violators according to risk. 
The CEU utilizes DHS nonimmigrant registration and tracking systems, 
such as the Student and Exchange Visitor Information System (SEVIS), 
National Security Entry-Exit Registration System (NSEERS) and US VISIT 
to identify and refer visa overstay and student status violators for 
field investigation.
    In its relatively short existence, CEU-generated investigations 
have led to the arrest of nearly 1,800 high-risk visa violators 
nationwide through January 2006, including suspected national security 
threats, murderers, rapists, and other criminals. From fiscal year 2004 
to 2005, the number of CEU-generated arrests increased by roughly 180 
percent, as the unit established a foundation and began expanding 
operations with additional personnel and data systems. At the current 
time, there are 237 Compliance Enforcement personnel at ICE 
headquarters and in the field.
    Question. Do you know how many temporary visa holders never return 
to their home country?
    Answer. Since the United States does not have immigration exit 
control deployed to every land, air and sea port of entry, it is 
difficult to estimate this number. However, as US VISIT, ICE, and CBP 
move forward with plans for implementing biometric exit control at air 
and sea and exit at the land borders, estimating this number may become 
easier.
    The DHS Office Immigration Statistics issued a report in 2003 that 
used data from the Nonimmigrant Information System (NIIS). As DHS noted 
in a previously submitted question for the record from the March 2, 
2005, fiscal year 2006 Senate Budget Hearing, this report found a total 
of 23.6 million nonimmigrant departures were recorded by NIIS during 
2003. Of those, 22.1 million or 94 percent were matched to an arrival 
and showed valid arrival and departure dates. Note that this was a one 
time report by the Office of Immigration Statistics and has not been 
updated or revised. Biometric exit control will provide a confirmed 
record that accurately ties an entry and an exit to a particular alien. 
This cannot be done with the NIIS system derived information.
    Question. What are the ramifications and penalties for overstaying 
a visa?
    Answer. Penalties for overstaying a nonimmigrant visa are set forth 
by the Immigration and Nationality Act of 1952, as amended. An overstay 
violation can result in arrest and removal, denial of future visas, and 
may lead to a finding of inadmissibility on subsequent applications for 
entry to the United States.
    If removed for a visa overstay violation, the alien is barred from 
re-entering the United States for a minimum period of 5 years from the 
date of removal. Should such an alien re-enter the United States 
illegally, the alien is subject to prosecution for illegal re-entry and 
may face fines and/or imprisonment. Additionally, the alien will be 
subject to reinstatement of the previous order of removal and will not 
have the right to a hearing before an immigration judge prior to 
removal.
    For nonimmigrants who are admitted to the United States under the 
Visa Waiver Program and subsequently overstay their authorized periods 
of admission, there is no provision for a hearing before an immigration 
judge and the alien is removed under an administrative process. He may 
not re-enter the United States under the Visa Waiver Program.
    Question. The border with Mexico and the numerous illegal crossings 
that take place each day are a big concern to the citizens of Alabama. 
Not only the crossing of Mexican citizens, but the crossing of non-
Mexicans and possibly persons from Nations with known terrorist 
connections.
    How much does a system like US VISIT impact the border with Mexico?
    Answer. US VISIT assists security along the border with Mexico by 
providing information to CBP Officers and DOS consular officials on 
whether an individual seeking entry through a port had been previously 
apprehended illegally crossing the border or if that individual has a 
criminal history in the United States.
    In addition to increasing security, US VISIT is having a positive 
impact at the land borders by facilitating legitimate travel. At some 
land border ports of entry, automation of former paper processes 
through US VISIT procedures have significantly reduced the time it 
takes for a visitor to obtain a Form I-94 and be admitted into the 
country. For example, in Laredo, Texas, the Form I-94 issuance process 
has been reduced from an average of 8 to 11 minutes to just 2 to 5 
minutes, even though we have added the collection of biometrics and 
additional security screening to the process.
    Question. Are we just making it more difficult for persons who are 
trying to visit the United States legally while ignoring the illegal 
immigrant traffic?
    Answer. No. US VISIT's accomplishments have been achieved without 
adversely impacting inspection times for the millions of legitimate 
international travelers who visit the United States every year. US 
VISIT, in partnership with CBP's Office of Information Technology, 
developed US-ARRIVAL. US-ARRIVAL is the system that automated the I-94 
issuance process at ports of entry. For example, in Laredo, Texas, the 
Form I-94 issuance process has been reduced from an average of 8 to 11 
minutes to just 2 to 5 minutes, even though we have added the 
collection of biometrics and additional security screening to the 
process.
    The capability offered by biometric identification means that those 
who are welcome in the United States can be processed more quickly and 
more efficiently. US VISIT and the BioVisa Program represent milestones 
in the Nation's efforts to modernize and reform the U.S. immigration 
and border management system.
    The implementation of joint IDENT/IAFIS workstations in Border 
Patrol stations and in secondary inspection at the point of entry has 
increased the level of screening that Border Patrol agents and 
inspectors can do. In 2004, Border Patrol made 1.1 million 
apprehensions of individuals crossing the land border between the ports 
of entry. As Border Patrol processed these individuals, their 
fingerprints were collected and checked against IDENT to see if there 
are any existing records on them.
    Question. How much does the biometric database used within US VISIT 
come into play when persons who are trying to cross the United States/
Mexican border are processed?
    Answer. US VISIT biometric entry procedures have been operational 
in the secondary inspection areas of the 50 busiest land border ports 
since December 29, 2004. The remaining land border ports were 
operational by December 31, 2005. US VISIT applies to all visitors who 
apply for entry with a nonimmigrant visa, including those using a 
Border Crossing Card (BCC) to travel beyond the border zone or for more 
than 30 days, or under the Visa Waiver Program. As part of the US VISIT 
process, CBP Officers collect digital, inkless finger scans and take a 
digital photo of the visitor.
    In addition, the IDENT/IAFIS workstations are an important tool for 
Border Patrol, secondary inspections, and interior enforcement. DHS 
completed deployment of integrated IDENT/IAFIS workstations to all 
remaining CBP ports of entry (for secondary inspection), ICE sites, and 
Border Patrol stations by December 31, 2005. The 2005 deployment 
focused on the remaining 66 ports of entry as well as the 339 ICE 
locations.
    These workstations allow DHS's users in the field to collect one 
set of 10-rolled prints and simultaneously transmit them to both IDENT 
and IAFIS for checks. The joint workstations allow Border Patrol to 
view US VISIT records and also allow CBP and ICE to view Border 
Patrol's processing records through US VISIT.
    Question. Do we have the same processes in place to identify wrong 
doers and track them if they are caught in the future?
    Answer. Once a person ``hits'' against US VISIT (IDENT), that 
record is maintained in the system. This allows DHS to flag particular 
persons if their records denote that they have committed an act that 
bars them from future admissions or from receiving immigration 
benefits.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

                      FISCAL YEAR 2006 SPEND PLAN

    Question. During the hearing, you noted your disappointment that 
the Congress did not fully fund the President's fiscal year 2006 
request for US VISIT. However, we are 4 months into the fiscal year and 
we have yet to receive the required spend plan demonstrating how you 
intend to use the funds you were provided. What is the reason for the 
delay?
    Answer. The expenditure plan is currently under review. US VISIT 
will submit the expenditure plan as soon as possible after the required 
review process is complete.
    Question. When can we expect to receive the spend plan?
    Answer. US VISIT will submit the expenditure plan as soon as 
possible after the required review process is complete.

                            TEN FINGERPRINT

    Question. I was pleased that Secretary Chertoff announced this past 
summer that he plans to migrate the US VISIT program from the current 
two fingerprint enrollment for visitors to this country to a ten 
fingerprint enrollment. I have been pressing for this since the 
Department was created. What is your estimated timeline for achieving a 
10 fingerprint process for US VISIT?
    Answer. In order to realize the full benefit of collecting 10 
fingerprints, US VISIT must undertake two initiatives: deploy 
electronic readers capable of scanning 10 fingerprints accurately and 
quickly; and develop interoperability between the FBI's IAFIS and DHS's 
IDENT. US VISIT has already made progress toward IDENT/IAFIS 
interoperability and is exploring 10-print readers for deployment to 
primary inspection.
    DHS, along with the Departments of State, Justice, and Defense, as 
well as the NIST, hosted an industry day to challenge the private 
sector to make a smaller, faster, and more accurate 10-print capture 
device. We are working with industry to help design new capture devices 
that meet DHS's basic operational requirements at primary inspection. 
Advances in technology will allow DHS and State to routinely collect 10 
slap prints, without negatively impacting the thousands of 
international visitors that pass though our ports and visa issuing 
posts every day.
    The joint DHS/DOJ/DOS Integrated Project Team has agreed upon three 
phases to achieving interoperability: (1) an interim data sharing model 
(data sharing solution); (2) initial operating capability (IOC); and 
(3) full operating capability (FOC).
    The interim solution will consist of a prototype (also known as the 
interim data sharing model) that is a first step toward achieving the 
new interoperable environment between IDENT and IAFIS. The interim 
solution will allow for two-way sharing of certain biometric 
information. FBI will provide information on all wants and warrants. 
DHS will provide information on expedited removals. DOS will provide 
Category 1 visa refusals (e.g., generally one involving a permanent 
ground of inadmissibility). DHS and FBI's CJIS Division formally 
started the first phase on February 1, 2006, and it will be completed 
by the end of fiscal year 2006.
    During the next phase--the initial operating capability (IOC)--DOS 
and DHS will begin to collect 10-prints; and DHS will convert the 
current two-print DHS IDENT system to store and utilize 10-flat prints 
in processing. DHS and FBI will establish an infrastructure for 
exchanging information and search capabilities.
    Finally, the full operating capability (FOC) includes full 
information sharing, subject to controlling laws and policy; high 
performance searches of biometric data in both IDENT and IAFIS for 
positive identification; increased matcher performance appropriate to 
the increased volumes; and more comprehensive biographic/case data 
sharing.
    Question. What are the estimated costs to achieve this capability?
    Answer. The fiscal year 2007 Budget includes $60 million for IDENT/
IAFIS interoperability and 10-print deployment.
    Question. Do you have the necessary resources this year to 
implement your plan?
    Answer. Yes. The fiscal year 2007 Budget includes $60 million for 
the 10-print and IDENT/IAFIS interoperability projects.

                          DHS-FBI INTERACTION

    Question. In a June 1, 2005 letter I received from Attorney General 
Gonzalez, he stated that ``DHS will migrate to the uniform biometric 
standard of 10 flat prints for enrollment and background checks. In 
addition, the FBI changed its business process to provide fingerprints 
of Known or Suspected Terrorists to the DHS daily.'' And on July 13, 
2005, Secretary Chertoff announced his decision to enroll visitors 
using ten prints. I am pleased to see that after more than 2 years of 
urging, this level of cooperation is finally bearing results.
    The FBI is upgrading its IAFIS system. What impact, does the FBI 
system upgrade have on US VISIT?
    Answer. IDENT/IAFIS interoperability will increase DHS and DOS's 
ability to screen individuals, increase the accuracy of matching, and 
provide greater ability to match against latent prints. Integration 
will also benefit the FBI and other law enforcement organizations by 
providing them with increased access during the interim solution to 
information on high-risk individuals to whom DOS refused a visa and 
those whom DHS has expeditiously removed.
    The first phase of interoperability--the interim solution--will 
consist of a prototype (also known as the interim data sharing model) 
that is a first step toward achieving the new interoperable environment 
between IDENT and IAFIS. The interim solution will allow for two-way 
sharing of certain biometric information. FBI will provide information 
on all wants and warrants. DHS will provide information on expedited 
removals. DOS will provide Category 1 visa refusals (e.g., generally 
one involving a permanent ground of inadmissibility). This will be 
completed in fiscal year 2006.
    During the next phase, the initial operating capability (IOC), DOS 
and DHS will begin to collect 10-prints; and DHS will convert the 
current two-print DHS IDENT system to store and utilize 10-flat prints 
in processing. DHS and FBI will establish an infrastructure for 
exchanging information and search capabilities.

                         IMMIGRATION STATISTICS

    Question. One of the benefits of the US VISIT program, once it is 
fully operational, will be the ability to determine whether individuals 
who have been allowed entry into the United States have overstayed 
their visas. This would be a major step forward toward gaining control 
of our immigration system and management of our borders. However, some 
skeptics of the US VISIT program have complained that the Department 
has deliberately slowed development and implementation of the ``exit'' 
component of US VISIT because you do not want to know the true volume 
of visa overstays in part because the Department lacks the resources to 
round up the large number of visa violators. What is your reaction to 
these comments?
    Answer. There is a substantial effort ongoing in DHS to determine 
the true volume of visa overstays led by ICE's CEU. This unit provides 
a listing of possible overstays on a weekly basis that has led to the 
arrest by ICE of 122 individuals (January 2004 through January 5, 
2006). DHS wants an accurate count of visa overstays and exit will help 
improve the current information available.
    Question. Do you believe that your office is collecting as much 
information on visa overstays as it can at this point?
    Answer. Yes. Through the use of CBP Form I-94, passenger manifests 
transmitted through APIS, and data from our exit pilots, US VISIT is 
collecting as much information on visa overstays as current system 
capabilities allow.
    US VISIT provides ICE's CEU with a listing of possible overstays on 
a weekly basis. This exchange of information has led to the arrest by 
ICE of 122 individuals (January 2004 through January 5, 2006) who have 
overstayed the terms of their admission.

                         BIOMETRIC PERFORMANCE

    Question. I know that biometric identification technology is the 
backbone of the US VISIT system and that, in fact, US VISIT represents 
the largest-scale application of biometrics in the world. Now that US 
VISIT has been in operation for nearly 2 years, can you tell us just 
how well biometrics have performed, and what other technologies are you 
contemplating using as part of the program?
    Answer. US VISIT has fulfilled the legislative mandate for 
completing the deployment of biometric entry capabilities at all ports 
and visa-issuing posts of the United States. This program verifies each 
visitor's identity and compares the visitor's biometric and 
biographical information with watch lists of terrorists, criminals, and 
immigration violators. Achievements for the biometric program include:
  --Deployment on December 29, 2004, of initial operational biographic 
        and biometric entry functionality in the secondary inspection 
        areas, providing enhanced biographic and biometric identity 
        verification, and enhanced lookouts, and watch list checks.
  --Implementation of functionality at all ports of entry on October 
        26, 2005, for producing U.S.-issued passports with an 
        integrated circuit ship capable of storing biographic 
        information from the data page of a passport, a digitized 
        photograph, and any other biometric information required in 
        travel documents.
  --Deployment of biometric entry capabilities at the top 50 land 
        border ports, and the remaining 104 land border ports of entry 
        in December 2005.
    In addition, the introduction of biometrics to the visa issuance 
process (BioVisas) at DOS consular posts worldwide, and upon admission 
at the air and sea ports of entry (and upon exit at selected ports), 
has produced results.
    Preentry.--During fiscal year 2005, 5,813,789 finger scans and 
photographs were collected and checked against biometric watch list 
records during the visa application process at consular posts overseas. 
These checks resulted in 8,278 matches to derogatory information. DOS 
uses any derogatory information from watch list matches, or ``hits,'' 
as one source of data, together with its review of information provided 
on the visa application and information gained during the visa 
interview, to make an informed decision whether to grant or deny a 
visa.
    The biometrics and visa data collected by DOS during the visa 
application process are also transmitted to DHS systems for 
verification of identity when an individual granted a visa applies for 
admission at a U.S. port of entry. This has significantly improved the 
Department's ability to detect visa fraud for those issued a visa under 
the biometric visa program, preventing imposters from entering the 
United States using a visa that was issued to someone else.
    Entry.--During fiscal year 2005, 30,200,086 travelers went through 
the US VISIT biometric process at the ports of entry. This process 
resulted in 4,153 matches against biometric watch list records and 583 
adverse actions. Examples of some of the more significant matches were 
for individuals convicted of murder, rape, child molestation; drug 
trafficking, manslaughter, visa fraud, and immigration violations. 
Significantly, these enhanced processes--taking digital finger scans--
account for only 10-15 seconds, on average, of the primary inspection 
process.
    US VISIT is also able to identify frequent travelers with no 
criminal history or other adverse record. By associating biometric 
identities to travel documents, US VISIT was able to successfully 
identify 9,436,290 travelers during the primary inspection process as 
repeat travelers, verifying their identity as individuals who were 
previously admitted to the United States presenting the same travel 
documents.
    All of this had to be accomplished without negatively impacting 
wait times at primary inspection. Implementing 10-prints will only 
enhance the Department's ability to prevent false positive matches 
(identification mistakes), check travelers against latent fingerprints, 
and deny entry to criminals and terrorists.
    US VISIT is exploring new technology to improve security and 
traveler facilitation at our ports of entry. We are working with 
Australia, New Zealand, and Singapore to pilot test e-Passport readers. 
The test began January 15, 2006, and will run through late spring of 
this year. US VISIT is also testing the use of RFID technology to track 
entry and exit at select land ports.
    As a result, border management personnel will have extensive and 
additional information available to support the pre-entry, entry, 
status management, exit, and analysis processes.

                  DATABASE INTEROPERABILITY MILESTONES

    Question. The 9/11 Commission and various legislation enacted since 
9/11 have all called for greater interoperability between the many 
databases various Federal agencies use to identify people on our 
criminal watch lists or visa overstay lists. US VISIT is well underway 
with its effort to create interoperability between its Automated 
Biometric Identification System (or IDENT) and the FBI's Integrated 
Automated Fingerprint Identification System (or IAFIS). What can you 
tell us about the milestones that process has reached so far, and what 
do you see ahead?
    Answer. The joint DHS/DOJ/DOS Integrated Project Team has agreed 
upon three phases to achieving interoperability: (1) an interim data 
sharing model (data sharing solution); (2) initial operating capability 
(IOC); and (3) full operating capability (FOC).
    The interim solution will consist of a prototype (also known as the 
interim data sharing model) that is a first step toward achieving the 
new interoperable environment between IDENT and IAFIS. The interim 
solution will allow for two-way sharing of certain biometric 
information. FBI will provide information on all wants and warrants. 
DHS will provide information on expedited removals. DOS will provide 
Category 1 visa refusals (e.g., generally one involving a permanent 
ground of inadmissibility). DHS and FBI's CJIS Division formally 
started the first phase on February 1, 2006, and will be completed by 
the end of fiscal year 2006.
    During the next phase--the IOC--DOS and DHS will begin to collect 
10-prints and DHS will convert the current two-print DHS IDENT system 
to store and utilize 10-flat prints in processing. DHS and FBI will 
establish an infrastructure for exchanging information and search 
capabilities.
    Finally, the FOC includes full information sharing, subject to 
controlling laws and policy; high performance searches of biometric 
data in both IDENT and IAFIS for positive identification; increased 
matcher performance appropriate to the increased volumes; and more 
comprehensive biographic/case data sharing. e-Passports
    Question. US VISIT has worked side-by-side with the State 
Department to develop what's known as the e-Passport both for visitors 
traveling here under the Visa Waiver Program and for our own citizens. 
What is the status of e-Passport development, and how will this affect 
travel to and from the United States?
    Answer. A U.S. Electronic Passport (e-Passport) is a passport with 
information from the passport's data page stored on an integrated 
circuit chip embedded within the passport book. Standards for the 
manufacture of e-Passports are set by the International Civil Aviation 
Organization (ICAO). E-Passports are a significant step forward in 
security as they can eliminate numerous types of passport fraud.
    Many countries, including the United States, are developing e-
Passports for issuance and use during 2006. Last summer, Secretary 
Chertoff announced that as of October 26, 2006, DHS policy would 
require that travelers from all Visa Waiver Program (VWP) countries 
possess an e-Passport to be considered for admission if that passport 
was issued on or after that date. DHS will be deploying e-Passports 
readers to U.S. ports of entry by October 26. Accordingly, VWP 
countries are expected to be in full e-Passport production by October 
2006.
    DHS is working with VWP countries by offering its readers for 
testing purposes so that they can correct any errors prior to beginning 
full e-Passport production. The U.S. readers are ICAO-compliant, so 
countries can be assured that their passports meet international 
standards. To date, the United States has ``certified'' six VWP 
countries and expects many more e-Passport exemplars to arrive in the 
coming months from remaining countries.
    Question. What impact will it have on U.S. citizens?
    Answer. The e-Passport is being proposed by DOS. State has 
announced that the proposed e-Passport is the same as a traditional 
passport with the addition of a small integrated circuit (``chip'') 
embedded in the back cover. The chip will store the same data visually 
displayed on the data page of the passport, a biometric identifier in 
the form of a digital image of the passport photograph (which will 
facilitate the use of face recognition technology at ports of entry), 
the unique chip identification number and a digital signature to 
protect the stored data from alteration. At ports of entry, U.S. 
citizens would present their e-Passports just as they present their 
current passport. CBP Officers would use the special features of the e-
Passport to confirm the identity of the person presenting the passport.
                                 ______
                                 

            Questions Submitted by Senator Patrick J. Leahy

   IMMIGRATION AND CUSTOMS ENFORCEMENT LAW ENFORCEMENT SUPPORT CENTER

    Question. The ICE Law Enforcement Support Center (LESC) has a 
voluminous database on criminal illegal aliens as well as absconders. 
The Center is on-line 24 hours a day, 365 days a year, responding to 
inquires from local and state law enforcement in all 50 states. Last 
year, the LESC issued detainers on over 16,000 individuals.
    The LESC would seem to have a vast amount of information that 
should be incorporated into the US VISIT program. Has the LESC database 
been incorporated into US VISIT?
    Answer. The LESC is an analytical center that has access to the 
many immigration-related databases. The employees of the LESC are 
highly skilled in their ability to research these databases to 
determine persons of interest. As a person is determined to be of 
interest, this information is shared with the Federal screening systems 
including US VISIT.
    Question. What cooperation and coordination, if any, has there been 
between the US VISIT database and the criminal alien databases that are 
located at the Law Enforcement Support Center?
    Answer. The LESC is responsible for the immigration violator's file 
that resides in National Crime Information Center (NCIC). When an 
individual is placed in the immigration violator file and also has 
fingerprints on file, they are also placed on the US VISIT watch list. 
If positive identification is made through one of the US VISIT 
processes--preentry, entry, status management, or exit--a decision 
maker would have available the information provided by the LESC.
    Question. If there has been coordination between these two 
programs, what role will the LESC play in supporting US VISIT in the 
future?
    Answer. US VISIT will continue to work closely with LESC and all 
agencies on improved integration and sharing of information.

                  WESTERN HEMISPHERE TRAVEL INITIATIVE

    Question. Last week, Secretary Chertoff spoke about a new ``People 
Access Security Service,'' or ``PASS System Card,'' which is designed 
to serve as a passport equivalent for U.S. citizens who frequently 
cross into Canada or Mexico. This PASS Card will comply with the 
requirements of the Western Hemisphere Travel Initiative, a law that 
requires individuals to show a passport or its equivalent at land 
border crossings beginning January 1, 2008.
    I have expressed serious concerns about the impact of the WHTI in 
Northern Border States, including Vermont, particularly with regard to 
tourism, trade, and cross-border community ties.
    Currently, most Canadian citizens are not required to participate 
in the US VISIT screening program when they enter the United States. 
Will the implementation of the WHTI result in any modification of this 
policy?
    Answer. DHS is aggressively working with DOS and the governments of 
Canada and Mexico to ensure that the implementation of the Western 
Hemisphere Travel Initiative (WHTI) does not slow cross-border travel 
and trade.
    Question. Administration officials from the Departments of State 
and Homeland Security frequently mention consultation with the Canadian 
government with regard to the Western Hemisphere Travel Initiative. 
Please provide greater detail about current discussions with the 
Canadian Government. Is the Canadian Government developing a passport 
alternative that will meet the land border crossing requirements of the 
WHTI?
    Answer. Through the Security and Prosperity Partnership, government 
representatives from the United States and Canada have been meeting and 
working together to discuss both short and long-range issues that 
affect both our countries. We have established working groups to 
promote further collaboration in certain areas, including developing 
recommendations for lower-cost, secure proof of status and nationality 
documents that would facilitate cross-border travel.
    Question. If so, when does Canada expect to make such documents 
available to Canadian citizens who wish to travel to the United States?
    Answer. We have established working groups to promote further 
collaboration in certain areas, including developing recommendations 
for lower-cost, secure proof of status and nationality documents that 
would facilitate cross-border travel.
                                 ______
                                 

                Questions Submitted to Randolph C. Hite

               Questions Submitted by Senator Judd Gregg

    Question. What aspects of US VISIT has the department not 
addressed?
    Answer. Congress has required that DHS develop and implement an 
electronic entry and exit system at all ports of entry (POE).\1\ 
Specifically, DHS was to implement an entry and exit capability to air 
and sea ports of entry by December 31, 2003; to the 50 busiest land 
POEs by December 31, 2004; and to all remaining POEs by December 31, 
2005. As of December 2005, DHS has deployed an entry capability to all 
POEs, consistent with legislative requirements, but most notably, it 
has not implemented an electronic exit capability at all air, sea, and 
land POEs.
---------------------------------------------------------------------------
    \1\ Immigration and Naturalization Service Data Management 
Improvement Act of 2000, Public Law 106-215 (June 15, 2000); Uniting 
and Strengthening America by Providing Appropriate Tools Required to 
Intercept and Obstruct Terrorism (USA PATRIOT Act) Act of 2001, Public 
Law 107-56 (Oct. 26, 2001); and Enhanced Border Security and Visa Entry 
Reform Act of 2002, Public Law 107-173 (May 14, 2002).
---------------------------------------------------------------------------
    In its fiscal year 2005 US VISIT expenditure plan, DHS committed to 
deploying an electronic exit capability to air and sea POEs by 
September 30, 2005. However, as of January 2006, DHS's implementation 
of this capability has been limited to pilot testing at 11 air and sea 
POEs, and the department has not yet decided how or when to deploy it 
further. According to program officials, such implementation would take 
at least 6 months from the time of a decision.
    As of January 2006, the department is evaluating the feasibility of 
an electronic exit capability at land POEs. Specifically, in August 
2005, DHS deployed technology to three land POEs to verify the 
feasibility of using passive radio frequency tags at the primary 
inspection and exit lanes.\2\ This tag includes a unique ID number that 
is to be embedded in each entry/exit form, thus associating a unique US 
VISIT number with a form issued to a person when entering the country. 
According to the program official responsible for Increment 2C, the 
results of this demonstration have been evaluated. However, we have not 
yet received a copy of the evaluation.
---------------------------------------------------------------------------
    \2\ Radio frequency technology relies on proximity cards and card 
readers. Radio frequency devices read the information contained on the 
card when the card is passed near the device and can also be used to 
verify the identity of the cardholder.
---------------------------------------------------------------------------
    Question. In GAO's review of the fiscal year 2005 expenditure plan, 
there were specific concerns raised about the cost-benefit analysis 
developed for US VISIT. How could the cost-benefit analysis be 
improved?
    Answer. According to OMB guidance, individual increments of major 
systems are to be individually supported by analyses of benefits, cost, 
and risk.\3\ In addition, OMB guidance on the analysis needed to 
justify investments states that such analysis should meet certain 
criteria to be considered reasonable.\4\ These criteria include, among 
other things, comparing alternatives on the basis of net present value 
and conducting uncertainty analyses of costs and benefits. We 
previously reported that US VISIT had not assessed the costs and 
benefits of its program increments. Accordingly, we recommended that 
DHS determine whether proposed US VISIT increments will produce mission 
value commensurate with costs and risks.
---------------------------------------------------------------------------
    \3\ OMB, Planning, Budgeting, Acquisition and Management of Capital 
Assets, Circular A-11, Part 7 (Washington, DC: June 21, 2005).
    \4\ OMB, Guidelines and Discount Rates for Benefits-Cost Analysis 
of Federal Programs, Circular A-94 (Washington, DC: Oct. 29, 1992).
---------------------------------------------------------------------------
    In February 2005, we reported that the program office had not 
justified its investment in Increment 2B (which provides the entry 
capability for electronic collection of traveler information at land 
POEs), because its treatment of both benefits and costs was unclear and 
insufficient.\5\ Since our February 2005 report, the program has 
developed a cost-benefit analysis for Increment 1B (which is to provide 
exit capabilities at air and sea ports of entry). Similar to the 
Increment 2B cost-benefit analysis, this latest analysis, dated June 
23, 2005, meets only some of OMB's criteria for economic analyses. For 
example, it explains why the investment was needed, and it shows that 
at least two alternatives to the status quo were considered. However, 
the analysis does not include a complete uncertainty analysis for the 
three exit alternatives evaluated, which is important to providing 
decision makers with a perspective on the potential variability of the 
cost and benefit estimates should the facts, circumstances, and 
assumptions change.
---------------------------------------------------------------------------
    \5\ For example, the cost-benefit analysis identified two 
categories of quantifiable benefits, but gave no quantitative or 
monetary estimates for those benefits. Instead, the analysis addressed 
two categories of benefits said to be nonquantifiable: strategic 
alignment benefits (such as the improvement of national security and 
the promotion of legitimate trade and travel) and operational 
performance benefits (such as improvement of traveler identification 
and validation of traveler documentation). However, it did not explain 
why those benefits could not be quantified.
---------------------------------------------------------------------------
    To improve its cost-benefit analyses, it is important that the 
program office adhere to relevant guidance. If this is not done, the 
reliability of the analyses is diminished, and an adequate basis for 
making prudent investment decisions does not exist.
    Another area in which US VISIT cost-benefit analyses can be 
improved is the quality of the cost assessments on which they are 
based. As we previously reported, the cost estimate associated with the 
June 2005 cost-benefit analysis, for example, did not meet key criteria 
for reliable cost estimating. In particular, it did not include a 
detailed work breakdown structure, which serves to organize and define 
the work to be performed, so that associated costs can be identified 
and estimated.
    Program officials report that they have initiated actions to more 
reliably estimate the costs of future increments. For example, the 
program has chartered a cost analysis process action team, which is to 
develop, document, and implement a cost analysis policy, process, and 
plan for the program. Program officials also stated that they have 
hired additional contracting staff with cost-estimating experience.
    Strengthening the program's cost-estimating capability is extremely 
important. The absence of reliable cost estimates impedes, among other 
things, both the development of reliable economic justification for 
program decisions and the effective measurement of performance.
    Question. Have you seen an improvement in metrics being used by US 
VISIT to determine the benefits?
    Answer. Measurements of program progress and outcomes are important 
for demonstrating that the program is on track and is producing 
results. Without such measurements, program performance and 
accountability can suffer. To better ensure that US VISIT meets its 
expectations, we made a recommendation to DHS to fully disclose, among 
other things, the benefits to be delivered with US VISIT. However, 
based on our reviews of US VISIT expenditure plans, US VISIT has made 
limited progress in defining and measuring program benefits.
    In the US VISIT fiscal year 2004 expenditure plan, US VISIT 
identified seven benefits for the program: two examples are (1) 
preventing the entry of high-threat or inadmissible foreign nationals 
through better and/or advanced access to data before their arrival and 
(2) improving enforcement of immigration laws through enhanced data 
accuracy and completeness. The plan also identified metrics for three 
of the seven benefits, including the two examples above, and stated 
that the program was developing metrics for measuring the projected 
benefits, including baselines against which progress can be assessed. 
However, the fiscal year 2005 expenditure plan did not include any 
information on these metrics or on progress made on achieving benefits. 
Further, the plan stated that performance measures were still under 
development.
    In the absence of defined metrics, the fiscal year 2005 expenditure 
plan identified examples of how US VISIT is addressing its four stated 
goals. However, the examples largely described US VISIT functions 
rather than measures of goal achievement. For example, in support of 
the stated goal of ensuring the integrity of our immigration system, 
the plan stated that through US VISIT, officers at primary inspection 
can instantly search databases of known criminals and known and 
suspected terrorists. It did not, for example, explain how promised 
immigration system integrity improvements would be measured.
    Question. What progress have you seen in the development of 
performance measures?
    Answer. To ensure that a system adequately supports mission 
operations, it is important to establish measurements of the system's 
operational performance. Thus far, the US VISIT program has made 
limited progress establishing such measurements. For example, we 
reported in September 2003 that the operational performance of the 
initial US VISIT system increments was largely dependent on the 
performance of existing systems that were to be interfaced to create 
these increments. In particular, we said that the performance of an 
increment would be constrained by the availability and downtime of the 
existing systems, some of which had known problems in these areas. 
Accordingly, we recommended that DHS define performance standards for 
each increment that are measurable and that reflect the limitations 
imposed by this reliance on existing systems.
    In February 2005, we reported that several technical performance 
standards for increments 1 and 2B had been defined, but that it was not 
clear that these standards reflected the limitations imposed by the 
reliance on existing systems. Since then, the program office has 
defined certain other technical performance standards for the next 
increment (Increment 2C, Phase 1), including standards for 
availability. Consistent with what we reported, the functional 
requirements document states that these performance standards are 
largely dependent upon those of the current systems. For system 
availability, this document sets an aggregated availability standard 
for Increment 2C components. However, it does not contain sufficient 
information for us to determine whether these performance standards 
actually reflect the limitations imposed by reliance on existing 
systems.
    To further develop performance standards, the program office has 
prepared a Performance Engineering Plan, dated March 31, 2005, that 
links US VISIT performance engineering activities to its System 
Development Life Cycle. The plan (1) provides a framework to be used to 
align the program's business, application, and infrastructure 
performance goals and measures; (2) describes an approach to translate 
business goals into operational measures, and then to quantitative 
metrics; and (3) identifies system performance measurement areas 
(effectiveness, efficiency, reliability, and availability). According 
to program officials, they intend to establish a group to develop 
action plans for implementing the engineering plan, but they did not 
have a time frame for developing these plans.
    Question. One of GAO's prior recommendations was for US VISIT to 
develop a risk management plan, and to report all high risks and their 
status to an executive body. Earlier this year, the risk management 
plan had been partially implemented. Have you seen evidence that US 
VISIT is managing its risks well?
    Answer. Risk management is a continuous, forward-looking process 
that is intended either to prevent possible problems from occurring or 
to minimize their impact if they occur by proactively identifying 
risks, implementing risk mitigation strategies, and measuring and 
disclosing progress in doing so. A related key to successfully managing 
risks is to develop a plan and process for identifying, analyzing, 
mitigating, and monitoring risks. Accordingly, we recommended in 
September 2003 that US VISIT develop and implement a risk management 
plan.
    Since then, US VISIT has taken several actions to implement this 
recommendation and to strengthen risk management. For example, the 
program office has
  --developed and has begun implementing a risk management plan that 
        includes, among other things, a process for identifying, 
        analyzing, handling, and monitoring risk;
  --defined a governance structure to oversee and manage the process;
  --established a risk database that includes, among other things, a 
        description of the risk, its priority (e.g., high, medium, or 
        low), and its mitigation strategy; and
  --developed risk management training and provided this training to 
        program personnel beginning in November 2005.
    Notwithstanding these steps, US VISIT has not yet fully implemented 
its risk management plan and process. As part of an assessment of its 
process maturity, the US VISIT program office found that the risk 
management process detailed in its plan was not being consistently 
applied across the program. In response, program officials stated that 
they have developed risk management training and began conducting 
training sessions in November 2005.
    In responding to these questions, we relied on past work related to 
our reviews of US VISIT's program management. We conducted this past 
work in accordance with generally accepted government auditing 
standards.

                         CONCLUSION OF HEARING

    Mr. Williams. Mr. Chairman, if I may say, and to Ranking 
Member Byrd, I really appreciate the pat on the back. I work 
with, frankly, an incredible team of dedicated Government 
officials and contract officials, people who just work around 
the clock to make this work. Some of the people are here with 
me today and it is my honor to work with them. I will convey 
your words back to the team. So I appreciate that.
    Senator Gregg. Thank you, and thank you for your time 
today.
    The hearing is recessed.
    [Whereupon, at 11:34 a.m., Wednesday January 25, the 
hearing was concluded, and the subcommittee was recessed, to 
reconvene subject to the call of the Chair.]


</pre></body></html>
